<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2009</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                                                      

  INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 2009
                          INTERIOR, ENVIRONMENT, AND RELATED
                    AGENCIES APPROPRIATIONS FOR 2009
______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS
                             SECOND SESSION

                                ________

       SUBCOMMITTEE ON INTERIOR, ENVIRONMENT, AND RELATED AGENCIES
                  NORMAN D. DICKS, Washington, Chairman

 JAMES P. MORAN, Virginia           TODD TIAHRT, Kansas
 MAURICE D. HINCHEY, New York       JOHN E. PETERSON, Pennsylvania
 JOHN W. OLVER, Massachusetts       JO ANN EMERSON, Missouri
 ALAN B. MOLLOHAN, West Virginia    VIRGIL H. GOODE, Jr., Virginia
 TOM UDALL, New Mexico              KEN CALVERT, California
 BEN CHANDLER, Kentucky
 ED PASTOR, Arizona


 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
             Mike Stephens, Christopher Topik, Greg Knadle,
               Delia Scott, Beth Houser, and Kim Jefferson
                            Staff Assistants

                                ________

                                 PART 6
                                                                   Page
 Environmental Protection Agency..................................    1
 Forest Service...................................................  199
 National Endowment for the Arts and Arts Advocacy Day............  337
 National Endowment for the Humanities............................  429
 Smithsonian Institution..........................................  471

                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 42-221                     WASHINGTON : 2008

















                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 JOHN P. MURTHA, Pennsylvania                JERRY LEWIS, California
 NORMAN D. DICKS, Washington                 C. W. BILL YOUNG, Florida
 ALAN B. MOLLOHAN, West Virginia             RALPH REGULA, Ohio
 MARCY KAPTUR, Ohio                          HAROLD ROGERS, Kentucky
 PETER J. VISCLOSKY, Indiana                 FRANK R. WOLF, Virginia
 NITA M. LOWEY, New York                     JAMES T. WALSH, New York
 JOSE'1 E. SERRANO, New York                 DAVID L. HOBSON, Ohio
 ROSA L. DeLAURO, Connecticut                JOE KNOLLENBERG, Michigan
 JAMES P. MORAN, Virginia                    JACK KINGSTON, Georgia           
 JOHN W. OLVER, Massachusetts                RODNEY P. FRELINGHUYSEN, New Jersey       
 ED PASTOR, Arizona                          TODD TIAHRT, Kansas
 DAVID E. PRICE, North Carolina              ZACH WAMP, Tennessee
 CHET EDWARDS, Texas                         TOM LATHAM, Iowa
 ROBERT E. ``BUD'' CRAMER, Jr., Alabama      ROBERT B. ADERHOLT, Alabama           
 PATRICK J. KENNEDY, Rhode Island            JO ANN EMERSON, Missouri
 MAURICE D. HINCHEY, New York                KAY GRANGER, Texas
 LUCILLE ROYBAL-ALLARD, California           JOHN E. PETERSON, Pennsylvania
 SAM FARR, California                        VIRGIL H. GOODE, Jr., Virginia
 JESSE L. JACKSON, Jr., Illinois             RAY LaHOOD, Illinois
 CAROLYN C. KILPATRICK, Michigan             DAVE WELDON, Florida
 ALLEN BOYD, Florida                         MICHAEL K. SIMPSON, Idaho
 CHAKA FATTAH, Pennsylvania                  JOHN ABNEY CULBERSON, Texas
 STEVEN R. ROTHMAN, New Jersey               MARK STEVEN KIRK, Illinois
 SANFORD D. BISHOP, Jr., Georgia             ANDER CRENSHAW, Florida
 MARION BERRY, Arkansas                      DENNIS R. REHBERG, Montana         
 BARBARA LEE, California                     JOHN R. CARTER, Texas
 TOM UDALL, New Mexico                       RODNEY ALEXANDER, Louisiana
 ADAM SCHIFF, California                     KEN CALVERT, California
 MICHAEL HONDA, California                   JO BONNER, Alabama
 BETTY McCOLLUM, Minnesota
 STEVE ISRAEL, New York
 TIM RYAN, Ohio
 C.A. ``DUTCH'' RUPPERSBERGER, 
Maryland
 BEN CHANDLER, Kentucky
 DEBBIE WASSERMAN SCHULTZ, Florida
 CIRO RODRIGUEZ, Texas              
                      Rob Nabors, Clerk and Staff Director

                                  (ii)

























 
DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2009

                              ----------                              

                                      Tuesday, February 26, 2008.  

                    ENVIRONMENTAL PROTECTION AGENCY

                               WITNESSES

STEPHEN L. JOHNSON, ADMINISTRATOR
MARCUS C. PEACOCK, DEPUTY ADMINISTRATOR
BENJAMIN H. GRUMBLES, ASSISTANT ADMINISTRATOR, OFFICE OF WATER

                  Opening Statement of Chairman Dicks

    Mr. Dicks. The Committee will come to order.
    Mr. Johnson, on behalf of the Committee, I want to welcome 
you this afternoon and thank you for accommodating the change 
in the hearing time.
    Today we will discuss the fiscal year 2009 budget proposal 
for the U.S. Environmental Protection Agency. But before we 
begin our review of the fiscal year 2009 request, I want to 
make a quick comment on the fiscal year 2008 budget. I regret 
in the end we were unable to sustain some of the more important 
increases passed by the House in its version of the Interior 
and Environment bill. In particular, I would like larger 
amounts for climate change programs and the Clean Water State 
Revolving Fund but the difficult constraints imposed by the 
Administration and its inflexible budget policies make it 
impossible to do so.
    Turning to fiscal year 2009, I have to say I am dismayed by 
the requests for the EPA. If we were to enact this budget, it 
would be the lowest EPA budget in a decade. Allowing for 
inflation, your budget is 27 percent below the 2001 enacted 
level. The budget will support approximately 16,311 FTEs. That 
is almost 1,000 fewer FTEs than you had in 2003. One has to 
wonder how the work is getting done with reductions in staff of 
that magnitude, and this budget does nothing to reverse the 
trend.
    The single largest reduction is the Clean Water State 
Revolving Fund. Your request is 48 percent below the level we 
provided in fiscal year 2007. Over the course of the last eight 
years the President has proposed almost $3 billion in cuts from 
the prior year appropriations. That is enough to have provided 
loans to 1,000 American communities. As you know, one of our 
adopted sons in Washington State, our friend Bill Ruckleshaus, 
had your job. He tells me that in the late 1970s the average 
annual federal appropriation for grants to build wastewater 
treatment plants was $3.5 billion. The federal share of those 
projects was 75 percent. Today you propose one-half of $1 
billion for loans. We have to figure out a way to help meet the 
needs of our communities because many of them are caught in a 
catch-22 of having to meet federal clean water standards 
without the resources to do the work.
    Your budget also severely reduces or eliminates almost 
every environmental initiative we funded in fiscal year 2008. 
The Subcommittee has a number of concerns with the request 
including a 31 percent reduction to programs to restore and 
protect the great water bodies of this country, a $22 million 
reduction to important climate change programs, a $67 million 
reduction to grants for States, a one-third cut to the Leaking 
Underground Storage Tank program, 42 FTEs reduced from your 
enforcement effort, elimination of the environmental education 
and rural water assistance programs, even a small cut to 
remediation at Superfund sites. It seems as though the only 
significant increases in your request are for homeland security 
and fixed costs, and we certainly understand the need for 
adjustment for fixed costs.
    Let me also mention that I am excited about the 2008 
increases we approved for many of the great water bodies in 
this country. We funded the programs you requested for many of 
the important water bodies like the Chesapeake Bay, the Great 
Lakes and the Gulf of Mexico. In addition, we approved 
increases for the Puget Sound program. It is the second largest 
estuary in the country and it is time we paid attention to its 
restoration and protection. I know that the Administrator has 
been out there and knows well what the problem is. I think we 
have a real opportunity here to do something historic and I 
look forward to working with you, Ben Grumbles, your region 10 
staff and the Puget Sound partnership to ensure that we 
implement a sound program.
    I understand that tomorrow you and your staff will meet 
with the National Rural Water Association. Thank you for 
convening this meeting, which was something I suggested to Ben 
Grumbles late last year. NRWA does good work for our rural 
communities, many of whom are struggling to come into 
compliance with the drinking water regulations. I think the 
next step will be to include base funding for this important 
work in your request so this will not have to be an earmark, 
which the Administration has already said that they are not in 
favor of, and that we have to reduce them by 50 percent if we 
are going to get a bill signed. But this meeting is a good 
start and we applaud it.
    Mr. Johnson, today's session will give us a chance to hear 
your testimony, your side of the case, and also give you a 
chance to hear the concerns of the Subcommittee members. But I 
must say, I am worried about this because your predecessor laid 
out to us a long list of water projects that need to be done, 
some $388 billion in backlog. We are talking about backlogs in 
roads and bridges in this country but wastewater facilities all 
over the country are dated and need to be replaced and so we 
are concerned about this. As we see your budget being cut, cut, 
cut, we are just worried about your ability to respond to these 
important national priorities.
    Mr. Dicks. So now I will turn this over to Mr. Tiahrt for 
his statement and then we will hear from the Administrator.

                    Opening Statement of Mr. Tiahrt

    Mr. Tiahrt. Thank you, Mr. Chairman.
    Welcome, Mr. Johnson and Mr. Peacock. I appreciate you 
coming. Steve, I want you to know things are going well in 
Coffeyville, Kansas. Thank you for coming to visit that site. 
We had a terrible flood there and an oil spill when the 
floodwaters got into an oil refinery and they were unable to 
get the right valve turned off and we spilled I think about 
80,000 gallons of crude oil into the water system. The cleanup 
is going very well. In fact, it is pretty well all done. The 
houses that were involved, there were about 300, 280 have been 
taken down and they are putting a green area in there. Of the 
20 that are left, they are all asbestos related. And I was just 
down there last week and they are covered with plastic and they 
are doing it properly, so your folks did a great job in 
Coffeyville and I want to thank you for that because it really 
helped that community get back on their feet in a safe way.
    As we all know, this is the beginning of the budget 
process, and while we want to hear about your priorities, we 
understand that the Appropriation Committee is going to play a 
critical role in the development of your budget. While there 
are numerous increases and decreases throughout, it seems like 
one of the most significant reductions is the Clean Water State 
Revolving Fund. The need is great throughout the country. I 
know in south central Kansas it really is. And I note that 
there are significant increases in homeland security needs and 
in new sustainable port initiatives. So I am really looking 
forward to your testimony and to our conversation here.
    I also want to thank you for being part of the National 
Rural Water Association's event. I think that is very big. For 
those of you who live in rural areas, it has been a very 
important part of making life sustainable and growth 
sustainable in those areas. I know when I moved in West 
Sedgwick County back in 1981, I had a local water company come 
out to see if I needed a water softener or not, and he said 
your water is so hard it is off the charts. It was not 
drinkable. We holed our water until we got real water. So the 
National Rural Water Association has done a lot to help us in 
those rural areas. So I appreciate your being part of that, and 
as we go through this process of making rural areas more 
sustainable to fill the water needs, you guys are going to play 
a significant role and we want to be part of that process in 
helping those communities adapt. So I am looking forward to 
your testimony.
    Thank you, Mr. Chairman.
    Mr. Dicks. Thank you.
    And you may proceed as you wish. We will place your entire 
statement in the record as usual and you can summarize or do 
whatever you want.

               Opening Statement of Administrator Johnson

    Mr. Johnson. Thanks, Mr. Chairman and members of the 
Committee. I really am pleased to be here today to discuss the 
President's fiscal year 2009 budget request for the EPA. This 
marks the eighth and final budget introduced by the President 
during his tenure, and as the Bush Administration sprints to 
the finish line, I believe this budget will keep EPA on a 
course for a cleaner tomorrow.
    At EPA, we are proud that our Nation's air is cleaner and 
our water is purer and our land is healthier than just a 
generation ago and so we appreciate the President's $7.14 
billion budget proposal which will help EPA keep pace with the 
environmental challenges of tomorrow.
    One important challenge is in the arena of clean and 
affordable energy. With both demand and cost on the rise, 
innovators are moving forward to advance clean power solutions. 
At the same time, industry is searching for new domestic energy 
supplies to help reduce the Nation's dependency on foreign oil. 
In doing so, we estimate that industry will explore thousands 
of new oil and gas wells on tribal and federal lands alone as 
well as proposing many energy projects. To ensure these 
projects move forward in an environmentally responsible manner, 
this budget requests $14 million to hire additional technical 
experts and provide grants to our partners to increase their 
capacity to review and assess proposed projects. In addition, 
the budget contains sufficient funding to meet our commitment 
to addressing the serious challenge of global climate change. 
In order to advance clean air technologies, the President 
requested $49 million for EPA's diesel retrofit grant programs.
    Another challenge is to improve our Nation's aging drinking 
water and wastewater infrastructure. The budget requests $842 
million to fund the Drinking Water State Revolving Fund grants, 
which is an increase of $13 million from last year. This will 
help the President's commitment to achieve a $1.2 billion 
revolving level by 2018. For the Clean Water State Revolving 
Funds, the President proposes an investment of $555 million in 
2009. This will enable the program to meet its long-term 
revolving target of $3.4 billion by 2015. In addition, we once 
again propose to create water enterprise bonds as innovative 
financing tools for State and local partners to cost-
effectively provide for the residents' water needs.
    As we address our water infrastructure, the budget 
continues to support EPA's collaborative work to protect 
America's great water bodies. It provides $35 million for the 
Great Lakes, $29 million for Chesapeake Bay and $4.6 million 
for the Gulf of Mexico.
    As you know, EPA is not only a guardian of our environment, 
it is a guardian of our homeland, and I am proud of our 
responses to Hurricanes Katrina and Rita and to a number of 
other natural events in recent years. However, we recognize the 
need to expand our capabilities to respond to multiple 
simultaneous catastrophic events. So this budget requests an 
extra $32 million for a total investment of $170 million to 
train staff volunteers, increase decontamination capabilities 
and fully fund five water infrastructure security pilots. This 
additional funding also includes a $5 million increase to 
support our biodefense research.
    In order to keep pace with the environmental challenges of 
tomorrow, we have a responsibility to advance the state of our 
science. In this budget, the President requested $15 million to 
help EPA study nanotechnology as well as an additional $15 
million for computational toxicology.
    At EPA, we are working with our community partners to pass 
down a healthier, more prosperous future. The President's 
budget provides over $1.2 billion for our Superfund program to 
continue transforming contaminated hazardous waste sites back 
into community assets. This is a $10 million increase from 
fiscal year 2008.
    The President also requested $165.8 million for a 
successful brownfields program. We project that grantees will 
help assess the renovation of 1,000 properties and create or 
leverage more than 5,000 jobs. But while cooperative 
initiatives are important, we must continue to vigorously 
enforce our Nation's environmental laws. This budget proposes 
the highest dollar amount for enforcement in EPA's history, 
$563 million, which is an increase of $9 million over fiscal 
year 2008.
    As EPA works to fulfill our responsibilities to the 
American people, I am pleased that this budget not only 
continues to deliver environmental results today, it keeps EPA 
on course to deliver a cleaner, healthier tomorrow. Bottom 
line, this budget represents good government. It helps EPA meet 
our environmental goals while being responsible stewards of 
taxpayers' dollars.
    Thank you, and I appreciate the opportunity to appear 
before you today, Mr. Chairman.
    [The statement of Stephen L. Johnson follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
                        GREENHOUSE GAS REGISTRY

    Mr. Dicks. Thank you. For fiscal year 2008, Congress 
appropriated $3.5 million for EPA to begin a greenhouse gas 
registry. The 2008 Omnibus mandates that you propose a draft 
rule no later than nine months after enactment and a final rule 
18 months after enactment. The registry would require mandatory 
reporting of greenhouse gas emissions above appropriate 
thresholds. What are the timeline and milestones for proposing 
the rule by September of this year?
    Mr. Johnson. Yes. We have initiated our work on the 
greenhouse gas registry and it is our intent to meet the 
Omnibus time frames which as you point out were nine months 
from enactment, September. We are aggressively working to meet 
that schedule. As part of the Omnibus, we are encouraged to 
work with existing programs and that is our first start. We 
note that there are California and thirty-seven other states 
that either have or are expressing shortly that they will have 
state efforts for greenhouse gas registries so we are learning 
from those experiences as we move forward. Our intention is to 
meet the deadline that is in the Omnibus appropriation.
    Mr. Dicks. Do you expect to carry over into fiscal year 
2009 any of the $3.5 million we provided in fiscal year 2008?
    Mr. Johnson. As you correctly point out, it is two-year 
money. We are now working on our operating plan. I am not sure 
how much will actually be carried over as part of that but 
certainly we would expect to continue our work on that as we 
move from a proposal to a final regulation next year.
    Mr. Dicks. Your fiscal year 2009 request is zero for this 
activity, but in order to finalize the rule by June of 2009 as 
mandated in law, you will no doubt expend resources in fiscal 
year 2009. I take it because you said this is two-year money 
you are going to probably use this $3.5 million?
    Mr. Johnson. That is correct.
    Mr. Dicks. Can you tell us, are there any additional funds 
that you may need to finish the rule by June 2009 as mandated 
in the law?
    Mr. Johnson. At this point I am unable to project the need 
for additional funds to finalize the rule. What I can say is 
once the rule is finalized that the operation and maintenance 
of the registry is an unfunded item so it would have to be 
considered as part of the fiscal year 2010 budget.

                          GREENHOUSE GAS RULES

    Mr. Dicks. Okay. Good. I am glad to hear that. For fiscal 
year 2008, we also provided an additional $2 million for your 
work on the fuels and vehicle greenhouse gas regulations 
announced as the Administration's response to the Supreme Court 
ruling in Massachusetts versus EPA. I understand that work 
stopped on both the vehicle and fuels rules while you assessed 
the impact of the Energy Independence and Security Act on those 
two rules. At the same time, you have testified before Congress 
that the problem of greenhouse gases is fundamentally global in 
nature. In fact, you denied California's waiver request because 
California is not unique. That logic would of course argue for 
national standards. Can you give me a timeline for completing 
the two rules and tell us what is in your fiscal year 2009 
request for these activities?
    Mr. Johnson. Yes, I would be happy to, Mr. Chairman. First 
of all, as you correctly point out, it is a global issue. I did 
say that I intended to deny the California waiver. My 
commitment to the governor and Congress was that I would 
finalize that decision by the end of the month, and that is 
certainly Friday of this week and I intend to meet that.
    With regard to our activities on climate change, they range 
from a whole host of activities on the international front. I 
would encourage your support of our Asia-Pacific Partnership 
because of the necessary work with China. In addition, here on 
the domestic front, we have a wide range of activities we are 
working on from carbon sequestration and we have begun the 
rulemaking effort on the renewable fuel standard. On February 
14, we issued a Federal Register notice taking the first step 
to establish what the calendar year 2008 requirements are for 
the renewable fuel standard. So we have done that and we are 
beginning to work on the remainder of the renewable fuel 
standard.
    With regard to the rest of the climate change activities, I 
am currently evaluating a whole host of activities, not only 
the Mass. versus EPA decision, and what does that mean for 
vehicles. A whole host of petitions are pending before the 
agency as well as permits. I think that it is responsible good 
government for me to take a step back and look at all of these. 
Obviously each one needs to be evaluated on its own merit. But 
I also understand the intricacies of the Clean Air Act and that 
one step in this portion of Clean Air Act can and will have a 
dramatic effect on other portions of the Clean Air Act. Since 
we have all of these moving pieces, I am taking a step back and 
looking at what is the appropriate framework to address these. 
In the meantime, we are working away on the greenhouse gas 
registry. We are working on the renewable fuel standard. As I 
said, we have already taken the first step with the Federal 
Register notice. We have had a lot of activities going on on 
the international front from the major economies effort to 
specific projects as well as some of the projects that we know 
are highly successful like Energy Star.

                       CLIMATE CHANGE ACTIVITIES

    Mr. Dicks. Is it true that in order to promulgate either of 
these two rules on fuels and vehicles, you would first have to 
make an endangerment finding that basically states greenhouse 
gases are pollutants?
    Mr. Johnson. Well, that is----
    Mr. Dicks. Is that the complication you were talking about?
    Mr. Johnson. That is one of the complications and one of 
the issues as to whether one does have to issue an endangerment 
finding or one does not have to and then obviously what the 
implications are, not only in the context of mobile sources but 
what that means for stationary sources. I know that people are 
very anxious and would like for me to move quickly, and I am 
considering all these expeditiously. In the meantime we have a 
lot of activities our staff are working on.

                             CLEAN AIR ACT

    Mr. Dicks. So you just said it. If you made an endangerment 
finding, you would then be required to regulate CO<INF>2</INF> 
from all sources, not only from automobile emissions. Is that 
not correct?
    Mr. Johnson. The way the Clean Air Act works is and 
certainly what the Supreme Court raised in their decision on 
carbon dioxide was that if the agency determines that there is 
endangerment, then we would be required to regulate. That was 
said in the context of mobile sources. The way the Clean Air 
Act works is that once an endangerment finding is made, even in 
the context of mobile sources, would then require regulation on 
stationary sources, although there is still a question in this 
area. That is why it is one of the important issues 
understanding what its implications are or not in the context 
of both mobile sources as well as stationary sources.
    Mr. Dicks. Well, just speaking for myself, if we are not 
going to let California and the other States, Washington State 
being one of them, go forward, then it seems to me we have to 
in a timely way address this thing at a national level with 
national standards.
    Mr. Tiahrt.
    Mr. Tiahrt. Thank you, Mr. Chairman, and speaking from 
Kansas, I would just as soon let California do what they want 
to do and leave us alone.
    Mr. Dicks. And California wants the same thing.

                              FIXED COSTS

    Mr. Tiahrt. And California wants the same thing.
    There are a lot of interesting technologies in carbon 
sequestration now. I just was watching the Discovery Channel 
last night and they talked about the Arizona project using 
algae to consume carbon and it ends up producing a substance 
which can then be used for making plastics or to be burned 
again. So I think a lot what we should do now is focus on this 
new technology so that we can solve problems in other ways 
other than just punishing States and people one way or the 
other. And I do not think the science is settled on climate 
change yet but I do think that maintaining a good environment 
is very important, and we talk in broad terms of greenhouse 
gases. Greenhouse gases include a lot including mostly water 
vapor and we certainly would not consider regulating that, I 
would not think.
    I am a little concerned about the area of your budget that 
only has 60 percent for paying fixed costs as compared to 86 
percent for the rest of the Department of the Interior. If we 
are not able to make some adjustments here on those paying 
fixed costs, what are your plans to meet those obligations?
    Mr. Johnson. We believe that the budget certainly 
adequately covers our fixed costs and in fact accounts for the 
fixed costs as an agency. Having said that, as an agency, we 
are looking at continued ways that we can improve our 
performance and get, if you will, more bang for the buck. That 
goes from building green buildings, and we are very proud to be 
one federal agency buying 100 percent green power, to having 
facilities that are meeting Leed certification at the silver or 
gold levels. We are using our dollars wisely in our fixed 
costs. We have commissioned a laboratory study to look at 
things that we can do to improve the efficiency of our 
operating laboratories across the country. So we are continuing 
to move forward at that pace.
    Sir, I did want to comment. I appreciate your comments on 
Coffeyville and I want to thank you for your leadership. I know 
it seems within moments of the natural disaster that you 
contacted me and I appreciate our great working relationship. 
Also I appreciate the opportunity to go out and visit and see 
the progress and some of the challenges. I am pleased that we 
are on track to fix that area, and of course what is even more 
exciting is to see that oil refinery facility actually donate 
land back to the city and make a green space. So taking what 
was an awful situation and really turning it out for good.

                   LEAKING UNDERGROUND STORAGE TANKS

    Mr. Tiahrt. Thank you, and we do not hear often reports on 
success stories. We are more likely to hear when EPA fails than 
when they succeed, and this is certainly one case where 
partnership that EPA had with the local community, with the 
State worked very well, and I want to make sure that the 
infrastructure is there so that when the need arises in other 
communities you have the same ability to respond as quickly and 
as efficiency as you did to Coffeyville, Kansas.
    The leaking underground storage tanks, there is a reduction 
in there, and I cannot speak for the rest of the Nation but it 
seems like we have done a lot to deal with underground storage 
facilities as far as changing the technology for the storage, 
cleaning up the ones that had the old metal tanks. Is there 
going to be a point where we see a reduction here compared to 
what was enacted in 2008 of about $33 million, $33.5 million. 
Is the $72.5 million that you propose going to be enough to 
handle the diminished need here?
    Mr. Johnson. As I know you probably even appreciate more 
than I, looking at many, many budgets, the budget is 
complicated and in fact for our 2009 request our actual 
request, total request for the underground storage tanks 
program is $103.8 million. As part of that, there is not the 
traditional funding from the leaking underground storage tanks 
trust fund, but there is also the STAG account, the State and 
Tribal Assistance Grants, so it is actually $103.8. The enacted 
budget of 2008 was $116.2 so there is a difference of $12.4 
million. That reduction is because we believe, and have 
proposed as a part of the budget proposal, that there is a 
better way than the required inspection program that is a 
requirement as part of the Energy Policy Act of 2005. There is 
a more cost-effective way, to accomplish the inspections that 
are required in the 2005 Energy Policy Act and do it in a more 
cost-effective way and in fact save taxpayers at least $12.4 
million. I would like to just launch on one other thing that--
or actually two other things we talked about. One, is the 
opportunity through an alternative program to address 
underground storage tanks. Another area which I commented on 
last year and I would certainly like to call to the chairman 
and the full committee's attention, is the opportunity for us 
to make a difference for abandoned mines, the key word 
abandoned. There are over 500,000 abandoned mines in the United 
States. We have a lot of Good Samaritans who want to come in 
and help if it were not for the fact that they assume liability 
if they come in and try to do something. Here is an opportunity 
to make a difference across the Nation, making an environmental 
difference using our citizen volunteers to really help and do 
so in a responsible way. So I would certainly encourage all of 
you to give careful consideration to this program. We think it 
is a program that is necessary and one that we could use our 
citizen volunteers to help make a difference.
    Mr. Tiahrt. Thank you.
    Mr. Chairman.
    Mr. Dicks. Mr. Moran.
    Mr. Moran. Thank you, Mr. Chairman.
    Mr. Johnson, it is nice to have you join us.
    Mr. Johnson. Thank you.

                       AIR STATE GRANTS REDUCTION

    Mr. Moran. I know it must be difficult being a professional 
working within this political environment but EPA has once 
again proposed cutting funding that supports the work of local 
and State air quality agencies, a substantial reduction, more 
than $31 million. Nationwide, EPA has found cutting the grant 
program will result in a loss of State air pollution control 
officials and that it will seriously impair the States' ability 
to implement ozone and particulate matter standards. It is 
likely that Congress will enact legislation that is going to 
address greenhouse gases very soon. That is going to impose a 
new regulatory burden on the States. So I would ask why is EPA 
cutting the funds that would support professionals working in 
air quality positions? This budget cut is going to eliminate 
those positions just when significant new regulatory burden is 
on the horizon and we do not have enough people to do what is 
already required. Why would you do that?
    Mr. Johnson. Well, there are two reasons. The President's 
budget proposes a cut of $17 million, which is a transfer of 
the particulate matter monitors from section 103 to section 
105, and what that means is that a State match of Federal funds 
is required. When the grant program was set up, it was 
envisioned and certainly the history is, is that the Federal 
government would pick up the tab for the entire monitoring in 
the early days to get the monitoring program established and 
then as that became a more established program, then it would 
evolve into a state match and so that is $17 million of the cut 
that you are referring to. The other $14 million is a reduced 
level of support for attaining current NAAQS for carbon 
monoxide, for SO<INF>2</INF> as well as lead. In fact, for 
those three current standards, all but one area of the country 
are meeting the standards, and in fact, when you look at that 
whole overall area, we are still supporting in the budget by 
way of $185.6 million to help in the air arena.

                             MERCURY RULES

    Mr. Moran. It seems to me that EPA has taken a position 
that in effect undermines State efforts to do the responsible 
thing with regard to air pollution, and the Chairman brought up 
the situation with California. I was stunned that where I would 
think that EPA would be encouraging State and local efforts, 
you pulled the rug out from under California, which was 
attempting to show the lead because of the lack of leadership 
on the Federal government's part, and now you are cutting the 
money that would enable States to move forward in finding ways 
to reduce air pollution and to deal with climate change, even 
though there are apparently people on this committee who still 
question what all of the scientists have concluded, that 
climate change is real and is a serious threat to the health of 
our citizens. The U.S. Court of Appeals for D.C., certainly not 
a liberal court, a very conservative court but they recently 
ruled that EPA violated the Clean Air Act in 2005 when you 
exempted coal plants from emission controls for mercury and 
other toxic substances like arsenic, lead and nickel. The Clean 
Air mercury rule would have created a cap and trade program to 
allow utilities to swap rights to emit mercury to comply with 
overall limits that would reduce nationwide emissions by 70 
percent by the year 2018. The court ruled that EPA must 
fundamentally rework its mercury rules for utilities. How does 
your budget request comply with that court order?
    Mr. Johnson. Well, first, it is worth noting that because 
of the Clean Air interstate rule that was signed and put in 
place for SO<INF>2</INF> and NO<INF>X</INF> reductions, we 
actually get early mercury reductions, which is good. Having 
said that, we are disappointed in the court's decision because 
we are the first country to regulate mercury from coal-fired 
power plants. We are now reviewing the decision. We have not 
made any decision as to what our next steps are, given the 
court's decision, but as I said, we will be getting some early 
reductions because of our Clean Air interstate rule 
implementation.
    Mr. Moran. Are you personally disappointed that the court 
required that you monitor mercury emissions from utility 
plants, from power plants, knowing the toxicity of mercury? Are 
you really personally disappointed with that, Mr. Johnson?
    Mr. Johnson. I am very disappointed in the court's ruling 
because it overturned and left vacant the first-ever regulation 
of mercury from coal-fired power plants, so yes, I am very 
disappointed in that. Again, in the court's decision, the court 
was on the delisting. They did not get to the issue of whether 
cap and trade or section 111 was an appropriate vehicle for 
considering----
    Mr. Moran. Well, do you plan to pursue a cap and trade 
approach?
    Mr. Johnson. Again, we have not made any decisions. We 
recently just got the decision so we are looking at what our 
next steps are.
    Mr. Moran. Well, yes. That is what the rest of the country 
is talking about. You would be the ones to implement it. There 
must have been some discussions. It is hard to believe that you 
do not have an opinion on the cap and trade approach.
    Mr. Johnson. Well, as I said, I am certainly disappointed 
and believe that the cap and trade is a good way and a cost-
effective way of achieving control technology. Again, with 
regard to the recent court decision, I have not made a decision 
as to what our next steps will be, given that decision.
    Mr. Moran. Are you going to provide resources to States and 
localities who are trying to enforce their own standards to 
reduce the risk from these emissions of mercury and other 
toxicities?
    Mr. Johnson. Well, again, that is another very important 
question is, how do State activities or proposed State 
regulations square up with this court decision and then what 
would be the appropriate steps either at the State level or 
certainly at the Federal level. Those are all part of the 
considerations that I am giving right now.

                             TRONA RESEARCH

    Mr. Moran. We have a power plant that affects the air that 
everyone in the Washington, D.C., area breathes. It is across 
the Potomac River. It was built about 50 years ago and it is 
the worst stationary source of air pollution in the entire 
Washington area, the worst stationary source. They are using a 
chemical called Trona. Now, on the Trona manufacturer's 
website, it warns that this can be hazardous to people's 
health, causing lung disease, cancer, et cetera, but we are 
putting it into this power plant's emissions and yet in effect 
it is polluting the air that we all breathe in Washington, the 
Nation's capital. Have you done any research on Trona? Because 
apparently other power plants are going to use this as well 
since EPA has not come down on this particular power plant. You 
stayed silent. Do you have any thoughts on that?
    Mr. Johnson. Well, a couple. One is that as you are well 
aware and certainly as we have discussed, the Virginia 
Department of Environmental Quality is the primary implementer 
of the Clean Air Act in Virginia and addresses these kind of 
issues. With regard to Trona, what we do know, it is a 
naturally occurring substance. It has been used in a public 
utility power station in Denver for control of SO<INF>2</INF> 
emissions for about 20 years. It has also been used 
successfully at the American Electric Power Company's Gavin 
Power Plant in Ohio, which is a significantly larger facility, 
to mitigate high SO<INF>3</INF> concentrations and resolve 
local air qualities. I know that it is, I believe, at least as 
I understand, it is used in other plants. Our Office of 
Research and Development is beginning to look at the scope and 
the nature of this material and working with the States but we 
certainly are aware that it is being used in other parts of the 
Nation and have been used for quite a while.
    Mr. Moran. The question was on research. I know, Mr. 
Chairman. I do not have any further questions but I do have a 
comment. You know, at one point your first response to that 
question was well, we defer to the States, but on the other 
hand, you do not give the States the resources that are 
necessary, and when a State does take initiative like 
California did, you overturn it. So it does seem to be an 
inconsistent position with EPA's role vis-a-vis the States.
    Thank you, Mr. Chairman.
    Mr. Dicks. Mrs. Emerson.

          CLEAN WATER STATE REVOLVING FUNDS--STATE BOND MATCH

    Ms. Emerson. Thanks, Chairman.
    Thank you so much for being here today. It is nice to see 
you again. My first question has to do with the Clean Water 
State Revolving Fund, and I noticed that back at the end of 
March 2007, the Inspector General's Office issued a report 
urging EPA to stop States' use of bonds to meet revolving funds 
match requirement of the Clean Water State Revolving Funds. I 
also know, I am sure you know that not only Missouri but 20 
other States in fact use match funds to secure their revolving 
funds so that we are able to complete wastewater projects and 
upgrade some deteriorating wastewater infrastructure, 
especially in our rural areas. It is quite important.
    My question is, Mr. Johnson, in fiscal year 2009, if you 
all have any intention to refuse to accept match funds or any 
other means of contributions to satisfy the match requirement?
    Mr. Johnson. Our 2009 budget allows for state bond match.
    Ms. Emerson. Okay. Do you think that will be revisited this 
year at all?
    Mr. Johnson. In constructing the President's request for 
2009, our working assumption is that the budget allows for 
state bond match.
    Ms. Emerson. Okay. Well, that is certainly helpful because 
I do not know how our State particularly would be able to do 
many of the projects that it is currently doing to try to keep 
on the right side of the law.
    Mr. Johnson. Just to add to that, if I might, is that as I 
mentioned in my opening testimony, clearly we all agree that 
the needs are great in our safe drinking water and clean 
drinking water area, capital needs are great, and the Federal 
government clearly has a role to play but also ratepayers, each 
of us individually have a role to play, and there are steps 
that can be taken and one of the ones that we are certainly 
encouraging Members of Congress, you, to carefully consider and 
that is the use of private activity bonds. We have seen the 
success of private activity bonds, calling them water 
enterprise bonds here. We see it as another important 
opportunity for us to make and have more funds available to 
address the serious needs that the Chairman and I think all the 
members really believe and so I would really encourage you all 
to seriously consider steps to help us to make those private 
activity bonds a reality.
    Ms. Emerson. I appreciate that. Thanks, and I will have to 
learn more about that.
    Mr. Dicks. Yes, why do you not tell us? Without infringing 
on your time----
    Ms. Emerson. Okay. That is great.

                         PRIVATE ACTIVITY BONDS

    Mr. Dicks. Tell us--Ben has tried to explain this to me 
over the years and I am still waiting for a good answer or one 
that I can understand.
    Mr. Johnson. Well, sure.
    Mr. Dicks. Tell me what private activity bonds are.
    Mr. Johnson. Private activity bonds, the current Internal 
Revenue Code, it is section 146 of the Internal Revenue Code, 
has a cap on the States' ability to privatize and to include 
capitalization of a variety of things including water 
activities and so what needs to happen is to revise section 146 
to actually remove the cap which would--and I think I am 
getting this right--yes--I checked with my tax attorney here--
to make adjustments in there to allow the State to then use 
private activity bonds. I mean, in shorthand, for me, it is 
yes, there may be a short-term loss of some tax revenue but our 
experience with private activity bonds in other areas, there is 
a long-term gain in capital investment. There have been a 
variety of estimates that we have done where there is yes, you 
are losing tens or maybe $100 million of tax revenue but over 
time the ability to use private activity bonds will result in 
$1 billion to perhaps $3 billion worth of investment. I mean, 
that is precisely why I see the opportunity if we can address 
this so that we can get more investment into this important 
area by any means.
    Ms. Emerson. Are there other agencies or departments in the 
government who use these for other types of capital projects? 
Ben, do you know?
    Mr. Grumbles. Very briefly, Mr. Chairman.
    Mr. Dicks. Go ahead, Ben.
    Mr. Grumbles. I want to emphasize that it is not 
privatization, it is 10 percent or more participation by the 
private sector in managing, helping to finance, so it is a tool 
for greater private sector involvement at the choice of the 
community to still have tax-free municipal bonds issued. It is 
removing the artificial cap in the tax code to allow for more 
participation at the choice of the community to have some 
private sector involvement. Other agencies--we worked with the 
administrator and the Secretary of the Treasury worked on this 
so it is something that the private activity bonds are used for 
other forms of infrastructure and, as the administrator said, 
we view this as an important tool to bring in additional 
funding. It is estimated it could be $5 billion a year in new 
money.
    Mr. Dicks. So in essence you are borrowing from the private 
sector and then paying them back separately
    Mr. Grumbles. It does involve that.
    Mr. Dicks. From municipal bonds?
    Mr. Grumbles. Yes. It invites the private sector to be more 
involved in some way through financing or management or 
operation of the facility. The key is that if it is more than 
10 percent involvement, the current tax code provisions, which 
are recommending be removed, limit that. They put an artificial 
cap on the private sector involvement if you still want to have 
the tax-free municipal bonds. And that is why the Conference of 
Mayors, engineering groups and others are supportive of 
removing the cap that is part of the----
    Ms. Emerson. That is interesting.
    Mr. Dicks. Yes, it is interesting.
    Ms. Emerson. Thank you for that explanation. That is 
helpful.
    Mr. Johnson. Well, thanks, Ben, for adding to that. That 
helps.

                          ANIMAL WASTE--CERCLA

    Ms. Emerson. Let me quickly--and this will not take you but 
a minute--regarding the most recent regulation or notification 
on animal waste in agriculture from CERCLA, and I just wanted 
to ask you, you know, obviously the change in my opinion and 
that of farm groups says that this new policy will adequately 
address all of their needs and certainly reduce some of the 
burdens of the reporting requirements. I know that some of the 
States, however, would be asking you all to narrow that 
exemption by cutting out large operations. Is this a very real 
possibility, and if it is, have you all discussed what size 
operations you would foresee excluding from the exemption?
    Mr. Johnson. We are right now literally in the midst of the 
public comment period and it closes March 27th. We heard from 
as many ag producers as we also heard from a number of States, 
that there are emergency responses to the air emissions from 
animal feeding operations. We understand there is a burden from 
this reporting, we do not think it is really necessary, again 
from an administrative, from a response perspective. Now, there 
are some circumstances, if there was obviously a major spill 
that we would be concerned and want to be able to contain. So 
we are right now in the proposal stage. We are in the public 
comment stage. And I suspect we are going to get a number of 
comments that go along the lines of, is there a particular 
cutoff or not and both I am sure pro and con and that is good. 
That is why we go through a notice and comment rulemaking.
    Ms. Emerson. Thank you so much.
    Mr. Dicks. We are going to go over and vote. There are 
going to be two votes. There will be a motion to recommit but 
there will be a 10-minute debate and then 25 minutes. So we are 
going to come back after the second vote, and we will continue.
    [Recess.]
    Mr. Dicks. The Committee will come back to order, and I 
will recognize Mr. Olver.
    Mr. Olver. Thank you very much, Mr. Chairman. It may be 
that I do not have any questions to ask after all. Let me just 
ask, for starters, have you discussed with anybody in 
particular the Energy Star Program at this point?
    Mr. Dicks. I think that is a good one to talk about. It was 
mentioned by the Administrator.

                          ENERGY STAR PROGRAM

    Mr. Olver. Okay, it was mentioned in several ways by you, 
Mr. Johnson. I just want to say that I seem to be able to say I 
am dismayed about the budgets of agencies under this 
committee's jurisdiction. Each time I come by each session. 
This time I am dismayed that the EPA's budget cuts the Energy 
Star budget by 10 percent. It goes from $49 million down to 
$44.2 million, as I understand it. This seems to be in direct 
contrast to your written testimony which states that--I think I 
am quoting here--one cornerstone of our partnership is the 
Energy Star Program. Also just earlier today in a comment that 
was made to the chairman to a question that he had raised, I 
think it was he, you had called Energy Star the very successful 
Energy Star Program. Can you comment on this discrepancy?
    Mr. Johnson. Well, sir, I would not characterize it as a 
discrepancy and I do believe the Energy Star Program is a 
highly successful program and certainly have a lot of 
statistics to back that up on the energy choices and consumers 
having a smart choice. We think it is a highly successful 
program. We think that the President's 2009 budget request 
continues to support that highly successful program.
    Mr. Olver. Well, a 10 percent cut does not seem to me to do 
that very well, but then let me also say, your written budget 
states roughly that--and this may be not a quote--but that 
every dollar spent on Energy Star and other climate change 
partnership programs will deliver more than $75 in energy bill 
savings. That is a complicated statement but you are nodding as 
if you remember that that statement is made. My calculation 
would be that if that is the case, that a $4 million reduction 
in the Energy Star Program is eliminating $360 million of--or 
it is creating $360 million of lost savings for U.S. consumers 
and taxpayers. Do you challenge that logic?
    Mr. Johnson. Well, I guess I do challenge the logic that in 
fact these are partnership programs and that in some cases, you 
know, a partnership program of investing $1 may have a return 
on investment of $3. In some cases an investment of $1 might 
have a return on that investment of $2 or in fact $1.
    Mr. Olver. I take it that what you meant was that each 
dollar would create $75 in energy bill savings as kind of an 
average over the different programs, Energy Star and other 
climate change partnership programs. So----
    Mr. Johnson. Again, the point is----

                       CALIFORNIA WAIVER REQUEST

    Mr. Olver [continuing]. I would say it is a quite 
reasonable thing to calculate that loses $360 million of 
savings. Okay. The other thing, I wanted to talk about the 
California standards decision. Was that discussed?
    Mr. Johnson. Yes.
    Mr. Dicks. We discussed it to some extent.
    Mr. Olver. All right. My understanding is that you have not 
yet provided a decision report or any sort of documentation for 
the decision to deny California's request. Is that correct?
    Mr. Johnson. Well, not completely accurate. I did send a 
letter to the governor in December announcing my intention of 
denying the waiver and the basis of that, which is section 209 
of the Clean Air Act, which deals with compelling and 
extraordinary conditions. I have committed to both the governor 
and Members of Congress that I expect to have the final 
decision document completed by the end of this month, which 
is----
    Mr. Olver. Is it usual to do the document justifying the 
decision that you have made after the decision has been 
announced?
    Mr. Johnson. No.
    Mr. Olver. I do not know that as a procedure to be 
followed.
    Mr. Johnson. I clearly indicated that that is in fact 
unique and it was unique in the fact that I had committed to 
the governor to make a decision so it was our way of being able 
to stay true to my commitment to the governor of announcing a 
decision, at the same time making sure that we have the final 
agency decision document prepared as is the customary way.

                 CALIFORNIA STANDARD VS. CAFE STANDARD

    Mr. Olver. In your announcement, you did make the argument 
that the CAFE standards set by the 2007 energy bill would 
establish a more aggressive standard than the California 
emissions rule. The California Air Resources Board has issued 
its report back in January saying that by 2016 the California 
rules would reduce California greenhouse gas emissions by 17 
million metric tons of carbon dioxide where the Federal CAFE 
standard would only save 8 million tons, and looking down the 
list of all the States, there are 12 other States who would be 
involved. Every one of those States shows in the tabulation 
that the California Air Resources Board has put out in their 
report, every one would reduce greenhouse gas emissions by more 
using the California standards than would happen by the same 
year using the CAFE standard change that was done in the 
December bill.
    Mr. Johnson. Well, thank you for raising it because it is 
one of the important pieces that seems to get lost in the 
discussion on the California waiver, and that is, there are 
three very specific criteria in the Clean Air Act by law of 
which I have to judge California waiver decisions. The second 
criteria are there are compelling and extraordinary conditions, 
if you will, are there unique circumstances unique to 
California, is it exclusive in the issue. Well, in my judgment, 
according to all of the science information that I reviewed 
California does not meet that compelling and extraordinary 
condition. In fact, you point out that there are at least 13 or 
up to 17 States. In fact, every time someone raises that it 
just reinforces the issue that climate change is a serious 
issue. That is not the point of the decision criteria in 
section 209 of the Clean Air Act. The decision criteria is, are 
there compelling and extraordinary conditions in California? 
Every time a governor, another State representative talks about 
the need for their State to address global climate change, you 
are actually making my very point on the California waiver, is 
it compelling and extraordinary conditions, and in my judgment, 
no. And again, it is not the issue of whether climate change is 
a problem. I agree, it is a serious problem and----
    Mr. Olver. I suspect it will be settled in court. I will be 
most curious to see how the court which said you had the power 
to do this, it was under the law that California could have its 
separate standards and other States could join in on that, it 
will be interesting to see how that court then decides in the 
case when it gets to them.
    Mr. Johnson. Either the courts will sort it out or Congress 
will revisit the issue of what should be the maximum CAFE 
standard for the Nation.
    Mr. Dicks. And now we have the gentleman from California, 
Mr. Calvert, who has been dying to get in on this.
    Mr. Calvert. That is true. As the lone Californian, Mr. 
Chairman, I will admit for the record that we have a lot of gas 
that comes out of the State of California. As a matter of fact, 
we had an extraordinary number of private jets that just 
attended the Oscars in Hollywood, and if you could regulate 
that, we could probably get a hold of the problem.
    Mr. Johnson. We actually have a petition pending before us 
on that issue.

                      SUSTAINABLE PORTS INITIATIVE

    Mr. Calvert. First, I want to applaud you for largely 
maintaining the increased funding dedicated toward the Diesel 
Emissions Reduction Program, which is a big deal in my part of 
southern California. As your staff has estimated, the program 
funding level of $49 million would leverage about $100 million 
in funding assistance to reduce harmful particulate matter by 
approximately 7,000 tons, achieving billions in health 
benefits.
    I also want to applaud you for the new Sustainable Ports 
Initiative. As you know, we have the ports of Los Angeles-Long 
Beach in my area of southern California. While my district is 
not directly next to the ports, it is affected by them on a 
constant basis as the containers make their way from the ships 
into rail and trucks, move through my district, and as the 
Committee knows, about 40 percent of all trade activity goes 
through the port of L.A-Long Beach. I have introduced 
legislation called the On Time Act. It seeks to address the 
transportation impacts of moving freight in and out of ports. 
At the same time, I recognize we must address the environmental 
impacts of programs just like the Sustainable Ports Initiative. 
Can you provide us with some of the details of that initiative?
    Mr. Johnson. I would be happy to. As you said, as part of 
the President's budget, we are asking for $49 million for 
diesel retrofits, $15 million of which we want to focus on our 
Sustainable Ports Initiative. We would like for it to be a 
competitive program, and recognizing that ports, if you will, 
around our country are facing similar issues. I think one of 
the things that is very compelling to me are again we were 
talking about results and investment. Here is an opportunity 
that we expect that with the $49 million we will be able to 
retrofit or rebuild or replace somewhere between 250 to 300 new 
clean diesel engines. If you were to take 100 bulldozers and 
exchange or retrofit 100 bulldozers, that eliminates 16 tons of 
pollution every year, 16 tons of that black soot particulate 
matter material. It is an incredible opportunity and an 
incredible need to address both for diesel engines, legacy 
engines around the United States but particularly that 
opportunity in port cities and some of which have some 
significant challenges on air quality like the port of Los 
Angeles.

                  CA DIESEL EMISSIONS REDUCTION--2008

    Mr. Calvert. On a similar subject, last year Congress 
funded a new California emission reduction project grants 
program at a level just under $10 million. The program will 
fund diesel emission reduction projects within the San Joaquin 
and the South Coast Air Quality Management Districts. Can you 
tell us what the status is with this program and when the EPA 
expects to issue these funds?
    Mr. Johnson. I do not know the status off the top of my 
head. Let us get back to you on the record.
    [The information follows:]

    On February 15, 2008, EPA sent guidance letters to South Coast Air 
Quality Management District and the San Joaquin Valley Unified Air 
Pollution Control District inviting each to apply for $4,922,000 in 
funding. As soon as the districts submit their applications and work 
plans, EPA Region 9 will move quickly to award the funds.
    The applications are due by April 30, 2008. However, as we have 
already held substantive conversations with the Districts on this 
issue, we expect earlier submissions. The grants will be issued within 
60 days after we receive complete applications, though we will expedite 
to the extent possible.

    Mr. Dicks. For the record.
    Mr. Calvert. I appreciate that, Mr. Chairman.
    Mr. Dicks. Mr. Udall.

            CALIFORNIA WAIVER REQUEST--STAFF TALKING POINTS

    Mr. Udall. Thank you, Mr. Chairman.
    Administrator Johnson, back to the California waiver, my 
understanding is that your professional staff in a presentation 
to you in October strongly disagreed with your decision and 
they said things along the lines that it is obvious that there 
is no legal or technical justification for denying the waiver. 
Is that correct?
    Mr. Johnson. I do not recall those words. In fact, what I 
recall was, I received a wide range of options, all legally 
defensible, all of which--obviously every decision that I face 
has----
    Mr. Udall. Did your air quality chief, did she make a 
presentation to you at the October meeting?
    Mr. Johnson. As I recall, there was an October 30th 
presentation----
    Mr. Udall. And that presentation which has been turned over 
to the Senate committee said specifically that it is obvious 
there are no legal or technical justification for denying the 
waiver.
    Mr. Johnson. I do not know what----
    Mr. Udall. So that is your top official with the EPA.
    Mr. Johnson. Again, I do not know exactly what you are 
referring to but I----
    Mr. Udall. Well, I am referring to the document, the 
presentation that----
    Mr. Johnson. May I see it?
    Mr. Udall [continuing]. Has been turned over to the Senate 
committee. Did your staff tell you they thought it would hurt 
your credibility----
    Mr. Johnson. First of all----
    Mr. Udall [continuing]. In terms of managing the agency?
    Mr. Johnson [continuing]. The document that is referred to 
here was never presented to me.
    Mr. Udall. It was never presented to you?
    Mr. Johnson. No.
    Mr. Udall. So your top----
    Mr. Johnson. I became----
    Mr. Udall. Your top person--hold it. Hold it.
    Mr. Johnson. I became aware of this as part of the document 
production in response to requests of oversight committees, 
both on the House and the Senate side. I became aware of this 
document at that time. This was never presented to me.
    Mr. Udall. So did the person appear in the meeting that----
    Mr. Johnson. Yes.
    Mr. Udall [continuing]. Drafted the document?
    Mr. Johnson. Oh, well, I do not know who drafted the 
document because I was not aware of it.
    Mr. Udall. Well, it says in there, it says the deputy's 
chief drafted the document, Chris Grundler drafted the 
document.
    Mr. Johnson. Yes. I did not see it. I was not aware of it 
until there was--that it became----
    Mr. Udall. Well, let me get back to the discussion in the 
October meeting. So nobody really raised the issue that it is 
obvious that there is no legal justification to do this and 
that----
    Mr. Johnson. I had a wide range of options that were 
presented to me. They were all presented as legal options.
    Mr. Udall. That is not the question I asked you.
    Mr. Johnson. Well, I am telling you what the presentation 
was, and, you know, again, it was ultimately my decision, my 
decision alone. I needed to evaluate the criteria, evaluate the 
petition in light of section 209. That is what I did. I made 
the decision, mine alone. It is the right decision. I 
understand that a number of you disagree with that. I 
respectfully disagree. You will see my----
    Mr. Udall. Let me ask----
    Mr. Johnson [continuing]. Final decision by the end of the 
month.
    Mr. Udall. Okay. Let me ask though about the decision----
    Mr. Johnson. And that will characterize what I said.

                        CALIFORNIA OZONE PROBLEM

    Mr. Udall [continuing]. Because you have talked about this 
section 2, compelling and extraordinary. My understanding is 
that California has always historically been involved with 
ozone and they have been very aggressive about that and that 
your staff recommended that this actual ozone problem that 
California had and its historical involvement met the criteria 
for compelling and extraordinary in this presentation and 
before you. Is that correct?
    Mr. Johnson. That is one of the issues that will be 
addressed in my final agency decision document. It is clear 
that California has a serious ozone problem. In fact, so 
serious that are currently not meeting the current health 
standard. As a number of you are widely well aware of, I am now 
in the process of reevaluating that NAAQS standard and I am 
under a court order deadline of March 12th, by which I intend 
to make my decision on the final ozone, so it is an important 
issue that came up during the California petition. It is going 
to be addressed in the final decision document that I said will 
be issued next Friday.

                     CALIFORNIA WAIVER ANNOUNCEMENT

    Mr. Udall. Did you deviate from your normal procedure of 
not having it in writing in advance to announcing it? You 
seemed to suggest that earlier.
    Mr. Johnson. Well, let me----
    Mr. Udall. That is an easy question. It is just a yes or a 
no.
    Mr. Johnson. What I said was----
    Mr. Udall. Did you deviate from your normal procedure?
    Mr. Johnson. The unique aspect of this procedure was that I 
put in a letter and announced my decision in order that I could 
meet the commitment that I made to the governor and Members of 
Congress. That is unique from past agency practice, and I 
acknowledge that.
    Mr. Udall. So the answer is yes, you deviated from the 
normal procedure?
    Mr. Johnson. I do not particularly like the word 
``deviation.'' I think it was an accommodation to----
    Mr. Udall. Should we use ``aberration''? Is that better? 
Let me ask this. You obviously----
    Mr. Johnson. My intent was to honor my commitment to the 
governor and that is what I did.
    Mr. Udall. Administrator Johnson, you obviously know, I 
mean, this global warming issue is a huge issue for the State 
of California and the impacts it has on ozone and these other 
things, and here you have a State that is trying to do the 
right thing. You know, you have a Republican governor who is 
being very aggressive and saying I want to tackle this issue. 
He is trying to do the right thing, and it appears to me--I 
mean, I want you to answer this. It appears to me that here he 
is trying to do that and you slap him down when your 
professional staff is telling you that basically he should be 
able to do it because he has compelling reasons and so it looks 
like rather than protecting the people, which is your job, you 
are protecting the special interests. Could you respond to 
that?
    Mr. Johnson. My responsibility is to do what the law 
instructs me to do and that is to make an independent decision 
under the Clean Air Act, and that is what I did. I recognize 
some people disagree with that. Other people agree with it. 
Again, it is not a popularity contest. The law is not a rubber 
stamp of this is the way it has always been done. It is an 
independent look. I did it. It was my decision, my decision 
alone. I had many, many, many, many hours of briefings. In 
fact, I think we have to date now either made available or 
turned over 5,000 documents on this issue. You know, a lot of 
people had a lot of opinions. I had a range of recommendations 
that were presented to me. I carefully evaluated those.
    Mr. Udall. I understand that.
    Mr. Johnson. I made a decision and I know that some people 
do not like it.

                   CALIFORNIA WAIVER--STAFF COMMENTS

    Mr. Udall. Mr. Administrator, was Margo Oge in the meeting 
with you?
    Mr. Johnson. Margo Oge was frequently in the meetings with 
me.
    Mr. Udall. And she never raised these issues that are in 
her written presentation that has been turned over----
    Mr. Johnson. Not with me directly.
    Mr. Udall. She never said anything like this----
    Mr. Tiahrt. I just read this article here, and it was not 
really her written presentation, it was Mr. Grundler's, and it 
says here----
    Mr. Udall. It is my time, I believe, Todd. I believe it is 
my time. It says a presentation prepared for the director and 
so prepared for the director, air quality director, Margo Oge, 
urged Johnson to grant the waiver and suggested he would face 
great outside pressure to deny it, and as part of the 
presentation it said--and this is a direct quote--``It was 
obvious no legal or technical justification for denying the 
waiver.'' That is a direct quote from the presentation. Did she 
say that to you at any time?
    Mr. Johnson. Again, the document that is referenced here 
was never presented to me.
    Mr. Udall. Well, that is not my question. The question is, 
at any time did she say that to you----
    Mr. Johnson. You know, I----
    Mr. Udall [continuing]. Not whether the document was 
presented.
    Mr. Johnson [continuing]. Received a lot of comments from 
my professional staff and that they presented me with a wide 
range of options. One of the options was denial, and I 
carefully considered all of the options.
    Mr. Udall. Was one of the options to grant the waiver?
    Mr. Johnson. One of the options was to grant the waiver.
    Mr. Udall. And did Margo, did she say in terms of granting 
the waiver, did she say those words to you that I just----
    Mr. Johnson. As I said, those words were never presented to 
me in whatever document that you are referring to. I became 
aware of the document as part of the document production. So 
those were not presented to me.
    Mr. Udall. I think I have beat a dead horse here, Mr. 
Chairman, so we will leave the Administrator alone.
    Mr. Dicks. Okay. I think you have been through it a good 
bit today and have done quite well. Let us adjourn the hearing.


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                    Wednesday, February 13, 2008.  

                     FOREST SERVICE BUDGET REQUEST

                                WITNESS

ABIGAIL R. KIMBELL, CHIEF OF THE FOREST SERVICE

                   Opening Remarks of Chairman Dicks

    Mr. Dicks. The Committee will come to order.
    Today we review the Forest Service budget request, which is 
a great disappointment.
    Chief Kimbell, thanks for coming today. I hope we can have 
an open and candid discussion of your request, which requires 
you to reduce 2,700 full-time equivalents, reduce your 
maintenance, cut State assistance programs and halt land 
acquisition. Yesterday we spent hours looking at the wildfire 
programs, and we learned how the Administration has put all of 
its eggs into the fire suppression basket and cut back on the 
core missions of the Forest Service. During this hearing, I am 
sure we will hear about funding tradeoffs for wildfire 
suppression, but I want to be sure that we take the time to 
learn how this budget would affect the natural resources 
managed by the Forest Service and the impact on the American 
public.
    The Forest Service is in charge of much of the mountainous 
areas of the American West outside of Alaska and manages the 
largest blocks of public lands in the Midwest and East. 
Protecting these watersheds and wildlife is essential. The 
national forests and grasslands offer endless recreational 
opportunities and provide essential natural resources for rural 
communities and American consumers. The majority of the Federal 
trails, campsites, wilderness and wild rivers in the Lower 48 
are part of the National Forest System. Let us discuss how this 
request will impact these wonderful areas comprising over 170 
million acres outside of Alaska, which is more than three times 
more land in the Lower 48 than managed by the National Park 
Service and the Fish and Wildlife Service combined. The Forest 
Service also has an outstanding research and inventory program, 
and the State and Private Forestry Program has assisted 
cooperative natural resource conservation for over 60 years.
    Yet the President's request calls for gutting many of these 
cooperative efforts, some of which have been a big part of the 
Administration's initiatives. For instance, the budget cuts the 
Cooperative Forest Health Program by 77 percent, which cannot 
be healthy at all. The Forest Service says that two of its main 
goals are to protect open space and to provide for recreation 
but this budget has absolutely no money for acquisition of 
sensitive lands and it has cut the Forest Legacy Cooperative 
Land Protection Program by 76 percent. There are also sizable 
reductions for recreation and the trail budget is whacked by 
over a third, which I think is a mistake.
    I also want to discuss the large backlog in deferred 
maintenance and especially the sad situation of the extensive 
road system in disrepair. Last year I sponsored the Legacy Road 
and Trail Remediation effort to find some of the most urgently 
needed road and trail projects, especially where there are 
environmental problems affecting our sensitive watersheds. This 
budget unfortunately has no funds to continue this necessary 
effort. This may be a very tough budget year again. But the 
Congress needs to evaluate these road repair needs while we 
also work with our Transportation Authorizing Committee to see 
if some of the extensive gas tax generated by recreational 
driving on Forest Service roads can be redirected for this 
program, where there is such a great need.
    I do appreciate the Chief's expertise and concern for our 
forests, so I want to give you a chance to discuss the budget 
in an open and fair manner.
    Mr. Dicks. Mr. Tiahrt, any opening remarks?

                     Opening Remarks of Mr. Tiahrt

    Mr. Tiahrt. Thank you, Mr. Chairman. Good morning, Chief 
Kimbell and Lenise. It is nice to see you again.
    I plan to be very brief in my opening remarks but let me 
say that I look forward to working with Chairman Dicks and 
other members of this subcommittee again this year to address 
the many diverse challenges facing the Forest Service and other 
agencies under our jurisdiction.
    As the chairman made clear in his opening remarks, this is 
a tough, unrealistic budget proposal for the U.S. Forest 
Service. An overall reduction of your budget of nearly $400 
million, or 8 percent, would certainly have a measurable impact 
on the work you do. But let me emphasize, this is a beginning, 
not the end of the legislative process. Once again, the Forest 
Service provides our subcommittee not only a challenging budget 
circumstance but also a perfect demonstration of the tough 
choices we must make in the face of very tight budgets. We 
certainly got a taste of this challenge yesterday with an 
informative assessment by an impressive lineup of witnesses on 
the ongoing threat posed by wildfires. I believe it is in all 
our interests to begin a dialogue on how the Federal government 
can do a better job of addressing wildfires without decimating 
non-fire-related programs and undermining the very core 
essential functions of the Forest Service.
    I believe we can do better than this budget suggests. By 
working together, Chairman Dicks and I are determined to find 
common ground on this and many other issues. It is in that 
spirit I look forward to working with the chairman and the 
members of the subcommittee and with you to make sure we can 
achieve this goal.
    Chief Kimbell, I look forward to discussing your budget in 
some detail but in the interest of time I will wait until after 
your remarks for questions.
    Thank you, Mr. Chairman.
    Mr. Dicks. Thank you.
    You may proceed as you wish.

                    Opening Statement--Chief Kimbell

    Ms. Kimbell. Thank you, Mr. Chairman, Mr. Tiahrt. It is a 
privilege to be here today to discuss the President's budget 
request for the Forest Service for fiscal year 2009. Each of 
you has packets, and in your packets, my written testimony. I 
would be happy to answer any questions you have on that 
testimony, but to best utilize our time together, I am going to 
limit my verbal remarks to a couple key remarks that I think 
are most important to today's hearing. I would like to request 
my full statement be placed in the record.
    Mr. Dicks. Without objection.
    Ms. Kimbell. Thank you.
    First, I would like to describe the general context that 
this budget is presented in. I certainly recognize that the 
Forest Service is just one small part, very important to me, of 
the federal budget and that our requests have to be balanced 
against competing interests and needs and opportunities across 
the government for limited funds. It is clear from the pattern 
of budget requests and appropriations in the past several years 
that there are differing priorities between the Administration 
and the Congress. I am here today to present the President's 
budget request and explain his rationale.
    It is important to explain how we as an agency crafted the 
budget proposal in front of you now. It is helpful for me to 
visualize things in a tangible, practical way, so I see our 
budget as a bucket. A bucket has only a certain size. It only 
holds so much, and in our case, the size of the budget is 
decided after the Nation's highest priorities are taken care 
of, such as supporting the war on terror, strengthening home 
security, and promoting sustained economic growth. With support 
of those priorities in mind, the Forest Service bucket is 
$4.109 billion in size, about the same size as last year's 
request and about $380 million below what was appropriated in 
2008.
    Our bucket starts a little smaller but it also has to hold 
some programs that are a little bigger than last year. The fire 
suppression request is decided by the 10-year average of fire 
suppression costs, an arrangement agreed to by both the 
Congress and the Administration. The 10-year average this year 
is $994 million, $250 million higher than it was just two years 
ago and nearly $150 million more than the current enacted 
level. Because fire suppression is the first thing in the 
bucket, because it is considerably higher than in past years, 
and because the bucket is only so big, other programs needed to 
be reduced to make up the difference. Rather than simply 
ratchet all programs down by a similar percentage to make up 
that difference, this budget reflects a difficult strategic 
decision. We are focusing those limited resources on core 
National Forest System programs since we are the sole landlord 
for this land. As a consequence, there are significant 
reductions in the request for State and Private Forestry 
programs. There are also significant reductions in the National 
Forest System programs.
    In spite of these difficult cuts, I strongly believe that 
the Forest Service continues to be a good investment for the 
funds we do receive. In 2007, we received our sixth clean audit 
opinion in a row. We have reduced indirect costs to less than 
10 percent of our total expenses. We have increased partnership 
contributions to challenge cost-share projects by 35 percent 
over 2006. We collected over $700 million in revenue and 
receipts. Forest Service scientists filed two patents. Thirteen 
Forest Service scientists were recognized and shared in the 
Nobel Peace Prize for their work and their contributions in 
climate change research. We maintained 60,000 miles of road. We 
maintained 26,000 miles of trail with tremendous help from many 
partners. We sold 2.5 billion board feet of timber. We reduced 
hazardous fuels on 3 million acres and we provided fire 
assistance grants to about 62,000 communities. We protected 
over 88,000 acres of forestland from conversion through the 
Forest Legacy Program, and the list goes on.
    We are positioned to make the most of the resources we 
receive. Our agency is in the midst of a difficult but 
necessary transformation which will ensure a higher percentage 
of funds going into project work. We are encouraging our 
managers to focus on integrating programs and working with 
partners to achieve multiple objectives and we are proposing 
innovative ecosystem services demonstration projects that will 
forge important partnerships with States, local governments, 
tribes, or nonprofit organizations to restore, enhance, and 
protect ecosystem function on National Forest System lands. The 
Forest Service mission is relevant and we have a leading role 
in issues affecting the Nation and the world. We have 
dedicated, professional, and very hardworking employees who 
come to work every day looking for better ways to solve complex 
problems. I am confident we add value to the resources with the 
taxpayer funds you invest in us.
    Thank you for the opportunity to describe how this budget 
was formulated and why I am optimistic about our future. I am 
happy to answer any questions you may have.
    [The statement of Abigail Kimbell follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                           BUDGET CHALLENGES

    Mr. Dicks. The budget is pretty rough on the Forest 
Service. Let us talk about what you think will be the most 
challenging cuts to implement. Would it be the huge reduction 
to your State and private programs, the sizable reductions to 
the National Forest System operation and land protection 
accounts, the care for roads, or what? I mean, out in the State 
of Washington they are writing you letters and to Linda 
Goodman, who is leaving, that we have a $300 million backlog in 
road maintenance in Washington State, just one state, and yet 
all these budgets have been cut. I mean, how can the 
Administration justify that with a $4 billion backlog in road 
maintenance to just keep slashing these programs that are aimed 
at fixing these problems?
    Ms. Kimbell. Well, with funding fire at the 10-year average 
level, it creates for us some very difficult choices and you 
are exactly right in pointing out that there are maintenance 
needs in the national forests across the country, even 
including those acres in Alaska. There are tremendous needs 
across the country. We will be able to maintain some roads in 
2009 with this budget.
    Mr. Dicks. But your backlog will go up, will it not? I 
mean, your backlog of maintenance will go up. It will not go 
down.
    Ms. Kimbell. The maintenance needs will likely continue to 
rise, yes.

              LEGACY ROADS AND TRAILS REMEDIATION PROGRAM

    Mr. Dicks. You know, we put in last year the Legacy Road 
and Trail Remediation Program to try to help you but that is 
not in the budget for this year.
    Ms. Kimbell. As I recall, Chairman, the dollars for that 
Legacy program came from purchaser elect funds and those 
dollars are not available in that quantity in fiscal year 2009. 
However, that has been a tremendous help and we will get a lot 
of really good work done with that Legacy program.

                           RECREATION PROGRAM

    Mr. Dicks. What about, the request cuts basic recreation 
management funding by $26 million, or 10 percent from last 
year, and cuts trail construction by 49 percent. This is a lot 
less than the Congress provided in 2002. I understand that one 
of your own personal agenda items is to encourage kids to get 
out in the woods, something which I support. Now, are we going 
to be able to get these kids out in the woods if we keep 
cutting the money for the trails and for recreation?
    Ms. Kimbell. Chairman, access continues to be a very 
strong, interesting concern not only to us but certainly to the 
communities and to the individuals who use the national 
forests. This budget does reflect a higher-level recreation 
request than in 2008 and it does prioritize the work within 
that recreation funding to complete the work that we have begun 
in planning for off-highway vehicle use on National Forest 
System lands. Through fiscal year 2009, we anticipate being 87 
percent complete with the planning for designated routes for 
off-highway vehicles on National Forest System lands. The 
emphasis on Kids in the Woods is something that we acknowledge 
from the very beginning that we will not do alone. We are 
working with many partners locally, nationally, and some 
internationally. We are looking at ways to get children 
connected with nature whether it is in a national forest or in 
a city park. But there are many, many programs, many partners 
working in a very similar vein. In some places like outside of 
Chicago, we are one of 200 partners working on Chicago 
Wilderness and we are one of many partners working in projects 
all over the country.

                              BUDGET CUTS

    Mr. Dicks. What will be the result of these cuts? State and 
Private Forestry is cut $153 million; Forest Health, $43 
million; Cooperative Fire, $8 million; Forest Legacy, $39 
million, other Cooperative Forestry, $61 million. What will be 
the impact of that?
    Ms. Kimbell. The impact of some of those cuts is in 
recognizing that the Forest Service budget is focused on 
financing at some level the programs on the national forest and 
in research. Where there are others who have responsibility for 
funding programs on State lands and private lands, it shifts 
that responsibility where the Forest Service has shared in it 
in such a big way for so long. It shifts to the States and to 
the private landowners some of the work that we have been 
doing. This budget focuses on the Forest Service acting as 
conveners--conveners of technical expertise, conveners of 
different information--rather than funding projects.
    Mr. Dicks. Well, the National Forest System, it gets cut by 
$125 million and recreation in the National Forest System by 
$25 million, watershed inventory, $32 million cut, and Wildlife 
and Fish, $14 million. What does that mean?
    Ms. Kimbell. These are very difficult choices that we had 
to make in this budget request to be able to fund Fire. There 
are some of those programs--recreation, forest products, and 
vegetation and watershed--that are at higher levels in this 
request than they were in the 2008 request but it does mean 
having to prioritize the work on national forests to some very 
specific items and not being able to do all the things that are 
demanded and asked of us.

                    FULL-TIME EQUIVALENT REDUCTIONS

    Mr. Dicks. Now, you said you like to visualize with your 
bucket. We look at this a little differently over here. That is 
the visualization we see, and the last one on the list, I think 
it is land and water conservation, which is a 97 percent 
reduction. I mean, it is embarrassing, to me at least, that 
this budget just cuts, cuts, cuts on these important programs. 
This comes right out of the President's budget. This is not 
Norm Dicks making this up. Last year, without Fire, between 
2001 and 2007, it was a 35 percent cut, and now you are going 
to have to cut 2,700 people--full-time equivalents. How are you 
going to do that?
    Ms. Kimbell. Mr. Chairman, I do not expect to need to go 
through a reduction in force, and just this last year----
    Mr. Dicks. Is this attrition? Are people walking out the 
door because of what is happening or the lack of what is 
happening?
    Ms. Kimbell. If this is the budget that is enacted, we will 
take advantage of all the attrition opportunities that----
    Mr. Dicks. Will you have enough to do 2,700?
    Ms. Kimbell. In this last year, we had almost 2,000 people 
retire or resign, and we had an intake of----
    Mr. Dicks. Is this because we have an aging workforce issue 
too?
    Ms. Kimbell. Part of it is an aging workforce, yes. We have 
over 4,000 people currently eligible to retire. Not everybody 
retires when they hit their eligibility date, but we have over 
4,000 people who are eligible. If this is the budget that is 
enacted for fiscal year 2009, we will need to take advantage of 
every cost-saving opportunity, some we have not even thought of 
yet, and every retirement, every resignation.

                           BUDGET CHALLENGES

    Mr. Dicks. I wish I could say it is not going to be the 
budget but remember last year, the President insisted--we tried 
to add money in the House to lessen the impact of these 
terrible cuts and at the end of the day the President said you 
have to come down to our level, the level in the President's 
budget request, for these domestic programs or I will veto the 
bill. So we had to cut another $1 billion out of the bill in 
order to get down to that level, which I certainly did not want 
to do but we did it because we wanted to get our bill signed. 
It is very depressing to me. I just wish that the 
Administration cared more about these issues. I think 
protecting our national forests--and I know in our State of 
Washington where I am very familiar with the Olympic National 
Forest, Mount Baker, all of these great national forests, they 
do not have the money for roads, they do not have the money for 
trails. It is pathetic, and to have OMB and the White House say 
we are going to just cut, cut, cut in these areas I think shows 
an insensitivity which is bothersome to me. I am going to yield 
to Mr. Tiahrt here in just a second. But on the question of 
suppression, we had a lot of witnesses here yesterday, and 
suppression is up but preparedness is down. Seventy-seven 
million dollars. Now, can you do that? I mean, can you cut that 
by $77 million, here in the midst of the greatest fires we have 
ever seen in the history of this country and we are going to 
cut preparedness by $77 million?
    Ms. Kimbell. I understand you had some----
    Mr. Dicks. It is hard to understand.

                    WILDLAND FIRE MANAGEMENT FUNDING

    Ms. Kimbell. It is hard to understand, and I understand you 
had some excellent discussion yesterday on the fire situation 
and outlook. With a $77 million reduction in fire preparedness, 
it is also recognizing the needed continued flexibility for how 
suppression dollars interact with preparedness dollars. We have 
taken many steps in cost-effectiveness and in the way we 
preposition crews, the way we work with the States, with local 
fire departments, and the----
    Mr. Dicks. But the money for working with the States in the 
fire area is also cut. How much is it cut? Twenty-three 
percent? I mean, we are supposed to be working with the States 
and locals to have them out there working with us and yet we 
cut the funding by 23 percent. That does not sound like I am 
working with somebody when I cut the money that we are using by 
23 percent.
    Ms. Kimbell. Well, it is that money and certainly there are 
additional monies that the State put to State fire suppression 
but it will require all of us working together in a very 
concerted way and taking advantage of every cost saving we can. 
I think the thought that I would want to leave you with is that 
for the monies you do give us, we will give you a very good 
buy.
    Mr. Dicks. Okay. Mr. Tiahrt.

               FIRE PREPAREDNESS AND SUPPRESSION FUNDING

    Mr. Tiahrt. Thank you, Mr. Chairman.
    This chart, I do not know if you have ever seen it before. 
You probably have.
    Ms. Kimbell. We call it the Pac Man chart.
    Mr. Tiahrt. Yes, 1991, 13 percent of the budget was for 
fire suppression. In 2009, it is 48 percent. Now, yesterday we 
talked about, I think in fiscal year 2007 and 2008, we ended up 
adding through supplementals about $1.2 billion, $1.265 
billion, if I remember right, for fire suppression. And I know 
your hands are tied because you have this 10-year moving 
average. But the testimony we heard said that we have more 
risk, because there are more people living deeper in the 
forest. If you look at the trend line, it is pretty much upward 
over the last 10 years. So if we use a 10-year moving average 
and we are on the high-end of the 10 years, we are really five 
years behind, and last year we were five years behind and the 
year before that we were five years behind because the trend 
seems to be going up because of living patterns, people moving 
out of the cities into the beautiful forests or nearby. So if 
our first priority becomes suppression and we end up with a pie 
chart like this, it shortcuts--or shortcuts is not the right 
word.
    Mr. Dicks. Shortchanges.
    Mr. Tiahrt. And everything else becomes second priority, 
and under our current philosophy, maybe that is correct. But 
should we continue to fund suppression at the expense of the 
rest of the Forest Service or is there a better way to do it?
    Ms. Kimbell. We would be very happy to work with you on 
looking at some other ways to do it because that is certainly 
not our intent. It is not the purpose of this budget to even 
suggest that fire suppression is our highest priority or even 
the most important thing in our mission. It is not.
    Mr. Tiahrt. Well, prevention can avoid the use of 
suppression dollars so we are putting all our money into the 
prevention side, expecting that the suppression is not going to 
be there. That is kind of our logic here. One could draw that 
from looking at this budget. And I would think or argue that by 
putting more in the prevention side, we could avoid some of the 
suppression dollars. But perhaps we should move it into a 
totally different category and perhaps it should be treated 
like other natural disasters like hurricanes or earthquakes or 
in Kansas, tornadoes or ice storms. Would that be an easier 
thing for you to budget to say okay, we are going to do our 
prevention work, we are going to maintain regular functions of 
the trails and the forest, cleaning out the areas that need to 
be cleaned out and then if there is a need for fire suppression 
that it comes out of another fund that is like a natural 
disaster fund?
    Ms. Kimbell. It would certainly make a lot of sense for 
those of our employees who manage the national forests with 
partners. It would make sense to those partners to have funds 
that they could depend on, funds that they could look at long-
term, that they could put to all the different projects on 
National Forest System lands, and in Research, and in the State 
and Private Forestry program areas. The monies that are being 
focused in our Pac Man chart into Fire do not take into account 
all the work we do in vegetation management and they are over 
on the blue side. The work in vegetation management has had a 
very definite effect on fire behavior and the size of fires. 
This last summer I was able to visit the Lake Tahoe Basin 
Management Unit. I was able to visit the San Bernardino. I was 
able to visit the National Forests of Florida and actually 
observe how thinning and forest treatment for forest health 
purposes affected fire behavior, affected the size of the fire, 
affected the cost of suppression. More of that kind of work is 
something that is good not only for the fire suppression bottom 
line but it is very good, of course, for the forests and for 
the functioning of forests.
    Mr. Tiahrt. From what I drew from yesterday's testimony, 
mitigation is really minimal. Insurance companies do not feel 
like they have that much at stake because you all have done a 
pretty good job of keeping the fires away from most homes. 
Zoning has not really been effective yet on a large scale, that 
building standards needs to be changed, that shake roofs in the 
forests are not a good idea. We have a lot of things that we 
could do but that is all on the prevention side and 
coordinating with States and local communities, which I think 
we really could reduce risks for property loss and for human 
loss as well. This is not the way that we are structuring our 
budget. If you just look at the Department of Transportation, 
every time a bridge collapses, they do not take it out of the 
budget. We treat it as a natural disaster, like we did in 
Minnesota. But that is exactly the opposite of the way your 
budget works.
    Ms. Kimbell. Well, I believe the Administration in 2002 
made a proposal for a federal disaster fund of around $5.5 
billion. So they made a proposal then; we would be happy to 
work with the Committee and others on any further proposals.
    Mr. Tiahrt. Mr. Chairman, I think we ought to----
    Mr. Dicks. Yes, I think we would definitely----
    Mr. Tiahrt. Take a look at that and see if we cannot 
restructure what you do so that you have some stability in your 
budget instead of going somewhere between 13 and 48 percent of 
uncertainty and get closer to 100 percent certainty.
    Ms. Kimbell. This would be a great thing for all our 
partners. I was in St. Paul, Minnesota, the day the bridge 
collapsed this summer and we had just come over the bridge and 
were meeting some other people. We were on our way to tour the 
wood energy facility there in St. Paul, which is a pretty 
fabulous facility. But it was quite an event.
    Mr. Tiahrt. I am sure. I am glad you are safe.
    Ms. Kimbell. Thank you.
    Mr. Tiahrt. Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Udall.

                    FULL-TIME EQUIVALENT REDUCTIONS

    Mr. Udall. Thank you, Mr. Chairman, and thank you for your 
strong statement, Mr. Chairman, on the cuts and the impact it 
will have on areas I think across the country and western 
states, intermountain states in particular.
    I think there is no doubt that this has a real impact, 
Chief, in rural areas and in intermountain areas, and one of 
the things I wanted to ask about, I know the Chairman asked 
about the loss of FTEs and programs. Which area of the country 
do you think, which part of the country do you think would be 
most impacted by the reductions that you are making in this 
budget that the President has proposed?
    Ms. Kimbell. Right now we are involved in what we are 
calling transformation but it is a very hard look at our 
Washington office and regional offices and how we provide 
oversight program leadership and program direction, and we are 
looking at using newer technologies, using efficiencies, using 
more modern techniques for information sharing to try to reduce 
the costs of overhead and program leadership, program 
direction. So I would look to have savings at those levels of 
the organization before we even begin to look at the field 
organization.
    Mr. Udall. The thing that worries me a lot with the forests 
in New Mexico, especially in northern New Mexico, and I think 
this is true in many areas, you have the tension between the 
people that rely on the forest for a livelihood and then the 
people that live nearby the forest. What I have always thought 
is that the Forest Service people that are there on the ground 
end up being the oil that makes everything work, and as I have 
been here in Congress since 1998 or a little bit thereafter, it 
seems like we are pulling those people out of being there on 
the ground and helping talk with people in the communities, 
hearing the complaints. Do you worry at all about this trend of 
fewer and fewer people out on the ground in the forests working 
with local people and dealing with those issues?
    Ms. Kimbell. I absolutely worry about it. It has been a 
longstanding tradition in the Forest Service that our field 
people be part of communities. Community collaboration is a 
relatively new term, but it is not a new concept certainly to 
the way the Forest Service was formed and the way the Forest 
Service has worked to operate in the last 103 years. So I do 
absolutely worry about that. As I have visited with district 
rangers and with forest supervisors and have traveled around to 
different communities, that is a real key issue for many of our 
field line officers as to what kind of community presence they 
can provide, what kind of involvement in the community, and how 
they can help the communities be active in the management of 
their public lands, our public lands. So yes, that is a very 
definite concern to me.
    Mr. Udall. And there clearly has been some retrenchment 
there over time.
    Ms. Kimbell. Well, there are a lot of different reasons for 
folks choosing to stay in a location for a long time but it is 
our strength and sometimes it comes with some challenges.

                    VALLES CALDERA NATIONAL PRESERVE

    Mr. Udall. Now, one of the areas where we have seen the 
greatest success in New Mexico with the newly created Valles 
Caldera National Preserve is getting all the stakeholders 
together and working with each other on that preserve, and it 
has really has been a pioneering thing in terms of multiple use 
of public lands. I mean, we are doing the work to make sure the 
ecosystems are protected but at the same time we are utilizing 
the land, and I am wondering whether you could tell us what the 
thinking is behind absolutely zeroing out the money for the 
preserve. You know, your Forest Service supervisor sits on the 
board, the Forest Service has been actively involved, Forest 
Service scientists have been on the ground, and the 
Administration has been completely, I think, derelict in terms 
of supplying money to this, and I am just wondering what your 
thoughts on that are and why you think it is a good idea to 
give no money to this project, which will mean that the people 
will be laid off that are working on the ground, the scientists 
will be gone, all of that.
    Ms. Kimbell. As I look at this budget request and the 
Valles Caldera specifically, I also note that the Valles 
Caldera has over $1.5 million of receipts that they have 
collected that can be used for the functioning of the staff of 
the Caldera. It is still a National Forest System unit and the 
Valles Caldera will compete in the region's re-budget for 
funding for staffing of the unit.
    Mr. Udall. So you will work to see that Region 3 will try 
to help out in whatever way they can in the coming year?
    Ms. Kimbell. As a National Forest System unit, yes, I will 
look out for Valles Caldera just as I do for all of our units.
    Mr. Udall. Thank you, Chief.
    Mr. Chairman, thank you.
    Mr. Dicks. Mr. Peterson said that Ms. Emerson can go ahead. 
Ms. Emerson, go ahead.
    Ms. Emerson. Thank you, Chairman. I have to run to the Ag 
committee after we vote.

                           CELLULOSIC ETHANOL

    Welcome, Chief, and thank you very much. I was interested 
when you said that you were in Minnesota at a wood energy 
operation, and certainly forest waste is one, if not the most 
accessible cellulosic material for potential ethanol 
production, and certainly our forest product industry has 
infrastructure in place to harvest and collect woody materials. 
On the other hand, Congress has just in our 2007 energy bill 
defined advanced biofuels in such a way to exclude cellulosic 
ethanol produced from wood wastes gathered in our national 
forests. So my question to you, or a couple of them, number 
one, what impact would prohibiting the waste wood from our 
national forests have on the development of the cellulosic 
ethanol industry in areas near our national forests, and two, 
do you believe that our national forests can be managed in such 
a way that allows both for the preservation of the forests and 
a contribution to our Nation's goal of increased independence 
from our typical people from whom we import energy?
    Ms. Kimbell. Thank you. I know there are a number of people 
very concerned with the language that appeared there that 
excluded public lands from consideration and there are a number 
of folks who have gotten together and suggested that that 
language needs to be corrected to include public lands. Having 
that as part of the tool for being able to use different 
materials from National Forest System lands is very important. 
It is very important to be able to address this whole issue of 
hazardous fuels treatment, to be able to have some economic 
opportunity there for not only the local community. We also 
need to address the issue so that we are not constantly in this 
challenge, too, about how to appropriate dollars to conduct an 
activity on National Forest System lands when there might be 
some economic turn in all of that to do the same kind of work. 
So I would very definitely like to see public lands included, 
and I think there is a fabulous opportunity on the national 
forests. The Forest Products Lab is doing considerable 
research--they are in Madison, Wisconsin--on cellulosic 
ethanol. There has been a lot of work on bioenergy using 
cellulose, and we are continuing to contribute to the science. 
We would like to see the national forests also be able to 
contribute along with the 400 million acres of privately held 
forestland to that whole picture.

                        STEWARDSHIP CONTRACTING

    Ms. Emerson. I appreciate that. Thank you very much, Chief. 
Also, I appreciate the increased budget request for the forest 
products budget line and although it is a slight increase from 
what ended up in Omnibus, it still is a significant increase 
from last year's request. Missouri, you may know, our economy 
ranks third in the Nation in its dependence on forest products 
industry. Most of the Mark Twain National Forest is in my 
district, and so I think it is a step in the right direction 
budget-wise. One of the tools that you all have developed to 
manage forests in collaboration with local communities are 
these stewardship contracts, and I think they make-up, about 15 
percent of the Timber Sale Program. What role do you see these 
types of tools playing in the future? Are stewardship contracts 
utilized in all areas of the country? And if that is not the 
case, certainly we would like you all to consider implementing 
such an opportunity in Missouri.
    Ms. Kimbell. I actually traveled to the Mark Twain this 
summer and spent a day and a half on the Mark Twain and it is 
certainty beautiful country.
    Ms. Emerson. It is, is it not?
    Ms. Kimbell. Yes, yes. With the stewardship contracts that 
the Forest Service has implemented, there have been 121 
contracts that were active in fiscal year 2007. We would like 
to see that increase. No, it is not evenly distributed across 
the country. There are people who have been witnessing some 
great successes in communities. There have been community 
people and my own people who have been watching those successes 
who are starting to build that kind of support for stewardship 
contracts locally. So it is a fabulous authority, it is a great 
tool and I see it increasing steadily.
    Ms. Emerson. Do our foresters actually have to get with 
Washington to make decisions as to whether or not they are 
going to enter into those or what is the process by which these 
decisions can be made?
    Ms. Kimbell. We do have levels of approval for different 
kinds of contracts but we do not turn them down. We just want 
to make sure that we are working with the local staffs to 
ensure they have all the resources they need to be able to put 
that together.
    Ms. Emerson. I appreciate that. Thank you.
    Thank you, Mr. Chairman, and thanks to my buddy, Mr. 
Peterson, for letting me go first.
    Mr. Dicks. Mr. Peterson.

               FIRE FUNDING TRANSFERS FROM OTHER ACCOUNTS

    Mr. Peterson. Good morning.
    Ms. Kimbell. Good morning.
    Mr. Peterson. Welcome to the Committee, and I want to 
welcome you back today, and I will ask you in a minute about 
another project I would like you to come and look at.
    Ms. Kimbell. Okay. Good.
    Mr. Peterson. But is your chief financial person here?
    Ms. Kimbell. My budget director is here, Lenise Lago.
    Mr. Peterson. That is who I thought she was. How do you 
manage this? I mean, I cannot tell you the times of the few 
projects I am involved in in your whole system, well, we cannot 
do that this year or that is on hold for six months, that money 
has been borrowed to fight fires. Has anybody done a study of 
what it costs in project escalation costs and in starting and 
stopping projects and managing by crisis? I mean, you cannot 
keep your mind on the goal when you are constantly looking 
whose money you can borrow or hold or what project you can hold 
up to fight fires. I mean, it is insanity as far as what 
position we have put you in.
    Ms. Kimbell. I think many of my district rangers would 
agree with you, it is insanity. Yet, it is the system that we 
have to work with. The dollars that were borrowed from 
different accounts last year, have all been repaid and yet 
there is----
    Mr. Dicks. That is because we gave you some emergency 
money.
    Ms. Kimbell. Exactly. That is because you gave us some 
emergency money, and I thank you again because that has been a 
tremendous help, and still there is this whole issue of lost 
opportunity costs or----
    Mr. Dicks. If the gentleman would yield just briefly?
    Mr. Peterson. Surely.
    Mr. Dicks. How much did you borrow and how much was repaid? 
I mean, how did that work?
    Ms. Kimbell. Last year, fiscal year 2007, we borrowed $100 
million and it has all been repaid. Overall, with the borrowing 
that we have done in this decade, we are behind about $500 
million, and a large chunk of that is in our National Forest 
System programs, $100 million out of the $500 million.
    Mr. Dicks. National Forest System?
    Ms. Kimbell. The National----
    Mr. Dicks. For the record, what did you put in? Break that 
$500 million down.
    Ms. Kimbell. We can do that, absolutely.
    [The information follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Dicks. Mr. Peterson.
    Mr. Peterson. I guess I would hope this Congress would--I 
think I raised this issue last year. I guess you talked about a 
lot before I got here. You are the forest fire fighter of the 
country and that is an unknown every year and to have that come 
out of your budget, some of it permanently, some of it 
infinitely. I mean, if you were a company we would force you 
into bankruptcy but that costs money.

                           WORKFORCE MOBILITY

    Another quick question. I guess one of the things from 
observation after 12 years is your system of moving people 
around. I guess that is how they climb the ladder, but I do 
find it troublesome that I keep having--I mean, I get 
comfortable with somebody who I really think has done a good 
job in the district office and the local office and then boom, 
we notice they are gone and another person is coming in. I 
mean, I do not think they should be lifetime jobs but 1-, 2- 
and 3-year appointments, I mean, a region, they just get to 
know a forest, they just get to know a region, they just get to 
know a district, a multi-state district, and they are gone. I 
mean, I find that troublesome--if that is how they climb the 
ladder, we need to change the system so they can be rewarded 
financially by staying someplace and understanding it and 
managing it.
    Ms. Kimbell. I hated to lose Kathleen Morris from the 
Allegheny National Forest as well. Leann will be a fabulous 
forest supervisor. She has certainly proved herself in 
Michigan. This kind of ties back to the Chairman's question 
about the number of folks eligible to retire because many of 
those folks are in key leadership positions. I myself came in 
towards the end of the Vietnam War, essentially to replace the 
great big wave of retirements of World War II retirees, and 
there is a whole slug of us, 4,000 of us, that are eligible to 
retire at all different levels of the organization. But, we do 
have a need to be able to move people into key leadership 
positions, and Kathleen was great there on the Allegheny and 
she is somebody whose name I want to see in lights.
    Mr. Peterson. Now, this is the third one that we will have 
in a very short period of time, and we lost the district 
manager at the same time, who I felt was pretty capable. So I 
guess I find it frustrating. And being in the East, we are a 
whole different forest, and most of your people understand the 
Western softwood forest, they come and try to learn about the 
hardwood forest in the East, so we keep getting Westerners who 
do not understand the Eastern forests and they come and they 
learn and then they go, and I find it troubling. I think 
somewhere in your system we need to change something, 
especially in the East where we do not have as many forests, 
and when people learn the Eastern forest that they are able to 
stay there a while to be productive. I mean, that is my 
opinion.
    Ms. Kimbell. Well, we do have people that move back and 
forth across the country. Paul Brewster, who was just on the 
Green Mountain National Forest, just moved to Alaska but he 
grew up in Massachusetts. I myself went to school in Vermont 
and I worked all over the West and it was a real treat to be on 
the Allegheny looking at black cherry.

                      BIOMASS UTILIZATION PROJECTS

    Mr. Peterson. You helped fund a project last year, I think 
it was a $200,000 or $300 wood waste project, and I am proud to 
say the company, and I have been amazed, I did not know much 
about them a couple years ago until this project came up and I 
have gotten to know them since. They have been in business for 
a while and they are building projects all over the country. 
But we just had the groundbreaking Monday at St. Mary's 
Hospital. That hospital, using just green sawdust and chips, 
cardboard and paper, they are cutting their energy costs of 
their whole system, hospital, nursing home, personal care 
facility, and a new addition they are going to build, by 75 
percent. It is a very unique burn system, and this company has 
not only developed a ceramic burn system that burns 90 percent 
efficient, very low air emissions and very clean-burning. They 
build the entire assembly system, the storage systems, the 
waste--the problem with burning waste is handling it. You back 
in trailers and just blow them into the big cylinder and it is 
all automatic. For every three tractor-trailer loads, you get a 
half a garbage can of ash. That is how clean it burns, I 
forget, 1,600, 1,700 degrees, really hot burning, and it is a 
very unique burn system and it could be very applicable all 
over the country. I would like to have you come and see it, and 
thank you for that little initiative grant.
    Ms. Kimbell. I would love to come and see it, and I believe 
this is an extension of our Fuels for Schools Program, and 
there is an added benefit in that the students or community 
gets an understanding, too, of how wood is such a valuable 
asset and living in the middle of a forest, unfortunately many 
people do not understand just how valuable that asset is.
    Mr. Peterson. But I think the clean green part of it, this 
is a unique burning system.
    Ms. Kimbell. I would love to see it.
    Mr. Peterson. It burns cleanly and it can burn a lot of 
things. They just actually were doing a test of burning animal 
waste at the Pittsburgh Zoo in this burn system. So I mean, 
they are doing projects all over the country. So I would like 
to have you come up and see that. Thanks again for the grant, 
and take a look at how people climb the ladder.
    Ms. Kimbell. Okay. Point well made.
    Mr. Peterson. They do not have to move all the time. It is 
good when people get a little familiarity. I am not saying it 
should be a lifetime. But I think a decade is a nice time to 
spend in an area, not one and a half years or two years. 
Thanks.

                           LARGE FIRE TRENDS

    Mr. Dicks. Let me ask you this. I do not know if you have 
seen this chart, Forest Service large-fire trends, 1970 to 
2007. You see that these fires are not only getting bigger but 
there are more of them.
    Ms. Kimbell. Yes.
    Mr. Dicks. And what do you think the reason for that is?
    Ms. Kimbell. Well, a couple of different things; as to the 
getting bigger, just four or five years ago we would only have 
one, two, three fires that would be over $10 million in Federal 
firefighting costs. Now it is typical--well, this last year we 
had 26, 27 that were over $10 million. That is an incredible 
increase. I think part of it is that there are real changes in 
the vegetation. We have had extended drought across the West 
and across the South, maybe until this current rain, but we 
have had quite a bit of fire in Virginia, North Carolina, 
Georgia, Florida. We have had a lot of fire already this year, 
January and February. The fires are burning bigger, they are 
burning hotter, so that is one part, real changes in the 
vegetation that are carrying bigger, hotter fires. At the same 
time, we also have millions of homes being constructed into the 
forest, into the wildland-urban interface and it has really 
changed the way we fight fire in that there is more point 
protection going on to be able to protect communities versus 
perimeter control. Now, that is a double-edged sword in that 
these fires that we are experiencing right now, you could not 
put a crew on so many of them for perimeter control because of 
the nature of the fire itself and we put a lot of our effort at 
point control to keep fires out of communities.
    Mr. Dicks. Mr. Calvert.

                          BARK BEETLE CONTROL

    Mr. Calvert. Thank you, Mr. Chairman, and I apologize, I 
was absent for a while so I do not know if someone may have 
asked this question. But as you know, in California and 
throughout the West we are having a significant problem with 
the bark beetle, and based on your budget, I do not know what 
you are going to do in a proactive fashion to try to find ways 
to remove that pest or to remove dead trees. I know in San 
Bernardino National Forest, especially around Idlewild and Lake 
Arrowhead, if in fact we had not removed those dead trees, 
probably those two communities would not exist today. I think 
that is an example of proactive interference in an area where 
you have this interface between development and the forest. So 
based upon this budget that has been proposed, what can you do 
in order to continue that proactive involvement to make sure 
that we do not have significant problems in the future?
    Ms. Kimbell. Well, we do have a 10-year strategy in place 
to look at where to treat to be most effective in protecting 
the communities, given the insect activity, the changes in 
vegetation. We are looking at that very much in California. I 
got to witness some of that during the fires this October on 
the San Bernardino to look at the treatments from the previous 
years and how those really have changed the fire behavior and 
protected so much of the community up there on the mountaintop. 
We recognize that the restoration of forest health with the 
bark beetle epidemics in the West, in the South, up along the 
Canadian border is going to take decades worth of work and we 
will prioritize the dollars in this budget to the most 
important parts, again looking at community protection, 
watershed protection, and communities that have constructed 
community wildfire protection plans.
    Mr. Calvert. Just to continue on what Mr. Tiahrt was saying 
earlier about how your budgeting works, it seems to me--I am 
new to this committee. As the Chairman knows, I am the newest 
guy on the block here so if I ask a stupid question----
    Mr. Dicks. No such thing.
    Mr. Calvert [continuing]. Please let me know, Mr. Chairman. 
But as a former businessman in running a restaurant, it seemed 
to me you always need to have certainty and planning as you 
move from one year to the next to know, you know, the number of 
employees you are going to have, you know, what kind of 
inventory, just day-to-day business planning, and I know Mr. 
Tiahrt is in business also. Looking at your budget, I do not 
understand how you do planning for the next year, the year 
after or five years from now if you do not have any certainty 
in this process. So what I think both the Chairman and Mr. 
Tiahrt were saying, we have to find a way that you have a base 
budgeting process that you can count on so you can develop a 
good business plan and these tragedies that happen, fires, are 
handled off the books so you have to figure out a way to handle 
that separately. I think some thought needs to go into that 
because the way this budgeting process works now--for instance, 
this bark beetle problem, we all know that an ounce of 
prevention is much better than coming back after the fact and 
spending a lot of money trying to rehabilitate a community that 
is destroyed. So thank you, Mr. Chairman, for giving me the 
time.

               SUPPRESSION COST APPORTIONMENT AGREEMENTS

    Mr. Dicks. Well, you know, the National Association of 
State Foresters sent us an issue paper and one of the things 
they mentioned in their paper is partioning the wildfire 
suppression budget to provide a new financial mechanism that 
must be closely tied to cost containment management controls. 
This partition should be based on the true cost driver of 
suppression expenditures, large fires. The fact is that only 2 
percent of the wildfires burn 90 percent of all burned acres, 
consuming 85 percent of total suppression costs. These 2 
percent of fires are truly above and beyond normal budgeting 
processes and should be partitioned into a flexible suppression 
spending account accessible only if certain cost containment 
measures are undertaken and normal suppression appropriated 
dollars had been expended. What do you think of that?
    Ms. Kimbell. Well, I think there is a lot of merit there. 
Of course, there is always the challenge on where the dollars 
come from that would go into such a fund but we would be happy 
to work with you on that, and we have certainly been in 
discussion with the National Association of State Foresters as 
well. We have been partners with the State foresters since our 
inception, since the State foresters were established, and----
    Mr. Dicks. They are not thrilled about your budget this 
year in terms of cutting the funding that goes for this 
cooperation. Should we not be trying to get them to have more 
equipment out in more places so that you can stop these big 
fires before they really get rolling?
    Ms. Kimbell. Well, right along with that is the whole 
business of roles and responsibilities, of who has the role, 
the responsibility for what kinds of fire protection. That is 
something that certainly OIG and GAO have taken an interest in 
and OMB has taken an interest in it. I know it is a discussion 
that we are having as we are rebuilding our memorandums of 
agreement with the States and we----
    Mr. Dicks. They mentioned yesterday, the State forester 
from Arizona, that these are wildfires starting on Federal 
lands----
    Ms. Kimbell. I understand he mentioned that.
    Mr. Dicks [continuing]. And should be the Federal 
government taking care of their fires, not saying States take 
care of it or somebody else take care of it.
    Ms. Kimbell. Well, I would hate to start comparing acres 
but the Zaka fire in California did not start on National 
Forest System land but it certainly burned a great deal of the 
national forest there, and----
    Mr. Dicks. How do you reach these agreements? I mean, how 
do you negotiate something like this?
    Ms. Kimbell. During the preseason, we sit down with the 
staff from the State and there is a template for it, but we 
work through an agreement as to who is going to cover what kind 
of cost. We have agreements in different States where the 
States will actually provide fire protection on national forest 
and the Forest Service will provide protection on other lands.
    Mr. Dicks. So is it forest by forest or State by State by 
State or----
    Ms. Kimbell. Normally State by State.
    Mr. Dicks. State by State.
    Ms. Kimbell. And looking for efficiency opportunities. If 
somebody has a fire crew in one community and somebody has one 
in another community, then they will look to provide initial 
attack on each other's lands to be able to get it early.
    Mr. Dicks. Do you think we are picking up too much of the 
tab on this?
    Ms. Kimbell. I think there is a lot to be sorted out there, 
that there was quite some question last year about things like 
structure protection. Mr. Tiahrt mentioned insurance. There 
were some communities where the insurers were in those 
communities foaming houses, wrapping houses. There were other 
communities that did not get that kind of support from 
insurance companies. I think there is a lot to be sorted out 
there.
    Mr. Dicks. How do you do that? Is this a responsibility of 
yourself as chief to go out and try to work these things out 
with these local people?
    Ms. Kimbell. Certainly with the Forest Service, we have a 
responsibility. So do the State foresters, so does the Bureau 
of Land Management.

                          INSURANCE COMPANIES

    Mr. Dicks. But we all point the finger that somebody else 
is responsible. I mean, you are saying you get these 
agreements. There is a way to engage the insurance companies. 
Have you ever convened a meeting in your office in Washington, 
D.C., and brought in all these insurance company executives and 
talked to them about this?
    Ms. Kimbell. I have not personally engaged them.
    Mr. Dicks. Has anybody in the Forest Service ever done 
that?
    Ms. Kimbell. I do not know. I will get back to you.
    [The information follows:]

    Mr. Dicks asked Chief Kimbell for information on any meetings with 
insurance companies related to wildland fire costs.
    In August 2007, the Forest Service, Department of the Interior, and 
the National Association of State Foresters began informal dialogue 
with representatives of one insurance company and several insurance 
associations.
    During its October 2007 meeting, the Wildland Fire Leadership 
Council (WFLC) met with representatives of the insurance company and 
one insurance association. Several key points came out of that meeting, 
including:
    <bullet> Partnerships between public and private entities are 
critical to solving property losses from wildlife.
    <bullet> Homeowner's insurance premiums are regulated at the State 
level. Therefore, homeowner incentives based on rate savings are an 
unlikely solution to promote wildlife mitigation efforts on private 
property.
    <bullet> Anti-trust regulations significantly restrict insurance 
companies' ability to meet or collaborate with one another. These 
regulations also apply to meetings with Federal agencies, and strictly 
prohibit discussions about insurance rates.
    <bullet> Representatives from WFLC and the insurance entities that 
attended the October meeting agreed to work together to explore 
partnership opportunities for a public education campaign promoting 
best practices for homeowners to defend their lives and property from 
risks associated with wildlife.

    Mr. Dicks. Would it not be a good idea?
    Ms. Kimbell. Yes.
    Mr. Dicks. If there are some of them that are doing it, you 
might explain to the other guys, do you not think this is a 
good idea. Maybe you can get some help from these people.
    Ms. Kimbell. I know as a forest supervisor, I did that 
locally in the community.
    Mr. Dicks. Good. Well, now you are the chief.
    Ms. Kimbell. Yes, I am.
    Mr. Dicks. Mr. Tiahrt, do you have any----

                         AIRCRAFT USE ON FIRES

    Mr. Tiahrt. Just one more. We talked a little bit about the 
role of the military in fighting fires, and with a suppressed 
budget like this, I do not know that we will have the 
opportunity to look at those vehicles that were very beneficial 
in fighting fires, and particularly UAVs. When the other planes 
could not get out, these UAVs were able to fly through the 
smoke, get the hot spots, were able to redirect some 
firefighters and made a big difference in fighting those fires. 
However we sort out the bookwork on this, and I think we need 
to change what we are doing today. We need to look at how we 
are going to handle support from aircrafts because they are a 
great addition to the people on the ground with the shovels by 
knowing where to go and when with this kind of hardware. So I 
hope we get a chance to sometime go into a little more.
    I guess that is probably all. Thank you, Mr. Chairman.
    Mr. Dicks. Any other questions? Well, the Committee will 
stand adjourned, and thank you for your very good testimony, 
and we wish your cup was more than half-full.
    Ms. Kimbell. So do I.
    Mr. Dicks. Thank you.
    Ms. Kimbell. Thank you, Mr. Chairman.


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                            Tuesday, April 1, 2008.

         NATIONAL ENDOWMENT FOR THE ARTS AND ARTS ADVOCACY DAY

                               WITNESSES

DANA GIOIA, CHAIRMAN, NATIONAL ENDOWMENT FOR THE ARTS
ROBERT REDFORD, ACADEMY AWARD-WINNING DIRECTOR, ACTOR, PRODUCER, 
    ACTIVIST
JOHN LEGEND, FIVE-TIME GRAMMY AWARD-WINNING R&B SINGER, SONGWRITER AND 
    PIANIST
KERRY WASHINGTON, STAGE, TELEVISION, AND SCREEN ACTRESS
JONATHAN SPECTOR, CEO, THE CONFERENCE BOARD
MUFI HANNEMANN, MAYOR, HONOLULU, HAWAII
ROBERT L. LYNCH, PRESIDENT AND CEO, AMERICANS FOR THE ARTS
    Mr. Dicks. The Committee will come to order.
    The Subcommittee has a busy agenda this morning. We will 
first hear from the Chairman, our good friend, of the National 
Endowment for the Arts, Dana Gioia, who has the unenviable job 
of trying to defend a very inadequate budget request for the 
agency from President Bush.
    This portion of the agenda is scheduled to last until 
10:40. At that time, we will adjourn the NEA budget hearing in 
order to hear from a panel of experts organized by Americans 
for the Arts on the value of Federal support for the arts and 
arts education.
    We will also hear from the co-chairs of the National Arts 
Caucus, the honorable Louise Slaughter from New York and Chris 
Shays from Connecticut.
    Because of this busy schedule, I do not have a long 
statement. I do, however, want to welcome Chairman Dana Gioia 
back for what I believe is his sixth appearance before the 
Subcommittee as Chairman of the National Endowment for the 
Arts.

                             NEA LEADERSHIP

    On the positive side, I want to thank him for the quality 
of his leadership and for the richness and effectiveness of the 
Endowment's programming initiatives during his tenure. These 
new programming initiatives have not only been produced to a 
very high standard of excellence, but they have taken to every 
corner of this country. This includes small towns and military 
bases which had never previously benefited from national 
programming of this caliber. To put it simply, because of 
Dana's leadership, virtually every corner of America has been 
exposed to a richer cultural experience than it would have been 
without the NEA.
    Unfortunately, however, the opportunity today to review 
these new programs and to learn more about the exciting 
opportunities to further broaden the reach of the NEA is 
compromised by the need to address what I believe is a wholly 
inadequate and irrational budget request for 2009 for the 
Endowment.

                          PRESIDENT'S REQUEST

    I would be remiss in these opening remarks if I did not 
express my dismay with the $16 million, 12 percent, reduction 
in funding for the NEA for 2009 proposed by the President. I am 
dismayed partially because the 2008 increase of $20 million is 
essentially identical to the increase which President Bush 
unsuccessfully lobbied for 3 years ago. I can't understand why 
the President and OMB have now chosen to completely eliminate 
this hard-fought increase which they supported a few years ago.
    While I am unhappy with the President and with OMB, I am 
reasonably sure that this is not the budget which Chairman 
Gioia requested from OMB last fall. And we will look forward to 
working with him as the budget year unfolds to improve the 
outlook for arts funding for next year.
    And I now turn to Mr. Tiahrt for his opening statement.
    Mr. Tiahrt. Thank you, Mr. Chairman.
    Good morning, Chairman Gioia. We look forward to learning 
more about your fiscal 2009 budget request as well as the 
important work that the NEA is undertaking across the Nation.
    As you know, the NEA's budget received a healthy increase 
last year as a result of our Subcommittee's work. This is 
largely a reflection of the confidence that we have in you and 
your leadership.

                        NEW DIRECTION OF AGENCY

    Chairman Gioia, there has been a sea change in the 
direction of the NEA under your stewardship. You have literally 
transformed the NEA over the time that I have been in Congress. 
I want to compliment you and your staff for promoting the arts 
for all Americans and for bringing the American people bigger, 
bolder ideas that are reaching a far greater cross-section of 
our country than ever before.
    This effort is reflected in the fact that the Arts 
Endowment now awards at least one direct grant annually in each 
and every congressional district. That is quite an achievement.

                          OPERATION HOMECOMING

    I had the privilege of participating in an extraordinary 
event in March of last year, the premiere of ``Muse of Fire,'' 
a documentary inspired by the literary effort, Operation 
Homecoming. For those of you who are not aware of this 
incredible real-time accounting of the sacrifices of many of 
our brave men and women who serve our country in uniform, it is 
a touching, humbling and emotional presentation, and certainly 
one of the NEA's finest collaborations.
    I was especially proud to have you join me and Vicki, my 
wife, and some of our constituents for the screening of ``Muse 
of Fire'' at the Warren Theatre in Wichita last November. Vicki 
is going to join us later today. She is currently hung up in 
traffic. And I want to assure you that it has absolutely 
nothing to do with Robert Redford being here this morning.
    Thank you for your fine work. I look forward to your 
testimony.
    Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Gioia, you can proceed as you wish. And we 
will put your entire statement in the record. And you may 
proceed.
    Mr. Gioia. Okay. Thank you, Mr. Chairman and distinguished 
members of the Subcommittee.

                              THE BIG READ

    With your permission, I would like to begin with a short 
clip from a film which the NEA has just produced for American 
high school students as part of The Big Read program. This is a 
message from a distinguished American author which I think 
summarizes the spirit of the NEA.
    [Video shown.]
    Mr. Gioia. One of the things that Ray Bradbury points out 
as the film continues are these things that he was first 
introduced to as a child or as an adolescent helped shape his 
life, helped in his success.

                 HIGH SCHOOL POETRY RECITATION CONTEST

    In this spirit, I would like to actually call a second 
artistic testifier today, a young lady named Olivia Seward. 
She's 15 years old. She is a sophomore honors student at the 
Stadium High School in Tacoma, Washington. Last year, as a high 
school freshman, she won the 2007 Washington State Poetry Out 
Loud recitation contest sponsored by the Washington State Arts 
Commission, the National Endowment for the Arts and the Poetry 
Foundation. And I would like Olivia Seward, who tomorrow will 
celebrate her 16th birthday, to recite two of the poems by 
which she won the Washington State finals.
    May I introduce Olivia Seward.
    [Applause.]
    First, in the spirit of the union between politics and the 
art, her first one will be ``When I Was Fair and Young'' by 
Queen Elizabeth I, and the second, ``Eros Turannos'' by Edwin 
Arlington Robinson.
    Ms. Seward. Good morning, Congressmen and distinguished 
guests.
    ``When I was fair and young then favor graced me; of many 
was I sought their mistress for to be. But I did scorn them all 
and answered them therefore, go, go, go, seek some otherwhere, 
importune me no more.
    ``How many weeping eyes I made to pine in woe; how many 
sighing hearts I have no skill to show. Yet I the prouder grew, 
and answered them therefore, go, go, go, seek some otherwhere, 
importune me no more.
    ``Then spake fair Venus' son, that proud victorious boy, 
and said, you dainty dame, since that you be so coy, I will so 
pluck your plumes that you shall say no more, go, go, go, seek 
some otherwhere, importune me no more.
    ``When he had spake these words such change grew in my 
breast that neither night nor day I could take any rest. Then, 
lo, I did repent, that I had said before, go, go, go, seek some 
otherwhere, importune me no more.''
    [Applause.]
    Thank you.
    My second one will be ``Eros Turannos'' by Edwin Robinson.
    ``She fears him, and will always ask what fated her to 
choose him. She meets in his engaging mask all reasons to 
refuse him. But what she meets and what she fears are less than 
are the downward years drawn slowly to the foamless weirs of 
age, were she to lose him.
    ``Between a blurred sagacity that once had power to sound 
him, and love, that will not let him be the Judas that she 
found him, her pride assuages her almost, as if it were alone 
the cost. He sees that he will not be lost, and waits and looks 
around him.
    ``A sense of ocean and old trees envelops and allures him; 
tradition, touching all he sees, beguiles and reassures him; 
and all her doubts of what he says are dimmed with what she 
knows of days, till even prejudice delays, and fades, and she 
secures him.
    ``The falling leaf inaugurates the reign of her confusion; 
the pounding wave reverberates the dirge of her illusion; and 
home, where passion lived and died, becomes a place where she 
can hide, while all the town and harbor side vibrate with her 
seclusion.
    ``We tell you, tapping on our brows, the story as it should 
be, as if the story of a house were told, or ever could be; 
we'll have no kindly veil between her visions and those we have 
seen, as if we guessed what hers have been, or what they are or 
would be.
    ``Meanwhile, we do no harm; for they that with a god have 
striven, not hearing much of what we say, take what the god has 
given; though like waves breaking it may be, or like a changed 
familiar tree, or like a stairway to the sea where down the 
blind are driven.''
    [Applause.]
    Mr. Gioia. I wanted to have Mr. Bradbury and Ms. Seward be 
part of the testimony because I think, in the case of art, 
unless you see it and experience it, it is hard to convey in 
official prose.
    Following these acts, I would like to proceed with a few 
comments drawn from my testimony before we open up to 
questions.

                         IMPACT OF NEA PROGRAMS

    As I begin my sixth year as Chairman of the National 
Endowment for the Arts, I am proud to report that the agency is 
operating with high artistic standards, inclusive partnerships, 
improved efficiency and unprecedented democratic reach.
    The fiscal year 2008 budget has allowed the agency to 
continue to build on the progress of recent years and reach 
millions more with our programs and services. The Arts 
Endowment has firmly regained its position as a national leader 
in arts and arts education.
    The Arts Endowment programs now reach into every corner of 
the Nation, bringing the best of arts and arts education to the 
broadest and most varied audience possible. While maintaining 
the highest artistic and educational standards, the agency has 
effectively democratized its programs while also keeping them 
relevant to the needs of diverse communities.
    This expanded reach has been made possible by the national 
initiatives such as Shakespeare in American Communities, 
American Masterpieces, The Big Read, Poetry Out Loud, NEA Jazz 
in the Schools, and Operation Homecoming that, together, reach 
thousands of communities, classrooms and military bases, 
collectively serving many millions of Americans.
    The NEA grants are producing economic benefits throughout 
the country by nurturing local arts groups and enhancing local 
economies. With each dollar awarded by the NEA, we generate an 
additional $6 to $7 from other sources. The NEA is triggering, 
therefore, an investment of approximately $600 million to $700 
million for the arts from private donors and non-Federal 
sources.

                            GEOGRAPHIC REACH

    The creation of Challenge America in 2001 marked a turning 
point in the NEA's history. This program was a request from 
Congress that our programs reach more broadly into this 
country. This program quickly broadened the geographic 
distribution of grants, but it did not fully realize its goals 
of reaching the entire Nation. In an average year, direct 
grants reached only about three-quarters of the United States, 
as measured in congressional districts. Consequently, areas of 
the Nation, representing more than 70 million Americans, 
received limited aid from the agency.
    Five years ago, we set the goal of awarding at least one 
direct grant to deserving arts organizations in every 
congressional district of the United States. In 2005, 2006 and 
again in 2007, the NEA realized 100 percent coverage, with 
direct grants in all 435 districts. In 2008, NEA will again 
achieve, for the fifth time, 100 percent coverage.
    I would like to show you a few charts to show you how much 
this has changed NEA's reach of the United States.
    This is a chart which shows the National Endowment for the 
Arts--and I do believe you have copies in your materials here.
    In 2002, despite Challenge America, which was an enormous 
breakthrough for us, only 21 of the 50 States received at least 
one direct grant in every district. There were 98 districts 
that did not receive any direct support from the NEA. By 2008--
and this has really been true for the last 5 years--every State 
is now covered, every district is now covered.
    But this only tells about half of the story. If we go to 
the final chart, you will see that, in addition to a direct 
grant, every State has been reached with multiple national 
initiatives, which include American Masterpieces, NEA Jazz 
Masters, Jazz in the Schools, Poetry Out Loud, Shakespeare in 
American Communities, and The Big Read.
    To illustrate this, really only from Shakespeare in 
American Communities, as we enter our fifth year with 
Shakespeare in American Communities, we have reached 2,300 
different municipalities, mostly small and middle-sized, across 
all 50 States, including military bases. We have had 2,000 
actors performing for 1.2 million students, and we have reached 
3,600 middle and high schools. Our materials are being used by 
20 million students in every district in the United States.
    This shows you how, by taking both our direct grant 
programs and our national initiatives, we have achieved 
unprecedented coverage of every part of the United States.
    I would like to make a few more comments on other programs 
before I end my remarks.

                           DECLINE IN READING

    Last November, the NEA followed its widely discussed 2004 
report, ``Reading at Risk,'' with a comprehensive new study, 
``To Read or Not to Read: A Question of National Consequence.'' 
This new report gathered governmental and private-sector 
studies on reading.
    The data in ``To Read or Not to Read'' paints a simple, sad 
and consistent portrait of reading in America today: Americans, 
especially teenagers and young adults, are reading less. 
Therefore, they read less well. And this has measurable 
negative impact on their educational, economic, personal and 
civic lives and, therefore, on the Nation's future.

                              THE BIG READ

    Challenged to stem this decline in reading, the NEA has 
expanded the literary component of American Masterpieces, 
called Big Read. In 2008, The Big Read will provide grants to 
cities, large and small, across all 50 States. The goal is to 
reach a total of 400 cities, touching every U.S. congressional 
district with a program. Widely covered in the press, The Big 
Read has become a national symbol on the importance of reading 
in a free society.

                          OPERATION HOMECOMING

    Finally, I would like to update you on Operation 
Homecoming. The NEA concluded the first phase of its historic 
Operation Homecoming program last year. Supported by the Boeing 
Company, the program brought 55 writing workshops to U.S. 
military bases in five countries, involving 6,000 troops and 
their spouses. The program climaxed in the publication of 
wartime writing by U.S. Troops in The New Yorker, a volume by 
Random House, as well as a production of two films, one of 
which became a 2008 Academy Award finalist for the best full-
length documentary.
    The program was so meaningful to U.S. Troops that we have 
now initiated a second phase, focusing on servicemen and 
servicewomen most deeply affected by the war. Phase two of 
Operation Homecoming will sponsor extended writing workshops 
led by noted American authors in 25 Veterans Administration and 
Department of Defense medical facilities as well as VA centers 
across the Nation.
    As we look into the future, at least two major challenges 
face the NEA and the citizens it serves.

                         ARTS EDUCATION IN U.S.

    The first is the diminished state of arts education in the 
Nation's schools. There is now an entire generation of young 
Americans who have not had the arts play a significant role in 
their intellectual and personal development. This trend is not 
merely a cultural matter, but a social and economic one. As 
these young men and women enter the new global economy of the 
21st century, many of them will not have had the opportunities 
to develop the skills, innovation and creativity they need to 
succeed.
    American schools need help to better realize the full human 
potential of their students. While we are proud of our current 
arts education program, we are also deeply conscious of the 
millions of students, especially in the earlier grades, whom we 
do not reach at all.

                    INTERNATIONAL CULTURAL PROGRAMS

    The second challenge speaks to an even broader issue, 
namely America's place in the world. The United States needs to 
expand its cultural exchanges with other nations. This 
investment in cultural diplomacy would not only benefit 
American artists by providing them with greater opportunities 
but, more important, it would help the Nation itself 
effectively communicate with the rest of the world in ways that 
transcend political and economic issues.
    The arts have the potential to represent the best aspects 
of a free and diverse democracy in a way that speaks to the 
hearts and minds of people everywhere. It would be an enormous 
missed opportunity for the United States if we did not use the 
creativity of our own people to address the rest of the world.
    As we contemplate the future of the National Endowment for 
the Arts, we remain confident in the continuing relevance of 
our mission: to bring the best of the arts, new and 
established, to all Americans. The Arts Endowment goal is to 
enrich the civic life of the Nation by making the fruits of 
creativity truly available throughout the United States. In a 
dynamic Nation with a growing and diverse population, this goal 
will remain a constant challenge, but a great Nation deserves 
great art.
    Thank you.
    [The statement of Dana Gioia follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Dicks. Mr. Gioia, I want to just say I really do 
believe you are doing an outstanding job, and I think these are 
tremendous programs.
    And I guess the thing that I am most concerned about is 
that, last year, Congress tried to help here by adding $20 
million to the budget, but we find this year that that money 
has been taken out of the President's 2009 budget.
    Can you explain this decision?

                             NEA LEADERSHIP

    Mr. Gioia. We are grateful for the budget increase that 
Congress gave in 2008, and I believe that we put it to good 
use. I support the President's 2009 budget, but I also took an 
oath to support and defend the Constitution of the United 
States, which says the budget process begins in the House of 
Representatives, and which is the purpose of this meeting 
today.
    Mr. Dicks. That is the right answer. I am glad you remember 
that.
    Mr. Chandler. That is the only one he had.
    Mr. Dicks. And, as you said, there is no evidence that the 
funding has been in any way misspent, or there is no real 
reason I think, other than just for budgetary reasons, to try 
to reduce domestic discretionary spending, that this was cut. I 
don't think this was because the agency wasn't using the money 
effectively. I think you can say that for certain.
    Mr. Gioia. We are very confident that we have the approval, 
in terms of our programs, both of Congress and the White House.

                    REACHING UNDERSERVED COMMUNITIES

    Mr. Dicks. The other thing I would say, we talk about 
having a program in every single congressional district, and I 
think that is fine. But I wouldn't want to have one if there 
wasn't something worth funding. In other words, I don't think 
we should just automatically do that. I think by being in every 
State and most of the congressional districts, that would 
satisfy me at least. I think the goal is a good goal, but I 
wouldn't hold yourself to that if there wasn't something that 
you could fund that was meaningful and appropriate.
    Mr. Gioia. The challenge that we gave our directors--and I 
want to compliment the superb work that the discipline 
directors of the NEA have been doing over the last 5 years--was 
to find a program, at least one program in every district of 
the United States which we could enthusiastically support, so 
that we would increase the democratization of the agency 
without in any sense dropping our standards.
    I lived in New York 20 years, and I have the greatest 
appreciation of the quality of arts programs in New York or Los 
Angeles, my hometown, or the San Francisco Bay area where I 
also have a home in California. But I have also lived in other 
parts of the country and I have traveled virtually every week 
for the last 6 years, and I am continually impressed by the 
quality of arts organizations across the United States.
    It is inconceivable to me that we can take any area of the 
United States which has three-quarters of a million people--
which is to say, a congressional district--and not find at 
least one group of the highest quality that is worth 
supporting.
    In fact, my problem is just the opposite. When we go to a 
town that we've never been to before--we meet the local arts 
organizations, we visit the museums, attend programs--we are 
impressed by the multiplicity of programs that deserve Federal 
support. So really, our problem is to pick the best out of many 
worthy applicants, versus the opposite.
    Mr. Dicks. It sounds to me like you need a little more 
money in order to be able to more fully meet your 
responsibilities.
    Mr. Gioia. I can't imagine that there is any agency head in 
Washington who sees the opportunities which each service has 
that does not feel they could make wise investments with more 
funds. And I certainly do believe that this is the case with 
the Arts Endowment.
    Mr. Dicks. Mr. Tiahrt.
    Mr. Tiahrt. Thank you, Mr. Chairman.

                           DECLINE IN READING

    Mr. Gioia, you noted the ``To Read or Not To Read: A 
Question of National Consequence'' study that you have done in 
the NEA that details the disconcerting decline in voluntary 
reading in the United States.
    If this analysis is accurate, what conclusions can you draw 
from the potential short-term and long-term implications to our 
society from this study?
    Mr. Gioia. The ``To Read or Not to Read'' is a very 
sobering study. I mean, I think we have created a situation in 
the United States where there is so much entertainment media, 
so many distractions, that we have a generation of kids that 
are losing their ability to do sustained, focused attention, 
which is something that not only affects reading but affects 
their command of a lot of subjects, from mathematics, science 
to economics.
    It is very clear from the data that we have that there is a 
linear relationship between how well people read and what their 
educational achievement is. There is also a linear relationship 
between educational achievement and economic performance.
    I worry that we are not producing a generation of students, 
of young adults, who will be able to compete effectively in a 
global economy. This has, obviously, effects both on individual 
lives, but collectively it affects the economic future of the 
country.
    You know, we need to make sure that not simply our 
educational program but the society and culture around the 
educational program reinforces these critical skills.
    Mr. Tiahrt. I think the statements that are made in that 
study are something we all need to be concerned about, because 
the shortfall of reading, as you say, affects all of us, but 
there are individual lives, too, that are cheated out of a 
bright future because they just are not given the opportunity 
or encouraged to participate in reading.
    Mr. Gioia. And you could look at it almost in the way of 
the upside and the downside. People who read better do better, 
and people who really can't read at all end up unemployed. More 
than half of Americans who read below basic are unemployed.
    And so I think both in a sense for achieving the potential 
of the society and in a sense preventing people from hitting 
the downside, reading is one of the fundamental skills that 
needs to be better reinforced in society.

                          OPERATION HOMECOMING

    Mr. Tiahrt. Using the success of Operation Homecoming as an 
example, the Department of Defense and Boeing teamed up to 
provide an opportunity for people in the military to write. 
Now, you have talked about expanding that to the Veterans 
Administration. And I think you call it ``Operation Homecoming: 
Writing the Wartime Experience.''
    The Department of Veterans Affairs is more likely to get a 
cash infusion from the budget this year than the NEA is, or at 
least that is the way it looks from the President's budget. Is 
there a way that we can utilize the partnership concept that 
you have developed with Boeing and the Department of Defense 
within the VA, to help them fund some of the activities that 
you hope to accomplish?
    Mr. Gioia. Yes, we are hopeful for this. And, actually, we 
had conversations with Secretary Nicholson about this earlier, 
and we have worked with them in terms of developing the 
program, so, yes.

                          FEDERAL PARTNERSHIPS

    And I want to say that we have actually taken a number of 
Federal partnerships that are very important to us. The 
Institute of Museum and Library Services is helping us co-fund 
The Big Read. The Department of Justice is now helping us do 
after-school theater programs for at-risk youth. These allow 
both agencies to achieve their goals in a very cost-effective 
manner with programs with proven effectiveness.
    Mr. Tiahrt. Mr. Chairman, in the consideration of time, I 
think I will just stop my questions here and pass on to the 
others, so we can move on.
    Mr. Dicks. Thank you very much, Mr. Tiahrt.
    Mr. Moran, our vice chairman of the Interior Subcommittee.
    Mr. Moran. Well, thank you very much, Mr. Chairman.
    And thank you for your consistent and strong support of 
both NEA and NEH. In other words, the arts have been a priority 
of this subcommittee, and have been consistently over the 
years. And I think the Republican side, at least those on this 
subcommittee, that--it hasn't always been the case, but I think 
we have reached a consensus that these are programs well worth 
funding.
    And that is why I am kind of embarrassed I don't have any 
hardball, probative questions for you. All I have are 
softballs.
    Mr. Gioia. I'm willing to take those.

                           DECLINE IN READING

    Mr. Moran. A couple of things I wanted to ask you about. I 
appreciate the focus that you have shown on reading in America, 
Mr. Gioia. That is really, sort of, the basic source of the 
ability of our people to appreciate the arts.
    A couple of things. We are finding in some of our school 
systems, particularly with people where English is a second 
language, the best way to get children reading is to involve 
their parents in the process, many of whom, particularly some 
of our first-generation Hispanic families, the parents are 
illiterate in their own language, and so we are teaching them 
after school how to read to their own children. And we have had 
phenomenal results.
    Have you been doing any of that, in terms of any of your 
grants?
    Mr. Gioia. Well, teaching basic literacy is really beyond 
the charter of the NEA. What we are trying to do is, if you 
look at the data, it suggests that we are doing a better job 
than ever before of teaching elementary school kids to read. 
The problem is, as they enter adolescence, usually between the 
ages of 11 and 13, and 13 to 15, you see this really scary 
drop-off.
    What we are trying to do is to take these kids who local, 
State and Federal governments have invested billions of dollars 
in terms of learning to read and make sure that they maintain 
and develop those skills in this crucial danger period. So our 
programs are focused primarily on the high school, sometimes 
into the middle school, level; and to also use things, like you 
see with the television we are doing, radio we are doing, CDs 
we are doing, to reinforce reading with electronic media.
    Mr. Moran. It is great stuff. You know, I can't help but 
notice Mrs. Slaughter and Mr. Shays right over your shoulder 
there. We used to have a very vibrant arts caucus, but lately, 
all we have been doing is damage control, you know, trying to 
fight to keep a decent level of funding. And so we hope we can 
expand the role of both NEA and NEH and get beyond having to 
fight for every dollar, but being able to take advantage of 
these opportunities.

                             ARTS EDUCATION

    The other thing I wanted to ask you about is the 
integration of arts with the basic learning process. We are 
getting more and more data that particularly with some 
children, if you can integrate music with reading, in other 
words the aural with the visual, that both are enhanced.
    I think you have done some work on that. Do you want to 
elaborate on that a little bit?
    Mr. Gioia. For the last 4 years, we have been working with 
The Dana Foundation, which has funded extensive cognitive 
neuro-scientific research about the impact of arts education on 
broader cognitive functions. They have recently announced their 
data, and scientific data now demonstrates that early 
instruction in music creates higher cognitive functions. It 
affects everything from geometric reasoning to linear reasoning 
and other types of attention that require focused, sustained 
attention.
    So I think that we can say, both anecdotally, which we have 
had evidence of for many, many years, but now scientifically, 
that when you give children arts instruction, it has a general 
positive impact on most of the learning that they are doing.
    Secondly, if you take arts out of the educational system, 
you start to see things which are a little softer but very 
important. Attendance improves in schools which have arts 
education programs. As Woody Allen once famously said that 90 
percent of success is showing up. And you certainly can't 
succeed in a school if you don't show up.
    So we think that for things as basic as attendance and as 
central as, in a sense, developing cognitive pathways in your 
brain, that arts education, early, middle and late, is really 
important for academic success. It is a foolish economy to 
eliminate that from the school system.
    Mr. Moran. Wonderful. Well, I think we are going to see a 
new renaissance of the arts. And people like Louise and, I 
know, Norm and so many others have been deeply involved in 
achieving that, and I think it is about to flower.
    I am not going to ask a question about it, but I was very 
much interested to see your description of one of the reasons 
why we have fewer people reading. And of course that is the 
electronic media. And you have observed, or maybe it is one of 
the people who have worked with you, that you are not as likely 
to reflect when you are seeing information on a screen as when 
you are holding a hard-bound copy of a book in your lap and 
reading.
    And these are the things that we need to understand, and we 
need to figure out how to enable this country to fully 
appreciate all that life has to offer. And one of the most 
wonderful things life has to offer is the arts. So thank you, 
Dana, for all you are doing.
    Mr. Gioia. You are very welcome.
    Mr. Dicks. Mrs. Emerson.
    Mrs. Emerson. Thank you, Chairman.

                    REACHING UNDERSERVED COMMUNITIES

    Mr. Gioia, thank you so much for being here today.
    When you met with me in my office, gosh, last month now, 
there were several things about which we spoke. I want to 
mention one thing that is important to me. I mean, I live in a 
very, very rural area, and every single municipality of mine is 
actually classified as rural. And the citizens who live in my 
district don't have as many opportunities, obviously, as those 
who live in metropolitan areas.
    How is the NEA making rural communities and schools aware 
of your programs, as well as encouraging participation?
    And secondly, how is your budget for 2009 going to actually 
impact outreach to these rural communities?
    And then, third, are there materials or resources available 
on the Internet that would help supplement anything that either 
you all might be able to do or that schools in our communities 
could tap into to enhance those opportunities?
    Mr. Gioia. I am happy to answer that question because it 
really speaks very directly to many of the major strategic 
decisions that we have made over the last 6 years.
    First of all, we reach rural areas directly both by making 
sure that we have a grant in every district. And a substantial 
amount of the United States remains rural.
    Secondly, through our partnerships with State arts 
agencies, where 40 percent of our budget goes, they do a 
terrific job in terms of taking that 40 percent and 
distributing it broadly across their own States.
    But on top of that, the vision of the national initiatives 
is to take artistic programs of the highest quality and bring 
them to places that they would not easily reach otherwise.

                  SHAKESPEARE IN AMERICAN COMMUNITIES

    For example, our Shakespeare program. We have had, as of 
last year, 65 companies; I believe this year 77 companies 
cumulatively. And they tour mostly small and mid-sized 
communities. NEA is proud to say that we have brought the local 
premiere of the works of William Shakespeare to many 
communities, which would be a hard thing do, you would think, 
in the 21st century in an English-speaking country.
    About 70 percent of the kids that see this have never seen 
any play at all. So they have not only a chance to see the play 
that they are studying in high school, but actually see a live 
play done by one of America's leading professional companies.

                         IMPACT OF NEA PROGRAMS

    Poetry Out Loud, once again, reaches all communities that 
are participating, large and small. The Big Read is designed 
that it can be done in anything from a metropolitan area to a 
village, and we size the grants accordingly.
    On top of this, we try to develop material--for example, 
you saw the Ray Bradbury film; you have copies of our CDs and 
radio shows; readers' guides; teachers' guides; our Shakespeare 
kit, which includes films, audio material, print material, 
classroom material--and we make those available to all American 
teachers in public, private, or home school networks. We are 
now reaching about 20 million kids, which is probably somewhere 
over two-thirds of American students.
    Those we work both through professional organizations and 
with Members of Congress to alert their constituents. And, as 
many of you know, when we come in to meet with Members of 
Congress, we ask you to name any high school in your district, 
and we can demonstrate that our material reaches that, because 
we have printouts by school, by teachers.
    So have we reached 100 percent of the U.S.? No, we haven't. 
But I suspect now with material like the Shakespeare material 
we have reached probably a broader percentage than any arts 
program in history of the United States. And we are very proud 
of that, because until we reach every kid in every classroom 
with this, I don't think we have really fully done our job.

                          PRESIDENT'S REQUEST

    Mrs. Emerson. Now, so you are not too concerned that the 
budget will have a negative impact at all on additional 
outreach?
    Mr. Gioia. Well, we will have to make significant cuts in 
our current programs with this budget. We will do it--if that 
is the budget, we will do so judicially and try to make sure 
that we do things proportionally. But, yes, it would affect the 
reach of the programs, without question.

                              THE BIG READ

    Mrs. Emerson. Let me also ask you, if I could, about The 
Big Read program, which is phenomenal, and I love the whole 
idea of it. I was looking at the map of communities or States 
where these programs exist, and it, interestingly enough, 
really is very much skewed toward the eastern half of the 
United States, at least according to the map that we got on 
your Web site.
    Can I ask what--I mean, obviously--and you also mentioned 
that you are talking with us who are Members of Congress so 
that we might be able to assist here. But what else are you all 
doing to encourage active participation by communities and 
schools in The Big Read west of the Mississippi? And how will 
this program be impacted by your budget that has been 
significantly cut?
    Mr. Gioia. Well, The Big Read will be, by the end of 2008, 
in virtually every congressional district in the United States. 
The population density in the Northeast and Mid-Atlantic on a 
map, you know, will naturally be a little denser. But we are 
systematically going across the United States. We have over 200 
cities that have applied for this next wave. We have taken 
that, we have laid it on the map to see where the holes are, 
and we are working to develop further applications from areas 
which have not applied.

                    REACHING UNDERSERVED COMMUNITIES

    Traditionally, the NEA had an attitude which was that we 
accepted the applications, we judged the best application, and 
we gave grants accordingly. That is a very good method of 
funding the best of current arts organizations. We have become 
considerably more activist over the last 5 years, because we 
figure that there are a lot of smaller communities where the 
arts organizations are younger or less developed or they do not 
have professional development departments and they are 
reluctant or intimidated to apply. Believe it or not, some 
people are intimidated by the Federal government. And we need 
to work with those organizations to show them that we are 
collaborative and we want them to succeed.
    And I don't think that there is any member of The Big Read 
team that doesn't feel an imperative to make the program truly 
national and democratically representative of the full country. 
And so that is our goal.
    As with our Challenge America, we have hit the 100 percent 
goal now 4 years in a row. It is a little harder to ramp up The 
Big Read program because we are creating partnerships by 
cities. But we are confident that we will be virtually in every 
community across the United States as the program matures. That 
is our goal.
    Mrs. Emerson. Thank you, Mr. Gioia.
    Thanks, Chairman.
    Mr. Dicks. Mr. Chandler.
    Mr. Chandler. Thank you, Mr. Chairman. And I want to start 
by thanking you for your steadfast support for the arts. It has 
been first-rate and difficult at times.
    My fellow Kentuckian, Louise Slaughter, thank you for your 
steadfast support and advocacy for so long. I couldn't help but 
give a nod to my special friend.

                             NEA LEADERSHIP

    Mr. Chairman, you, are very impressive in what you have 
done, for starters, but also today in the way that you are able 
to very skillfully dance between the President's most 
unfortunate budget and your own goals and objectives and your 
constituency. So I give you high marks for that. Very 
beautifully done.
    I am a big supporter, of the arts in so many ways. And your 
quote, ``That a great Nation deserves great art,'' is so very 
true. And the art that nations produce and civilizations 
produce are often the only things that those civilizations are 
remembered for in the long term.
    So I think it is very important that we do whatever we can 
to invest in this, to invest as strongly as we can manage. And 
I know that this committee is going to do that, that this 
committee is going to make that effort. And I know that folks 
throughout the country are going to make good use of it.
    I applaud you for the use that you have made of it 
throughout the country to try to further democratize the arts. 
To gain popular support for art efforts throughout this 
country, I think is a very good idea, and I applaud you for 
that as well. You know, in a society like ours, we have to 
build broad public support to have the opportunity to fund 
these kind of programs fully. So hurray for you.
    I also appreciate some of the things you have done in my 
State of Kentucky. Kentucky State University was involved in 
The Big Read, and it was quite a success there. We have a 
special little arts community in the town of Berea, and I know 
that you have been working hard with that locality and that 
community, and I appreciate that as well.
    Quick question, because I don't have any very difficult 
things to throw at you either, but I am curious about how you 
managed to further democratize this process and spread it out 
throughout the country.
    How did you do that with the budgets that you are provided? 
What did you have to take away from? I assume that whenever you 
add something, you almost always have to subtract something, 
particularly with the austere budgets that the arts have faced 
in the last several years.

                          NATIONAL INITIATIVES

    Mr. Gioia. Well, I am happy to say that we have been able 
to add the national initiatives to our budgets without cutting 
any of the continuing programs. And we have done that because 
we work in partnership. And as we develop an idea--although I 
am a poet by profession, for many years I had a day job in 
business. And one of the things that we learned in business was 
the importance of test-marketing new ideas; taking a new idea, 
bringing it into a small set of towns, seeing how it works to 
make sure that, as we expand it, we may expand it as 
efficiently as possible.
    Our manner has been to take these initiatives, test them 
under relatively modest beginnings, to get as much efficiency 
and effectiveness out of that, while we build essentially 
support from Congress and the President to fund those ideas, as 
well as bringing private partners in. So we have been able to, 
both through Federal partnerships and in a few cases, as with 
Boeing and the Operation Homecoming, to be able to fund these 
without the use of public dollars. And when people see how 
effective and how important the programs are, we have been 
able, with the support of this subcommittee, to build basically 
the support.
    And if I can say one more thing about the democratization, 
the important thing to understand is that we serve the American 
people. And nowhere in this country, big city, medium-size or 
small city, is there not a need for the arts in the community 
and in the schools. And we look at our job to fulfill this vast 
and largely unmet need in the country. And I think we are 
making progress, but there is much more work to be done.

                              THE BIG READ

    Mr. Chandler. Well, I am very pleased also to see you focus 
on books and reading. I, like so many other people, am in love 
with books, like Mr. Bradbury, absolutely in love with books. 
And it is so important to the future of our country and to 
learning in general. I don't think there is anything that is 
more important, any one single thing that is more important 
than reading.
    And the great thing about the arts--and I don't know if you 
have actually put it this way, but the great thing about the 
arts is that it has the potential to make reading fun for 
people, and particularly for young people. And that is why I 
think it is so important.
    Mr. Gioia. Well, you know, one of the other things, if I 
could make one more comment, about The Big Read that is 
significant is that, when we go into a community, we get 
between 100 and 200 partners in the community. So the local 
theater company will put on a production of the play of ``To 
Kill a Mockingbird,'' which they might bring to the schools; 
the local symphony will perform the Elmer Bernstein score as 
part of their programming; the libraries, the teachers, 
sometimes the District Attorney will re-enact the trial from 
``To Kill a Mockingbird.''
    So what it is is it becomes a way of all the arts and the 
civic organizations in the community, sort of, to galvanize 
their support so we can create the incredible situation where a 
kid actually hears something that they learn in school repeated 
outside of school, which gives them, in a sense, the social 
utility of learning.
    So I think that the kind of partnerships we create across 
all the arts and civic organizations is really part of the 
social capital that is created by this program. So it helps not 
only reading, but it helps community-building.
    Mr. Chandler. Well, Chairman Gioia, thank you for a job 
well done.
    Mr. Gioia. Thank you, sir.
    Mr. Dicks. Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman.
    Chairman Gioia, I am new to this committee. I don't really 
have any questions other than to say that, since we are both 
from southern California, we have been accused of living in a 
cultural wasteland. And based on some of the content coming on 
TV, out of Hollywood, it is sometimes pretty difficult to 
defend ourselves. But I know you are going to extract us from 
that reputation with the great job you are doing.
    And, in the interest of time, I have no questions, Mr. 
Chairman.
    Mr. Gioia. Well, if I could simply say that Ray Bradbury is 
a southern California writer, so we are also bringing the best 
of Southern California. And the Los Angeles/Long Beach area now 
has more artists than any other area in the United States. And 
so the arts are very important to the California economy.
    Mr. Dicks. Mr. Pastor.
    Mr. Pastor. Thank you, Mr. Chairman. Good morning.
    Good morning, Mr. Gioia.

                             ARTS EDUCATION

    When you responded to the Chairman on the question on your 
budget, you said that the House of Representatives started the 
appropriation process. And I am going to ask you a hypothetical 
because I agree with you that, today, one of the major 
challenges that we have in our public education system is the 
diminished state of art education. Because the emphasis is on 
achieving and failing and scoring schools, that, at least the 
little bit of knowledge I have in Arizona, is that physical 
education and art education, music, all those very elements are 
being reduced or eliminated in our public schools.
    I know that there has been different efforts throughout 
this Nation in trying to connect the public education system 
with museums, with symphonies, et cetera. I know that you have 
a Chairman of this subcommittee who is very sympathetic to 
increasing the value of art in our Nation.
    If you were to get an increased funding above the 
President's budget, would there be any initiative that you 
would implement that would start working with your idea, as you 
say, build partnerships, so that we could begin addressing and 
overcoming the challenge of diminishing art education in public 
schools?
    Mr. Gioia. You know, Congressman, you asked a very good 
question, and I think it touches on one of the major 
opportunities in the United States.

                       ARTISTS AND ARTS EDUCATION

    We are about to publish a report on artists in the 
workforce. There are 2 million Americans who define their 
primary occupation as artist. Most of these people are highly 
trained, far better educated than the average American in the 
workforce. But they are not unemployed, but underemployed.
    You have musicians, dancers, actors and other artists who 
are in a community, they have the training, they have the 
skills, and they also have time. We would be able, in a sense, 
to create art programs for every level of American education by 
drawing on artists from their own communities and create 
partnerships between the school system and the arts community 
to fill this unmet need in American education.
    I think that that is one of the major areas for future 
development for the Arts Endowment, which is, in a sense, to 
bring what the arts community has and what the school districts 
need together.
    Mr. Pastor. As you know, in Phoenix we have a wonderful art 
museum, you have been there, Phoenix Art Museum. And you 
supported the art museum with some grants. But one of the 
problems has been that the school districts, the public 
education system, doesn't really take advantage of the 
facility.
    I know that in Chicago, several years ago, Mayor Daley set 
up the program in the educational system where he provided 
monies and personnel in the city so that links would begin to 
develop between the art museums and the school districts where 
projects were developed.
    Do you think a program such as this would be successful in, 
again, adding to the art education of our children?
    Mr. Gioia. Well, you know, all of our national initiatives 
have a major educational focus. What we have learned is 
American teachers, they are very busy, they have enormous 
commitments that they have to meet in terms of their current 
duties, and therefore many of them are reluctant to take on new 
programs.
    With our Shakespeare program, our Jazz in the Schools 
program, our Big Read program, the American Masterpieces 
programs, we have tried to create programs and materials which, 
in a sense, fit into the existing curriculum and are almost 
turnkey operations that a busy teacher can bring them in, we 
can show them where to put it into their lesson plan, how they 
fit with the State and Federal testing requirements, so that 
these programs make their lives easier, rather than harder.
    So I think that you can do this, but you have to do it in a 
way which acknowledges the workload and commitments of 
teachers. So there is a certain amount of expertise, and I am 
happy to say the NEA has developed that expertise.
    So I feel that we could do this successfully. You know, 
once again, you need to test it first and develop it so that 
you make sure that it is as efficient and as effective as 
possible.

                    INTERNATIONAL CULTURAL PROGRAMS

    Mr. Pastor. I will end with this second question, and it 
goes to your second challenge, about the United States not 
expanding its cultural exchanges with other nations.
    Almost every city in this country has a sister city 
somewhere in the world. I know that Phoenix has a number of 
sister cities. And on a number of weekends, especially in the 
spring, they have the festivals.
    Have you thought about any linkage with the National 
Endowment for the Arts and the sister city program so that we 
might meet and overcome the second challenge?
    Mr. Gioia. We have only done that in a very limited way. We 
have greatly expanded international programs, but I have not 
expanded them to anything close to their real need because I 
want to make sure that we cover our domestic needs first. Our 
primary focus has been with Mexico, which is the country with 
which we share a large common border and an enormous number of 
common citizens. My own mother was Mexican American. So we have 
created many programs with them. And our Big Read Program--now 
that we have Big Read programs internationally with Russia, 
Egypt, which is co-funded by the State Department and Mexico, 
we are trying to identify sister cities in those nations to 
sponsor these programs. But that is about as far as we have 
taken it. And I think that there is enormous opportunity there. 
Many cities have sister cities in each continent so that there 
is a real wealth of pre-existing connections there.
    Mr. Pastor. I yield back, Mr. Chairman.
    Mr. Dicks. Thank you very much. Thank you, Mr. Chairman. 
And I think you can tell this committee is very supportive of 
the direction you are taking the NEA in and we are going to do 
our best to work on your budgetary problem and see if we can 
restore it.
    Mr. Gioia. I know I speak on behalf of all of my colleagues 
at the Endowment. I thank you for the continuing support of 
this subcommittee. And I am so delighted that Congresswoman 
Slaughter and Congressman Shays will also be testifying in 
this. They have been great friends to the Endowment.
    Mr. Dicks. Thank you. Now we are going to call up two of 
our favorite colleagues, Louise Slaughter from New York, via 
Kentucky, who is the chairman of the House Rules Committee, and 
Chris Shays of Connecticut, two of our most thoughtful and 
respected Members who are the co-chairs of the Arts Caucus here 
in the House of Representatives. Louise, you may start. I want 
to say first of all, however, I appreciate all of your work 
together over the years and on the floor. When we were 
advocating for these agencies, you and Chris made a big 
difference in educating our colleagues about the importance of 
the endowments.
    Ms. Slaughter. Thank you, Mr. Chairman. I really appreciate 
that and I certainly appreciate your support. And I see Mr. 
Tiahrt this morning is here.
    Thank you, Mr. Dicks. I apologize first for my scratchy 
voice. I have three grandchildren in elementary school and I am 
more than supplied with the daily requirement of viruses. Thank 
you so much to you and the ranking member, Mr. Tiahrt, for 
allowing us to come and testify today and thank you so much 
from the bottom of our hearts for the help you have given us 
over the years. As you pointed out, we went through some very 
dark days, Mr. Dicks. But as I said this morning, I think happy 
days are here again. I want to thank you.
    I would like to begin by addressing Mr. Pastor's question 
about failing schools and what to do about schools. Rochester, 
New York, was represented years ago by very able people. 
Somebody persuaded George Eastman that every schoolchild in the 
city should have a musical instrument. And that was provided 
for many, many years by the Eastman Kodak Company. And that is 
why I think that Chuck Mangione plays the flugelhorn and Mitch 
Miller plays the oboe because probably when they got to the Ms, 
the more popular instruments had been taken. And of course, Cab 
Calloway did okay because his voice was his instrument. But any 
school that is failing, any school that is falling behind would 
do well to look to the arts. What we know now, and Mr. Chandler 
brought it up, what we know now about the developing mind and 
art is so overwhelming and so astounding that we should spend 
more and more money on arts in school. What we have seen 
already with children as young as 3 and the things that they 
are able to do and when we heard from Westinghouse years ago 
during our dark days, Westinghouse said they wanted to hire 
people who had musical backgrounds and had studied music 
because they were innovative, they were creative and he 
appreciated it so much. We did come very close to losing the 
Endowment completely. And it was people who stood up outside, 
like the Conference of Mayors, county legislators, State 
legislators, are all people who said no, don't do that.
    In addition, I firmly believe that any child that learns to 
create is not going to be destructive, is not going to destroy. 
We have seen what it does for self-esteem and teaches them 
things. But the correlation between the brain and the way it 
learns and the way it goes over to other studies is so 
critically important to us. And with the sorry state of 
education in large parts of the United States right now, my 
favorite was the young woman who--high school graduate who was 
asked on some program--I am not sure what it was--how smart are 
you--what country--Budapest was the capital. And she said I 
have never heard of it. And they said it is in Europe. She 
said, oh, I thought Europe was a country. And when they said 
no, it is the country of Hungary, she said I have never heard 
of Hungary. I know Turkey, but I have never heard of Hungary. 
This is the kind of thing that I think really ought to make us 
sit up and take notice and do whatever we can do to enhance the 
learning and the ability of our young people to understand this 
world they are in and to read, which is another thing that the 
Endowment does.
    But anyway today, I really want to thank you for coming 
again. We had a successful year last year and we hope for 
another. I do appreciate all of your efforts and I want to 
thank my colleague, Chris Shays, who has been my partner in 
everything that we have done, worked with me over the past 10 
years to restore funding. We did all right. The arts define our 
culture and instill unique character in the communities across 
our Nation. Art transcends the barriers of language, time and 
generation, translating cultural differences, breathing life 
into history, and reaching experiences across cultures. 
Recognizing this, and the inherent educational benefits of 
exposure to art, the Federal government has allocated Federal 
funding to the NEA to promote the development and advancement 
of art programs across the country. In the late 1980s and early 
1990s, Congress funded the NEA at $170 million to carry out its 
mission to support excellence in the arts and ensure that all 
Americans have access to the arts. But the funding was slashed 
so prodigiously in 1995 and 1996 and has never yet recovered 
from that 40 percent cut. Last year was a breakthrough year for 
us, thanks to Chairman Dicks and Mr. Tiahrt and other members 
of this subcommittee. We received a nearly $20 million in 
increase in funding, thanks to you. But its invaluable programs 
remain seriously underfunded and the agency continues to 
struggle to meet the growing demands for its important 
programs.
    The National Endowment for the Arts is the largest national 
source of arts funding in the United States and supports local 
arts programs in every congressional district across the 
country. While NEA's budget represents less than 1 percent of 
total arts philanthropy in the United States, the NEA grants 
have a powerful multiplying effect, with each grant dollar 
typically generating 7 to 8 times more money in matching 
grants. No other Federal agency and no private organization 
facilitates nationwide access to the arts to this extent. And 
it is therefore no surprise, but very important for everyone, 
to know that the nonprofit arts industry generates $166.2 
billion in economic activity every year, provides nearly 6 
million full-time jobs and at the same time the industry 
returns to this Federal budget $12.6 billion in income taxes. 
And I defy anybody anywhere in the Congress to find any other 
program we fund that has that kind of return.
    Federal funding for the arts has a ripple effect on the 
entire economy. Across America, cities that once struggled 
economically are reinventing and rebuilding themselves by 
investing in art and culture. Both are proven catalysts for 
growth and economic prosperity. By creating cultural hubs, 
nonprofit art businesses help cities to define themselves, to 
draw tourists and to attract investment. Federal support for 
America's nonprofit cultural organizations must go on if we 
hope to continue the substantial benefits they bring. And as I 
said, not only economic, but educational.
    In addition to the economic benefits, we must continue to 
cultivate exposing our children to the arts. It is essential if 
we ever hope for them to reach their fullest potential. 
Exposure to the arts fosters learning, discovery and 
achievement in our country. Research has proven that 
participation in arts education programs stimulates the 
creative, holistic, subjective and intuitive portions of the 
human brain. More significantly, educating children in arts 
also educates them in the process of learning.
    Researchers from the University of California at Los 
Angeles found students with high arts involvement perform 
better on the standardized achievement tests than students with 
low arts involvement. Indeed, if you have been exposed to art 4 
years in high school, your SAT grades go up on the average--or 
points rather--on an average of 59 points. Indeed--and I think 
it was mentioned before by Mr. Gioia--but on arts days in 
schools nobody is absent. They love it. And parents, any time 
schools start to cut back on the art programs have been saying 
that they change that.
    So employers are looking for people who know how to learn, 
and learning through the arts will reenforce the crucial 
academic schools in reading, language and math. But just as 
important, it will also teach them self-respect, knowing the 
skills that they have helps them to develop and to grow and to 
analyze and synthesize information which we must have.
    Educating the children early and continuously in the arts 
will prepare them for the work in today's innovative and 
creative post-industrial society. But they are not what 
ultimately draws people to the arts. People seek experience 
with the arts for emotional and cognitive stimulation. We all 
know the transformative power of a great book or painting or a 
song. A work of art can evoke extraordinary feelings of 
captivation, deep involvement, amazement and wonder. This 
evocative power is so rare in a world where we tend to grasp 
things almost exclusively in terms of their relation to the 
practical needs and purposes. Stimulating this mental and 
intellectual activity not only enhances our creativity and 
imagination, it strengthens our ability to empathize with 
others and deepens our understanding of the human spirit.
    In today's globalized world, these factors must not be 
ignored. We cannot assign a price tag to the intrinsic benefits 
that the arts bestow on individuals and across communities and 
society at large.
    I understand that there are many important requests before 
your subcommittee and many Federal agencies struggling to 
overcome the funding shortage. But I am compelled today to ask 
that you take into consideration the return we get on our 
investment in the arts. American artists share with us a piece 
of their spirit and their soul with every creation. It is a 
labor of love for the artist, it brightens the life of each of 
us, bringing us joy and comfort and enlightenment and 
understanding in ways impossible to find otherwise. And the 
arts and artists of America are a national treasure which this 
great Nation needs, deserves and must support, as do other 
nations around the globe.
    Again, I thank you for the opportunity to testify before 
you today and urge your continued support for the NEA funding.
    Mr. Dicks. Thank you for that wonderful statement, and we 
appreciate your leadership over the years. You have been a 
stalwart in the House in support of the arts and I have enjoyed 
working with you and we will continue to work together. And now 
I will call on your co-chair, Chris Shays from Connecticut, who 
is again one of the most respected Members of the House and 
also a leader in the arts advocacy area.
    Mr. Shays. Thank you, Mr. Dicks, and to your committee, Mr. 
Tiahrt and the other members. I will submit my statement for 
the record.
    Mr. Dicks. Without objection, it will be submitted.
    [The statement of Mr. Christopher Shays follows:] 


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. I want to make a few points. First off, I think 
Louise covered it well. But I tell people--and we are at a 
table--I eat the crumbs off her table. And I just appreciate 
what she has done for such a long period of time. And I 
particularly appreciate you, Mr. Dicks, for leading this 
charge. I grew up in an arts family and I didn't realize that 
was unusual. I thought every kid went to sleep with his father 
playing the piano. When I went off to college, I had a hard 
time getting to sleep.
    But I would make this point to you and just emphasize it. 
If the nonprofit arts industry alone generates $134 billion 
annually and supports 4.85 million full-time equivalent jobs 
and returns 10.5 billion to the Federal government income, just 
from the standpoint of your spending side of this equation, the 
millions that you would add, the small amount that you would 
seek to add would have a huge impact and yet be nothing in 
terms of the trade-off that exists for the arts. So on the 
economic side, it is clear.
    But I think arts give young people and maybe older people 
as well dreams. And I can't imagine growing up without dreams. 
It makes us think, it makes us ponder, it makes us laugh, it 
makes us cry. I know we have three performers who are 
incredibly gifted. I to this day have not forgiven Robert 
Redford for leaving Barbra Streisand in The Way We Were. I said 
how could he. And I said no. It was a bad mistake. But he kind 
of made up for it when in The Natural he realized Glenn Close 
was someone that he needed to spend his life with. So don't 
tell me the arts don't matter. We think about it all the time. 
It brings debate to our society. But the bottom-line for me, 
just put the economics aside, it is about as spiritual as going 
to church and can have the same impact. Thank you.
    Mr. Dicks. Well, thank you both very much. And we 
appreciate your being here and to your leadership in the House. 
And thank you for your good work.
    Ms. Slaughter. And thank you for yours.
    Mr. Dicks. All right. Now we are going to bring up Bob 
Lynch to the table. I want to welcome you back to the 
Subcommittee and thank you for organizing this distinguished 
panel to present testimony to the Subcommittee on the 
importance of the Federal role in support of the arts and arts 
education. I observed during last year's arts hearing that we 
might have called this session the first Sidney Yates Memorial 
Arts Advocacy Day hearing. Given the very disappointing fiscal 
year 2009 budget, for the National Endowment of the Arts 
presented by the President, it is clear that your return 
appearance is necessary and timely. I was pleased that last 
year the Committee was able to make some significant progress 
in increasing funding for the NEA. As you know, I would have 
preferred to do more. Continuing to restore funding for both 
endowments will be a high priority for me again this year as 
chairman and I hope for all of the members of our subcommittee.
    Today's advocacy session is critical in making this case 
both to Congress and to the public. We appreciate your help and 
that of all of the individuals that have contributed their time 
and energy towards making this year's Arts Advocacy Day a 
success.
    Mr. Lynch, you have organized a terrific panel, including 
five very knowledgeable individuals. We are honored by their 
participation today. And I would turn to Mr. Tiahrt for any 
comments you might want to make.
    Mr. Tiahrt. Thank you, Mr. Chairman. I would just say that 
I am anxious to hear this testimony move forward. So I will 
keep from any questions now or comments as well. Thank you.
    Mr. Dicks. Mr. Lynch.
    Mr. Lynch. Well, first of all, good morning, Chairman Dicks 
and Ranking Member Tiahrt and all the subcommittee members. It 
gives me great pleasure to introduce to you today a committee 
of elected officials, acclaimed artists and business leaders 
who will be presenting this testimony this morning. And the 
testimony is on supporting your good work from the past, 
further increases in funding for the National Endowment for the 
Arts. And I think you will find that each individual invited to 
testify today will make a compelling case for why the National 
Endowment for the Arts is a great investment for our economy 
and for our citizenry. And, Chairman Dicks, I will bring each 
one up separately after my testimony if that works for you.
    Mr. Dicks. That works.
    Mr. Lynch. What I want to start with is to simply say that 
I have had the great pleasure of being a visitor to each one of 
your districts, all 15 of the Subcommittee members' districts 
in my Create Americas for the Arts. So I have had the 
opportunity in that time to see the wonderful artwork, public 
artwork in Congressman Pastor's district, Phoenix, Arizona. I 
have had the opportunity to buy the great craft work in 
Congressman Moran's district. We are bringing our annual 
conference to your district next year.
    Mr. Dicks. Wonderful.
    Mr. Lynch. And a big part of the whole local arts agency 
movement in America began in Wichita, Kansas, where we had a 
convening some 50 years ago that launched a lot of what we are 
all about here and the support for the National Endowment for 
the Arts. So I have written testimony that I would submit.
    Mr. Dicks. Without objection, we will place it in the 
record.
    [The statement of Robert Lynch follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Lynch. And what I want to say simply is that you know 
that we are here to ask for the National Endowment for the Arts 
funding to be restored to its $176 million historic high, which 
was 10 years ago. We are trying to go back to the future. And 
the $20 million increase that this committee was able to get 
last year was an enormous boost to the arts in America and to 
the leveraging of State monies, local monies on the government 
side and private sector money itself. The impact of the arts 
and the arts community across America is something that I just 
want to reference today because a lot of people don't realize 
the scale of what we are talking about.
    Today, for example, we have 600 representatives, 600 arts 
leaders from every State here, 87 national service 
organizations coming together on a united front. And I am going 
to be submitting to the Committee this book that we have done, 
Congressional Arts Handbook, that--87 national arts 
organizations agreed on something. And that is not easy. And 
they came together and they agreed on a dozen things that they 
think will make America better through the arts. So I am going 
to be passing that on to you.
    But those organizations representing music and theater and 
dance and literature and visual arts and media, they represent 
100,000 nonprofit arts organizations in America, 100,000 in 
each one of your districts. And that is only part of the 
equation. We know that there are over 600,000 arts centric 
businesses in America; in fact, 612,095. 4.3 percent of the 
businesses in America are either non-profit arts organizations 
or for-profit arts organizations like the music store that you 
see in your towns or the dance school and things like that. And 
they support almost 3 million jobs. That is not the passion 
argument that we heard wonderfully from our two congressional 
friends before. That is the harder side, the business side 
argument, but important as well because of your public policy 
role in understanding that there has to be that.
    What we have in today's hearing is a title called the role 
of the arts in fueling creativity and innovation. And last 
night we had Dan Pink, a great author who has been speaking 
about creativity in America, as our Nancy Hanks Lecturer at the 
Kennedy Center. And some of you were there with us. And what he 
talked about was overwhelming evidence about tomorrow's jobs in 
America that will need creativity, creativity, a whole new mind 
that is going to be what is necessary for the worker of the 
21st century to be able to navigate a world, that jobs have to 
be more creative to separate the products from other people's 
products, from the vast array of choices that we now have out 
there in the American landscape.
    He talked about abundance. How do you compete in an 
abundant society? Well, you have to have better design, better 
creativity. He talked about many of the jobs that we are 
actually training our kids for being outsourced to Asia and 
other places. What is it that is going to distinguish the kids 
today to keep good jobs in our country?
    One other thing that I will be submitting to you is there 
is a book or a magazine called The School Administrator. This 
is the magazine that all of the superintendents in America 
read. And the entire issue, last issue, is devoted to why the 
arts are important to be restored in every American school so 
that the kids will have that creativity so they will get those 
jobs. So we will submit that as well.
    The arts are not just driven, though, by this business side 
or drivers of industries. Congressional Arts Caucus Co-Chair 
Louise Slaughter said something recently. She said the arts are 
stunning gifts, stunning gifts that American artists make to 
our daily lives. They help kids learn, they make them smarter, 
they brighten life, they bring joy and comfort and 
understanding, they are a national treasure. And my point is 
they are both a spiritual national treasure and they are an 
economic national treasure.
    Now, some of our other panelists will talk about intrinsic 
benefits, the inspiration, the unleashing of creativity, the 
civic discourse. But public officials like you and like mayors 
and like State officials manage economic well-being as well. 
And there is strong data that shows the economic benefits. I 
heard Louise Slaughter reference that data, but we have a chart 
here that we will leave up for the entire hearing that shows 
what I referenced before.
    The $166 billion economic impact of just the nonprofit arts 
in America, that is huge. It is bigger than anyone thought. The 
5.7 million jobs that are direct and indirect because of that 
industry, the $39 billion in taxes that get returned, Federal, 
State and local, that Congresswoman Slaughter referenced. And I 
would like to point out that in a time of troubled economies, 
we are a growth industry, 24 percent increase in the last 5 
years.
    Now, as I have had the chance to go out across the Nation 
and visit all of the districts, I have seen that the prize for 
the most arts-related businesses of any of your districts goes 
to Congressman Moran, 2,063 businesses, 19,403 jobs. And I 
think that is impressive. But I also want to say that even the 
smallest district--and I had mentioned this--we sent the 
information to Congresswoman Emerson in Missouri--570 arts-
related businesses in that congressional district and 
supporting 1,935 jobs. Biggest, smallest, it is still good, it 
is still important.
    Thirty years ago, I had the chance to work with Congressman 
Olver to take a look at his district. He was the State senator 
at the time. We envisioned how it could be better and started a 
festival in North Hampton, Massachusetts, a place of decaying 
buildings that was almost abandoned. That festival launched a 
creative energy and a rush of artists that led to businesses 
coming and led to that town today being one of the top 100 arts 
destinations in America. This is a story that many of you know 
in your communities as well, and it is a story that is repeated 
again and again across America.
    The United States Congress and this committee 40 years ago, 
or your predecessors, need to take a lot of credit for what you 
see up there on that chart, and here is why. The launching of 
the National Endowment for the Arts--and I get this story from 
John Brademas, your colleague, who says to say hi today--was 
the launching of a system of support in America as we know it 
today, the network of support in America as we know it today. 
Over 40 years ago there was no Federal funding. There was very 
little State funding, only four State arts councils. There were 
a handful of local arts agencies. The stimulus that happened 
because of the creation by folks like Senator Pell, Congressman 
Brademas, President Johnson allowed the system of support to 
click into place that creates that $166 billion industry today. 
Only 10 percent of the arts part of that is from government and 
a tiny fraction of that is from the Federal government. I don't 
look at it as a subsidy. I look at it as incentive. But I want 
you to know that that incentive over all of these years has 
been the tail that has wagged the entire dog of the arts 
economic industry. Arts in America owe you and your 
predecessors a great debt of gratitude.
    Local arts agencies are an important piece of that. You 
have a local arts council and arts commission in every one of 
your towns. They are a local funding entity and you have at the 
Federal level, at the national level, presidential candidates 
who are calling for a lot more than we are asking for here 
today. We are asking for a $31.3 million increase to bring it 
up to 176.
    Mike Huckabee announced on ``Meet the Press'' that the arts 
are weapons of mass instruction and we need more of them 
Federally funded. Bill Richardson, Bill Richardson in his--one 
of the----
    Mr. Dicks. Maybe we can fund it out of the defense budget.
    Mr. Lynch. Bill Richardson called for half a billion 
dollars more to go to the arts and arts education in America. 
We are conservatives here. We are only asking for $31.3 
million. And both candidates, Obama and Clinton, have strong 
arts policies calling for increases on all fronts.
    So with that, I simply want to say Federal support carries 
increased value because it sends a signal to the other funders. 
As the National Endowment for the Arts Chairman Gioia recently 
noted in case after case, the NEA learned that its grants had a 
powerful multiplying effect, and I have illustrated that today. 
It is my hope that the distinguished members of this 
subcommittee will continue to support the NEA's incremental 
march towards restoration and advancement of the arts and 
supporting our local economies, as well as our local spirits 
and expanding access to the arts for all Americans and 
preserving our shared cultural heritage.
    In 1992, the National Endowment for the Arts' all-time high 
budget was $176 million, and I ask the Subcommittee to return 
the agency's budget to this level. Thank you very much for the 
opportunity to testify before you on these issues.
    Mr. Dicks. Thank you very much. And are you going to 
proceed and introduce your----
    Mr. Lynch. If there are no questions, I will proceed and 
introduce----
    Mr. Dicks. I think we should go ahead. The witnesses have 
been waiting a long time, and we will hear the testimony and 
then ask the questions.
    Mr. Lynch. Great. So let me begin by introducing the 
honorable mayor, Mufi Hannemann, and ask the mayor to join us 
here, our first speaker and a person who has experienced 
firsthand the impact that the arts have in our cities. Mayor 
Mufi Hannemann is the mayor of Honolulu. So he traveled a long 
way to be here. And he serves as the Chair of the Tourism, 
Arts, Parks, Entertainment and Sports Committee of the United 
States Conference of Mayors. And the very fact that they have 
an arts committee is exciting.
    Prior to taking office in 2005, Mayor Hannemann served in 
four White House administrations and was a Fulbright scholar. 
He will provide an elected official's perspective on the vital 
role that culture plays in the civic and economic development 
for cities and the personal enrichment he receives from 
different forms of artistic----
    Mr. Dicks. Well, I have to welcome Mufi, who has been a 
long-time friend of mine, and especially now, right during the 
Final Four. We used to get together and have a lot of fun over 
the years. And we are glad you are mayor out there doing a 
fantastic job and we appreciate your coming all the way to 
testify today.
    Mr. Hannemann. Thank you, Chair Dicks. And thank you, Bob, 
for your excellent presentation. Chair Dicks, Ranking Member 
Tiahrt, and members of the House Appropriations Subcommittee, 
it is my pleasure to be here not only on behalf of the people 
of Honolulu, but the mayors of the largest body known as the 
U.S. Conference of Mayors. I have submitted testimony on the 
record, but I would like to amplify----
    Mr. Dicks. We will place it all in the record and you can 
summarize as you----
    [The statement of Honorable Mufi Hannemann follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hannemann. Thank you. We want to state emphatically 
that as mayors we get it when it comes to the arts. We 
understand that our job is more than fixing roads, potholes, 
ensuring public safety, cleaning parks, emphasizing 
infrastructure. As important as those responsibilities are, 
there is nothing like having a vibrant arts culture in every 
city. And there is basically some very strong reasons why we 
have gone on record in our 10-point plan for strong cities, 
strong families, for a strong America where we are calling for 
additional emphasis and funding on the arts.
    Number one, the arts help define the soul, the essence, the 
culture of a city. In my particular case it is all about our 
cultural heritage. It is all about what we call our native 
Hawaiian culture. At one time, as a kingdom, we had the highest 
literacy rate in the world in 1851. We had a monarch that 
traveled around the world, King David Kalakaua, and took with 
him culture and arts everywhere he went. This is why music has 
evolved now where the Grammys even have a Hawaiian music 
category and the hula, that very popular form, is practiced and 
taught throughout the world. People need not come to Hawaii. 
That is very important. It is all about livability. We are very 
proud of the fact that the International Herald Tribune ranked 
Honolulu as one of the top 10 most livable cities in the world. 
And we believe arts and culture is one of the reasons why they 
have done that.
    Secondly, it is all about education. We heard a wonderful 
lecture last night that was given and we recognized through 
that lecture at the Kennedy Center that education leads to a 
workforce that is competitive, that is innovative, that is 
creative. And certainly I think you all are aware of the 
challenges we face, especially with the Asian economies, and 
that we want to have a competitive workforce. Arts brings out 
that critical thinking, that ability to expand beyond what 
people normally take up.
    We know that big countries like Japan have emphasized the 
arts in ways that we should do in the United States, where they 
rank and they teach music and arts and emphasize it in the same 
way that they do mathematics and science.
    Thirdly, it is all about the economic impact. We have seen 
the figures here before you nationally. But in my particular 
city, I have made three positions, a senior level, cabinet 
level, positions with emphasis on the arts. Traveling with me 
today is my Director of the Office of Culture and the Arts, Mr. 
Michael Billy Pang, where we give out nearly $300,000 a year to 
nonprofit organizations. We have an Office of Economic 
Development where we work with the Hawaii Tourism Authority, 
where we pass on another half a million dollars in grants to 
nonprofit groups.
    We also have a very strong Honolulu Film Office, which has 
resulted in $100 million in spending for the film industry. All 
of this, of course, has led us to revitalize a very important 
part of our community called Chinatown, where our quest is to 
make it a leading arts and cultural center in the world. We are 
very proud of the fact that First Lady Laura Bush recently 
designated Chinatown as part of Preserve America designation. 
We have a Wi-Fi service throughout Chinatown. We have created 
art enterprise zones where the first Friday of every month is 
designed to open up the vibrancy of that city, create economic 
dollars, and once again move us closer to what we want to 
become as a city with respect to the arts.
    Last but not least, it is all about today talking about the 
goals that we have in this mayors' 10-point plan. And one of 
them calls for the creation of a cabinet level secretary for 
culture and tourism. This is why we went with Bob to New 
Hampshire and participated in that first presidential 
candidates forum on the arts.
    We want to make it clear that the mayors would like to see 
this. We want to see the recognition that the arts deserve. 
Foreign countries around the world emphasize cultural arts and 
tourism way beyond what we do in this country here. And it is 
high time that we have a President in the White House that will 
recognize the arts and will work with Members of Congress to 
give it the recognition and the funding that it richly 
deserves.
    Let me close, Mr. Chair, with just one simple and very, I 
believe, eloquent anecdote in terms of why we support increased 
funding for National Endowment of the Arts. Recently a group of 
18 cultural practitioners from the island of Maui went to New 
York and they went there to talk about one of the chiefs of 
Hawaii, who doesn't perhaps have the recognition as King 
Kamayamaya. This chief was Kahekili and he came from the island 
of Maui. And he lived to the ripe old age of 87. He died of 
natural causes. But before he died he united every part of the 
Hawaiian kingdom, except one, the big island of Hawaii. He was 
a compassionate leader who at the end of every bloody victory 
he ordered his men to lay down their weapons and return to 
their taro patches. These 18 cultural practitioners, thanks to 
a funding from the National Endowment of the Arts, went to New 
York. And let me just quote to you what they experienced there. 
It was a first taste for Manhattan for most and the taxis were 
all on strike. That never happens in Honolulu, by the way. 
Picture 18 hula artists from Maui, traveling to the concert 
site by subway, curlers in hair and everything. The whole 
experience was absolutely fabulous. New Yorkers were not only 
kind and helpful, but also excited to see this kind of dance, 
Kahiko, ancient style, for the first time. They have since 
returned to Hawaii and they will now continue to take this 
traveling road show depicting the life of a chief to other 
places throughout America.
    But as was stated at the end of this particular article 
that I am reading, it is important to us that people in the 
United States have the opportunity to get to know our chiefs 
like Kahekili, to experience the cultural practices of those 
days, the emotions and the glory and the life of old.
    I relate that to you because it is only through the arts 
that we are able to bridge the cultures between East and West. 
It is only because of the arts that we are able to increase the 
understanding and appreciation of my particular indigenous 
culture, the native Hawaiian culture. And it is only through 
the arts that people have an opportunity to experience the Big 
Apple and experience what most of us understand in the 
transcontinental United States.
    I thank you for the opportunity to be here today. I urge 
you to continue the same type of passionate leadership that you 
have exhibited with the arts. Sooner rather than later folks 
will understand what all of these leading arts advocates 
throughout the country are here today for, to say we can't 
shortchange the arts. It is about our past, it is about our 
present, but most importantly it is about our future.
    Thank you very much.
    Mr. Dicks. Well, we appreciate your very thoughtful 
statement and the fact that the mayors are supportive of what 
we are doing. That is important. There is a lot of leadership 
today coming from the mayors, particularly on climate change, 
greenhouse gases, issues of very major significance. The mayors 
have really taken up a leadership void, I think, and we in the 
Congress appreciate that. We also appreciate being part of your 
10-point plan as a significant endeavor for local communities 
to improve themselves. And I just want you to know that I 
appreciate very much your friendship over the years and 
leadership on these issues.
    Any other colleagues want to make a statement of any kind? 
Thank you, Mufi. We appreciate your being here.
    Mr. Hannemann. Mr. Chair, who is going to win the Final 
Four?
    Mr. Dicks. That is above my pay grade.
    Mr. Tiahrt. It will be Kansas.
    Mr. Dicks. Thank you very much.
    Mr. Lynch. I want to say thank you to the mayor. And I 
think that the members of the Committee certainly can 
appreciate the words of a fellow elected official, but one 
thing that I would also like to point out is that the mayors in 
local government in America fund the arts at the approximate 
amount of $2 billion a year. That money appropriated by mayors 
across America only happens because of the leverage that you 
provided. It gives me great----
    Mr. Dicks. I want to make sure. You are saying in their 
funding, that that totals $2 billion?
    Mr. Lynch. Almost $2 billion from the cities.
    Mr. Dicks. That is very significant.
    Mr. Lynch. Yes. Absolutely. And our friends at the State 
level are very close to about half of that. So that combination 
with the Federal piece is where public sector funding for the 
arts comes from in America. The Federal piece is the smallest, 
but it is practically the most important because of its 
leverage.
    And now it really gives me great joy to introduce our next 
speaker, who is an acclaimed contemporary musician, Mr. John 
Legend, who I ask to come up. And he is practicing a bit of 
shuttle diplomacy on behalf of the arts today, having just come 
from our Congressional Arts Breakfast. He is a five-time Grammy 
award winning musician, R&B singer, songwriter, a pianist. He 
is the founder of the Show Me Campaign, which is a grassroots 
movement to fight worldwide economic and spiritual poverty 
through fostering sustainable development at the individual, 
family and small community levels, and he is a member of our 
Americas for the Arts Artists Committee, of which we are very 
proud that we had the opportunity to honor him last year with 
our Young Artist Award. We have asked him to speak on the power 
of arts training and the inspirational aspects of the arts that 
have influenced him in his successful music career.
    John Legend.
    Mr. Legend. Thank you.
    Mr. Dicks. Thank you very much. And you may proceed as you 
wish. We will put your entire statement in the record. And you 
may proceed. Thank you for being here.
    [The statement of John Legend follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Legend. Thank you. Good morning, Mr. Chairman. Good 
morning to all of you Committee members that are here. I am 
excited to be here. This is my first time doing anything like 
this. So bear with me. They say that a lot of celebrities want 
to be politicians and a lot of politicians want to be 
celebrities. But the fact that you guys have to sit around and 
have people beg you for money all day, I don't know if I want 
to be in your shoes.
    Mr. Dicks. Only if you can deliver the money. That is what 
Jerry Maguire said, show me the money.
    Mr. Legend. But I am really excited to be here. I think 
this is an important cause and it is a cause that is really 
close to my heart. I grew up in Springfield, Ohio, a small 
town, small city, where the arts were so influential to me 
growing up and developing into who I am today that I am 
grateful for all of those influential people that brought me 
here and gave me the ability and the confidence to be where I 
am.
    I started out playing the piano when I was 4 years old. I 
had a piano teacher at a local music school. And I also had my 
grandmother, who was the organist at my church, who helped 
train me to become a pianist and an organist. And then my 
mother was the choir director at my church. So she helped me 
become a singer. So I was surrounded by artists, just like 
Representative Shays said. And I know how important that is.
    I had a piano in my house and I always wanted to learn how 
to play. And from a very young age it was such a big influence 
in my life. I went on to go to a place called Springfield 
Christian School, which was a small private school. And the 
first play I ever acted in was my second grade play where I 
played Andro, the star that led the shepherds and the wise men 
to Jesus. I was a talking-singing star. And I have always loved 
performing ever since that time. I did piano recitals and 
everything you can imagine. And my parents actually brought me 
back home a couple of years later and started home schooling 
me. So third, fourth and fifth grade and sixth grade I spent at 
home with my family.
    And when my parents got divorced, I went back to school, 
and I went to public school this time. So it was a big school, 
a lot of people I didn't know. And the first way I got 
integrated into the school and really became socially involved 
in school was through music. I was in the talent show, I was in 
the choir, and I had a lot of great teachers and a lot of great 
support around me. And a lot of it was due to me being involved 
in the arts. And they were like my second family when I was 
living in a family with a single parent, my father taking care 
of us and going to work every day. And what I did after school 
rather than getting caught up in trouble was get involved in 
music.
    I had a choir director named Arlan Toliver, who was the 
head of the Springfield Unity for Christ community choir. I had 
my gym teacher in middle school who also doubled as a music 
tutor for us after school and was the head of the talent show 
at school. I had an English teacher who was also doubling as 
the drama teacher at my high school and taught my show choir. 
And all of these people were like my extended family at school 
and helped keep me out of trouble when there was a lot of 
trouble to be had. And I really appreciate all of them.
    And these are the people that we are talking about funding. 
These are the people that help raise our children. It really 
does take a village like those people to help raise the kids of 
our communities, and these are the people that we are asking 
for money for and I think it is really important to stress 
that. And it is not just to make you a better musician. I ended 
up turning out to be a professional musician, but I could have 
gone another way.
    I ended up going to the University of Pennsylvania when I 
graduated high school. And I think a lot of that was due to the 
confidence that I developed from music and from performing to 
also be good in my other studies and to be a better leader and 
to be a member of the community through music and the arts.
    And then when I graduated from Penn, I ended up going an 
even more different path. I worked at Boston Consulting Group, 
which is a leading strategic management consulting firm. And 
you might say how do you go from that to where you are now. But 
one of the things about BCG is they were looking for people 
like me to hire, people who were not just smart and able to do 
the math and do the analytics, but they also wanted creative 
people. They wanted people who thought outside the box and were 
really creative and could make change happen by being creative. 
And so I had people in my class at BCG who have gone on to 
write novels, people who also sing. And those creative people 
were part of the engine of success at BCG.
    And I am glad that they brought those kinds of people along 
because it demonstrates to you that artists aren't just there 
to become professional artists. They are going to become 
businessmen, they are going to become lawyers, they are going 
to be important members of the economy no matter what they end 
up doing. And what you are funding now is going to help make 
that happen, make this country competitive. I think it is 
critical. I don't think it is something that is nice to have. 
It is a necessity that we have something like this. And I am 
proud to be here in support of the funding that they are asking 
for, and I hope that as we are here begging for money, that you 
all will consider what we have said today and remember the 
stories of people like me who have been so influenced and so 
helped by those art teachers, those arts councils that help 
nurture us and raise us into the human beings that we are 
today.
    So thank you very much.
    Mr. Dicks. Thank you. But tell us a little bit about your 
Show Me Campaign.
    Mr. Legend. The Show Me Campaign is a poverty campaign. We 
actually work with Dr. Jeffrey Sachs, who is with the Earth 
Institute at Columbia. I am sure most of you have heard of him. 
He is a great author. He has a new book out. I will give him a 
plug. And we work directly with him, with the Millennium 
Promise organization. And I use my music to bring that message 
to a lot of the young people that listen to me. So Dr. Sachs 
already does a great job of fundraising. He does a great job of 
speaking about the issue of poverty. But we try to bring it to 
an audience that may not have listened before. And we are 
trying to train them to be focused on the issue of poverty for 
the rest of their lives, as they are going to make a lot of 
money and hopefully give back. And we visited Tanzania, we 
visited Ghana to see the work that is happening there. And we 
also visited places like New Orleans where we have poverty 
right here in America as well.
    So I think it is a really important subject to be talked 
about. I guess it is a different subject, but I think it does 
show the power of music to communicate that message, and we 
have traveled to colleges around the country, to speak to 
students at Columbia, at Tulane. We are going up to Boston to 
speak to the students at MIT about that subject as well. And I 
think music is such a powerful way to help bring that message. 
Not only do we speak about poverty, but we also sing and we 
give them a nice little show. So I think those kinds of things 
illustrate the power of music beyond just music, beyond just 
entertainment to help make change around the world.
    Mr. Dicks. Thank you very much for your testimony.
    Mr. Legend. Any more questions?
    Mr. Moran. The book that Mr. Legend is referring to is 
called Common Wealth, and it is a heck of a great book. I just 
wanted to plug it so that others will----
    Mr. Legend. Yes, two plugs for Dr. Sachs.
    Mr. Moran. Thank you.
    Mr. Dicks. Thank you very much. We appreciate you taking 
the time to be here.
    Mr. Lynch. It is great to have John here, and his 
commitment to being here with us you can see goes beyond, as he 
goes all around the country.
    It gives me great pleasure to introduce a very talented 
young woman who, like John, is criss-crossing across our 
Nation's capital to advocate on behalf of culture. I think the 
Committee will agree that Kerry Washington is a forceful voice 
for expanding access to the arts for all. And I would ask Kerry 
to come up. She is an actor who has appeared in such films that 
you will know as the Last King of Scotland, was wonderful in 
the movie Ray, and while attending George Washington University 
as a Presidential Performing Arts scholar, she worked closely 
with the local theater community and helped create a support 
system for people of color in the arts called Shades of Fine 
Arts. And so I would love to have her tell her story to you.
    Ms. Washington. Thank you. Good morning. Good morning, 
Chairman Dicks, Ranking Member Tiahrt, members of the 
Subcommittee. It is an honor once again to be here with you 
guys to address this distinguished panel. I am an actor, an 
activist, a board member of the Creative Coalition and a member 
of the Americans for the Arts Artists Committee. I want to 
thank the Committee for their invitation to testify once again 
on behalf of an issue that has had a profound impact on me 
personally. I am proud and delighted to testify before you and 
to participate in my democracy in this way.
    Last year, thanks to you all, the NEA received a $20 
million boost over the previous year's funding. So thank you 
for putting us all on the right track. We must now keep moving 
in that same direction. Some of my fellow witnesses will lay 
out the economic arguments, and have, for increased funding for 
the arts and culture and I certainly echo their message. The 
numbers don't lie. Arts and culture funding exponentially 
return the favor back in dollars for local, State and Federal 
treasuries. And the business world is telling anyone who will 
listen, governments, school, parents, we need creative people 
who will think outside the box and who will be at the forefront 
of innovation in the new global economy. How else can we 
compete with China and India if we do not?
    You and I know where that quest must begin. It is plain and 
simple. We foster the arts and give all of our Nation's young 
people the opportunity to excel in their chosen fields, 
whatever their chosen fields may be.
    You have been provided with evidence as to how restoring 
the NEA's appropriation to the early 1990s level of $176 
million aids a wide range of activities and communities here in 
the U.S. I am here because I am living, breathing proof of how 
the data you have heard and the statistics you have read really 
exist. With proper support and funding, the NEA has the power 
to transform and transport a little girl from the Bronx to 
Broadway, to Sundance, to Hollywood, to the Hill and beyond.
    Thoughts of Hollywood were certainly not my reason for 
being drawn to the arts. In my testimony last year, you might 
recall how a young child with working parents was a beneficiary 
of a third parent: Community arts programs, dance classes, art 
classes, community children's theater. And while these programs 
were introducing me to the range of artistic expression, the 
NEA was crucial in helping me see what this expression could 
lead to. Great works of art all over the City of New York, on 
stage, thanks to the NEA's discount program, and in great 
museums, thanks to funding from the NEA to pay what you can for 
admission. This commitment to nonprofit arts institutions is 
needed now more than ever, especially in education.
    Without getting too specific about what the root causes 
are, we don't want to point fingers, art has gone absent from 
the classroom for far too many students. As the employers 
scream from the mountaintops for creative thinkers, we have 
unfortunately decided to cut the cornerstone subjects that draw 
out creativity. Art classes and teachers are not only in the 
business of training the next wave of artists and art teachers; 
the skills acquired in arts training may lead to productive 
careers in art, but they are really a vital piece of the 
academic development jigsaw puzzle.
    My arts training has prepared me not only for art, but it 
has instructed me in accountability, accounting, 
responsibility, promptness, leadership, group dynamics, 
communication, commitment, integrity, perseverance. All of 
these values and disciplines have helped raise my performance 
in all classes, in all subjects, in all areas of my life.
    At the onset of the HIV/AIDS epidemic in the 1980s, I was 
fortunate to be part of a high school peer education theater 
company called Night Star Theater. The program was funded 
through local grants to arts and education. Our productions 
entertained high school students and encouraged them through 
theater and theater games like role playing, to make informed 
decisions for themselves about safer sex, abstinence, self-
esteem, drug abuse, peer pressure and other issues that 
challenge adolescents. We provided creative and engaging models 
of behavior and communication strategies, meaning we taught 
them how to talk to each other and we helped them make 
decisions that would save their lives through theater. We gave 
them these tools during a time of hysteria when the myths and 
fears about HIV/AIDS prevented the kind of open dialogue that 
developing minds need.
    So while I was learning to be a better artist, a better 
professional, I was also learning to be a social activist, a 
better American. I was teaching my peers through the language 
of performance. And through the prism of this theater 
experience, I discovered a passion for social change and 
activism that has left an indelible print on the kinds of roles 
that I choose to play and on the ways that I use my performance 
skills to speak out publicly on issues that are important to me 
as you see before you. Can we agree, Members, therefore that 
Federal funding for nonprofits arts programs extrapolates in 
ways that are far reaching and reverberates far past the 
initial modest investment?
    Today, before you is a Phi Beta Kappa magnum cum laude 
graduate of the George Washington University, who has been 
fortunate enough to make a living doing what I love to do. I 
get to be a modern day storyteller, working on sets and on 
stages as a carrier of our new oral traditions of film and 
television. It is not bad for a latchkey kid from the Bronx. 
But my story is not the one I am worried about. If there are 
going to be more narratives like mine brought before this 
committee in the future, we must all do our part to ensure that 
nonprofit institutions maintain healthy bottom lines.
    Don't get me wrong, gentleman. I enjoy coming here and 
speaking to you every year, but I hope to be joined in the 
future by a chorus of similar successes from different 
industries. It is not just about programs that send budding 
talents out into the world in search of fame and fortune. That 
is not why we are here. We are here to talk about the day-to-
day enrichment and possibilities provided to every single 
American. That is what happens to the arts, whether it is in 
Tacoma or Wichita or the Bronx. There is a community theater, a 
ballet, a local arts education program that is vital to the 
economic well-being, educational development and civil 
discourse of that local community.
    I again applaud you for your historic increase in last 
year's fiscal year 2009 budget. I think I had a lot to do with 
it. I know that there are many needs, many needs to be 
addressed in these economically volatile times. Please let us 
keep up the momentum and allow arts and humanities institutions 
to tap our citizenry's creativity, spawn economic prosperity 
and educate our children.
    Thank you so much for having me once again and I am happy 
as always to answer questions, except about my date.
    [The statement of Kerry Washington follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Dicks. I just want to say that we appreciate your 
coming back and I think you are just a fantastic example of 
what, funding of the arts and education, what it all means.
    Ms. Washington. Thank you, Chairman.
    Mr. Dicks. You have been a tremendous success and we are 
very proud of you. And thank you for taking the time. We 
recognize that coming here to the Congress in support of this 
is part of your responsibility. Both you and John and Mr. 
Redford and others who are testifying, this is very important 
that the American people understand your support for these 
programs. It is also important for the Congress, the Members of 
the Congress to hear directly from you about your experience, 
and thank you very much for being here today.
    Ms. Washington. Thank you, thank you.
    Mr. Chandler. Mr. Chairman, I don't know about last year, 
but I think she is definitely going to make an impact on what 
happens, I think it will be a plus.
    Ms. Washington. Thank you.
    Mr. Lynch. I learn something about my witnesses even as I 
am sitting here, but you see why we are very proud that Kerry 
is a member of our honors committee. Our next witness is 
Jonathan Spector. Some of you had the opportunity to hear last 
night's Nancy Hanks' lecturer Daniel Pink, and his talk about 
creativity as the fuel of the 21st century. Jonathan introduced 
that and talked about that and the conference board and its 
role in that particular discussion.
    He is the CEO of the conference board, the global research 
and business membership group which publishes a consumer 
confidence index and the leading economic indicators report, 
and annually convenes 2000 business executives around the 
world. Before assuming that position, he was vice dean of the 
Wharton School of Business at the University of Pennsylvania. I 
would love to have him present findings of study ready to 
innovate which explores the effect on the United States 
workforce readiness in enabling innovation and creativity and 
entrepreneurship, when arts instruction is de-emphasized today 
in education on job training.
    Mr. Spector. Thank you, Mr. Dicks, Mr. Tiahrt, members of 
the Subcommittee, thank you for having us here today. The 
conference board is a not for profit, and non partisan 
organization. We don't advocate for policy or legislation. What 
we do do is conduct research on behalf of our members who 
comprise most of the largest companies in the United States and 
around the world. I have submitted written testimony on this 
research.
    What I would like now is to briefly summarize some of that. 
All of our research is really through the lens of what we call 
workforce readiness; does the United States have and are we 
building a workforce that has the skills and capabilities to 
support American companies successfully today and in the 
future. The answer, unfortunately, is not in every area, and I 
think this is one we will talk about today.
    Just some very simple points on the results of our 
research. We survey CEOs every year and ask them what their 
toughest challenges are, they believe that stimulating 
creativity, innovation and entrepreneurship is one of the top 
10 challenges, this is reinforcing from a business perspective 
some of the things you are hearing from the other witnesses 
today. We just did a major study called ``Are They Really Ready 
to Work?'' which looks at the readiness of our workforce.
    I will read one sentence from that report, creativity and 
innovation--this is from hundreds of companies that were 
surveyed--creativity and innovation and the applied skills that 
support innovation, like critical thinking, communications and 
problem solving were considered more important than the 
traditional skills of basic reading, writing and math. This is 
a counterintuitive result, considered more important than the 
basic skills of reading, writing and math. And these companies 
further stated that the importance of creativity and innovation 
would only increase in the future.
    Furthermore despite the importance of these areas of skill, 
employers found substantial deficiencies in the workforce from 
high school graduates, graduates from 2-year college and 
graduates of 4-year colleges. We recently collaborated with the 
Americans for the Arts and with the American Association of 
School Administrators to survey employers, but also educators, 
and the results, again, were very consistent. Almost every 
company and every superintendent that we talked to believed 
that creativity is becoming more important in the workplace. 
Seventy-two percent of the employers say that creativity is a 
primary concern when they are recruiting people like BCG did 
when they recruited John Legend.
    Eighty-five percent of those companies say that they can't 
find enough people with creativity and innovative skills that 
they need, so there is a very serious shortage. Despite this, 
we find that perhaps not enough steps are being taken in the 
education arena and in the corporate arena. Curriculum to 
foster creativity is offered by most high schools we found, but 
it is not a required part of the curriculum in more than half 
of the high schools.
    Similarly training programs for creativity and innovation 
are offered by most corporations, but 90 percent of them are 
not required, they are optional.
    And finally, our research shows arts is one of the most 
powerful indicators of creativity and both educators in the 
business community believe that.
    Since I am the last thing standing between you and 
testimony from Robert Redford, let me be brief and just reflect 
on my own personal experience as a CEO of several institutions, 
as an academic at the Wharton School and now a CEO of the 
conference board. I think about who are the people that I want 
to work on the most important priorities or to run the 
organizations that I run? In very simple terms, I want people 
who can see. And I mean that in the most broadest of 
definitions; people who can appreciate and recognize patterns; 
people who can communicate and people like those who preceded 
me who can command an audience, people who can be part of a 
team to accomplish a larger goal. These are the sorts of things 
that business leaders need and want to be competitive and to 
succeed in our businesses. It is my personal belief that arts, 
arts education, participation in the arts is something that 
really fosters this in our workforce and I think we need more 
of it.
    [The statement of Jonathan Spector follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Dicks. Well, thank you very much, you bring an 
important perspective from the business community and your 
academic background, we thank you for being here today.
    Mr. Lynch. Thanks, Jonathan. Proof positive that todays 
business leaders in the arts community share a unifying theme 
in that the arts drive creativity and innovation.
    Finally our next witness hails from the world of film but 
has been a champion of arts and culture in all art forms for 
many years, and a friend to scores of artists seeking an avenue 
for their own expression and a friend to Americans for the 
Arts, it is an honor and pleasure to ask Robert Redford to come 
and join me here.
    Robert Redford, actually Congressman Shays went through a 
lot of the credits ahead of time so I won't go into that. 
Robert Redford, as an academy award winning director, actor, 
producer, environmentalist and activist. A long time advocate 
for the arts, he founded the Sundance Film Festival and 
Sundance itself, and is the co-chair of our Americans For the 
Arts National Arts Policy Roundtable and assembly of leaders in 
philanthropy, business like Jonathan Spector, government and 
the arts. I would love to have him tell his story to you.
    Mr. Redford. Thanks, Bob, well let me start off by saying I 
am very happy to have redeemed myself with Congressman Shays, 
between Barbara and Glenn Close, but it is kind of curious that 
he didn't mention my films with Jane Fonda.
    Well, first thing I want to say because it is important, I 
want to be able to say what an honor it is to be with my 
colleagues, John and Kerry, they have made contributions, and I 
think their presence here speaks very well for why we are all 
here. And if I touch on points already stated by anybody, you 
will forgive that, but it is because it is so important that 
we're here and the cause we're here for, we are pretty united 
on that front. But thank you for welcoming us here today and I 
appreciate the chance to communicate with you directly about 
the value of public investment in the arts.
    There have been--as Bob I guess he didn't say it, but there 
has been some discussions with the Americans for the Arts, for 
some time now out at Sundance, we have a joint interest in 
telling the real story of the role of arts in the new century, 
and of course storytelling is, as we all know, a pretty great 
and honored art in itself, time honored art in itself and one I 
am personally pretty familiar with, but these discussions with 
Americans for the Arts led to a gathering at Sundance in 2006. 
And what was convened out of that was an organization called 
the National Arts Policy Roundtable. We held that at Sundance 
at the village. And by the way, just for some of you folks who 
might not be aware of it, there is sometimes confusion about 
where Sundance is. A lot of people think it is Park City, it is 
not. Park City, we are about 40 miles away higher up in the 
mountains in a more secluded area. Park City is the 
infrastructure that serves us well for 10 days in January. So 
we kind of rent that space, but that is it, it's not Sundance, 
not to demean Park City.
    We convene this thing and the endeavor was marked by a 
pretty interesting composition of participants, there was a 
coalition; there was businessmen, there were corporations, 
foundations, lieutenant governors, chief economists, CEOs from 
Silicon Valley, in addition to the Americans for the Arts. And 
the conference was founded on the premise that arts are 
critical to all aspects of our society.
    So those gatherings have been not only exciting but really, 
really valuable and they are discussed more in detail with the 
written testimony that I have submitted to you.
    And I hope that some of you will be able to join us in our 
next conference, which will be a regular, annual thing 
September 26th to 28th, you are all welcome.
    So developing the creative instinct as the folks here have 
said really, really pays off. It can result in a powerful 
economic driver in communities both large and small clear 
across the country. And the best thing I can offer is a 
personal example of the benefits of that, so if you will 
forgive the self-serving tone here, but I would like to talk 
about taking Sundance, for example, which I started with a 
grant, maybe some folks don't know this. But when I had the 
idea, it was a new idea, and new ideas unfortunately nobody 
votes for, so you have to get out there and crank it up 
yourself.
    I felt that because of my reputation at that time, which 
was as an actor, and a lot of people didn't trust actors when 
they tried to do something new. When I was doing environmental 
work in the 70s, I would get hammered pretty good, what does he 
know, he is an actor. And then Reagan got elected and took that 
off the table, that helped. But still in all, I was still 
concerned about my credibility in trying something new, so I 
went to the NEA and I wanted the imprimatur of the NEA's 
credibility to start this new idea. So that happened, and I 
think it is important for you all to know that that was the 
seed that began what eventually became Sundance.
    So I started that in 1980, it was a shoestring to be sure, 
but that was a start, and I think then it has grown. I think 
some of you may recognize it has grown pretty dramatically over 
time and served as an inspiration for creating other Sundance 
entities like the festival, not nonprofit festival. Sundance 
Institute is nonprofit. There is a line between what the 
nonprofit does which is the seed thematically of everything we 
do. I would say you could say our mission is contained in the 
nonprofit. And then at a certain point when the nonprofit 
reaches a certain critical mass or break point, you can move 
into the profit zone and that is where the trouble starts.
    But at any rate, the other Sundance entities, the festival 
in the 1980s, and the catalogue and the Sundance Channel, which 
I am happy to say Kerry has just given us a piece of her 
valuable time. And the newly formed Sundance cinemas, which has 
opened in Madison, Wisconsin and San Francisco.
    In addition, the lab that started just for film has 
expanded to include theater and music and documentaries, and 
now producers. So I think that this, in turn, has created an 
economic impact in multiple sectors around the country. But I 
would also say cultural as well.
    For example, cultural example is when we structured--when 
we went international with the festival, it was about 1991 or 
'2, once that platform was established, all of things when they 
started there was some time when we didn't know it was going to 
make it. Once you knew you were solid enough to continue and 
grow, we went international with the festival at the same time 
that global barriers were dissolving and the world was becoming 
more one. We could take advantage of that by bringing 
filmmakers and artists all over the world to Sundance and we 
could go to their area.
    So that in a sense, I guess you could say rather than film 
just being used as straight out entertainment, we formed 
something that provided more like a cultural exchange program, 
something I am pretty proud of.
    The Sundance Festival, which is a 10-day event, generates 
between 60 and $64 million annually in economic activity from 
the State of Utah, that is fairly significant. When you add the 
global impact of the filmmakers who are nurtured at our film 
labs, you are around programs that are launched at our 
festivals, then the economics become fairly significant. And 
actually, that is really part of the story, because the 
Sundance entities employ 900 full-time and another 400 seasonal 
employees a year.
    One of the most inspiring things for me, however, is the 
consistent pool of 1,500 volunteers who come from all over the 
country and the world to help run our festival, in exchange for 
what we think are pretty good cultural experiences that it 
offers them. So obviously, I am here because, like everybody 
else, I feel the arts are a very, very solid investment, I 
think cultural experiences enrich the performance of workers in 
every sector.
    And in our competitiveness and global economy will thrive 
in ways not even possible without creativity and innovation in 
forming how we are going to be coming to the table. I have 
never felt more strongly that education in the arts is an 
essential goal for the 21st century. And I think it should also 
start before kindergarten and should go all the way through 
life. If we could establish that as a reality, then in an 
American educational program, then I think that we can 
effectively foster and develop skills necessary for creative 
innovation.
    On a personal note, as a kid growing up, my personal road 
into this as a kid growing up, I grew up in Los Angeles in a 
lower working class community, not much available to us, 
education system was kind of crippled because a lot of valuable 
teachers were off to the war which was still going on, and I 
was classified as a problematic child. I was always out the 
window with my attention, I always wanted to be in sports, I 
wanted to be physically moving, nothing excited me in class, I 
was not inspired, I was classified as problematic or dumb, 
which was kind of hard to live with.
    But something happened that was a major turning point for 
me, in the third grade, I would draw out of boredom, I would 
draw while the teacher was talking. She got insulted and she 
wanted to punish me. She said I guess you have something more 
interesting to do there, maybe you would like to show the 
class. I was embarrassed and humiliated and I went up and I 
showed what I was doing. And something happened that was 
extraordinary, she, I think, recognized that this was a valid 
expression, that art was a valid expression for me.
    And rather than put me down, which could have ended 
something right there, she encouraged me. She said well, you 
are telling a story then? I said, yeah, I guess that is right. 
And she said, why don't you do this every week day at this time 
and you'll come up and you'll draw us a story. And so I did, 
and suddenly something shifted where I didn't feel quite so bad 
after all. And I don't know what would have happened had that 
teacher not recognized that through this educational system. I 
don't know where my life might have gone. I don't know what--
whatever has happened to me now, I don't know where it would 
have gone.
    Sometimes I wonder where I am right now in the sense that 
just when you think you are feeling good about yourself, I was 
having dinner not long ago in a restaurant and this big table 
of folks was sitting there and they were looking at me and 
winking and smiling and nudging each other, and I thought, 
well, what is going on there?
    Finally this guy gets up and he comes over to my table and 
he said, hey, I am really, really sorry to bother you, he said, 
I have to tell you, I love everything you have done. I said, 
well, thank you. I mean the whole time, all the work you have 
done. It is just--I am just a fan and I am sorry to interrupt 
you but I had to come tell you that.
    I said, thank you. He said, really, I think what we enjoy 
most of all is your salad dressing. So I think those humbling 
experiences are important for any artist.
    But how all this is going to play out is something that can 
effect any sector. Every new innovation, whether its in the 
field of science or engineering or medicine, music is going to 
be driven by this creative process. And with a new 
administration is always coming--coming new opportunities. It 
is my hope and this word comes to why I am here directly, it is 
my hope that you would take an even bigger leap for the arts.
    Bob has made it very clear, others here have made it clear, 
what we have is appreciated, but there is so much more that can 
be done. When you see the example of people like John, myself, 
Kerry and what might have gone a different direction and why 
we're here today, it is important, and there are many, many 
more like us out there potentially, and more funding will bring 
more forward and it is going to be a greater boon for our 
society.
    So I think the other thing that has been very painful for 
me over the years to watch how art was treated when I would see 
art subsidized in other countries. I would say, why don't we 
have a subsidy considering the size and strength of our 
country. Why is art always pushed to the side? Why is it always 
relegated to the back of the heap, either ignored, or in more 
dire political circumstances, trying to be erased as though it 
was dangerous? I don't equate a painting in the same way a 
drive-by shooting occurs, so I say what harm, what harm? It is 
a freedom of expression. Isn't that one of our democratic 
principles we are supposed to be proud of?
    So it is a big deal for me. I am here to say that as much 
as we appreciate the 144 that is there and what increase could 
come. In my opinion, we need $500 million. And $500 million 
would just create all kinds of benefits that it makes 
inspiration for. First of all, when you stop and think, there 
is nothing out there that didn't start without a creative idea. 
When you think that a creative idea, as we have seen recently 
in Silicon Valley in the last 20 years, a creative idea that is 
brand new that can sponsor an innovation, that leads to a new 
industry, that leads to new jobs, that is pretty great 
economics. So I feel pretty strongly about that.
    It is my hope that in addition to the greater increase for 
the NEA that there could be a separate major arts educational 
initiative in the schools, because it is in those schools, that 
is the structural avenue that people can come through, and 
therefore the funding has to go there.
    So to get to the point that we can offer at Sundance to 
help do this, I would ask that you consider the partnerships of 
the Americas for the Arts, the NEA, and the National Arts 
Policy Roundtable that was started at Sundance in 2006. That 
together we could, that we could hold hearings or help you hold 
hearings around the country. This partnership can help organize 
these hearings for you, and conduct the kind of research that 
you all may need to help make the case that we're here to make 
ourselves. With having said that, I am very pleased to be here, 
I am honored to be here and thank you for your attention.
    [The statement of Robert Redford follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Dicks. First of all, thank you very much for taking the 
time to be here, I remember that in 2003 you were here for the 
Nancy Hanks lecture and I had a chance to have dinner with you 
afterwards, and it was a highlight of my career.
    Mr. Moran. That has been a full career.
    Mr. Dicks. Very full career. And just like we were watching 
the Nationals the other night and Zimmerman comes up in the 
bottom of the 9th and hits the home run to win the game, the 
first game at the new stadium, you had to think of Roy Hobbs in 
The Natural. You have been The Natural for the country, 
frankly. I really do appreciate your leadership on the 
environment, for the arts, being involved in the arts policy, 
activities of the alliance. And I think you are absolutely 
right, this is well beyond the National Endowment for the Arts. 
This is absolutely essential to every school in the country, 
the fact that we are working away from arts education when we 
should be embracing it because of the fact that it does help 
students in their other subjects.
    Mr. Redford. Can I add one more thing to that?
    Mr. Dicks. I think it is absolutely essential that we do 
this.
    Mr. Redford. Thank you, Chairman. Can I add one more----
    Mr. Dicks. Sure.
    Mr. Redford. It might be of interest to the mayors. The 
mayor from Hawaii was mentioning the role of mayors and you 
were acknowledging that. Around the--at the same time the 
Americas for the Arts in Sundance, we had a mayors' conference 
for global warming, and the idea was that since nothing was 
coming from the top, that it would come from the bottom, 
grassroots would be more effective in contrast to what we were 
getting and also more democratic in terms of what we are 
getting so we had that. And these mayors came and out of this 
conference about global warming, you can compartmentalize down 
into several aspects, from water, air and so forth.
    The Coalition of Mayors was formed in Texas to find some 
very, very dangerous polluting, coal-fired powered plants. 
Well, what we did at Sundance we said, you did that, that is 
what you mayors have done. Now what we are going to do is bring 
art to the table, and so we are going to film your process. 
That film process led to a project called Fighting Goliath, 
another one called The Unforeseen, which is a good example of 
how art and other aspects of our society can connect, whether 
it is politics or science or what have you. And that art can 
really tell the story that you all are working to get told, 
that is another valuable asset.
    Mr. Dicks. I agree with that. Mr. Tiahrt.
    Mr. Tiahrt. Thank you, Mr. Chairman. I just wanted to tell 
Mr. Lynch he did a great job of organizing a broad appeal for 
funding for the arts: Mayor Hannemann with his 8-point plan 
including an extension of the arts; and John Legend, talking 
about how arts benefit the corporate world as they did at BCG; 
Kerry Washington, a living breathing example about how funding 
for the arts can be a success story; and of course, John 
Spector, using facts to try to back up the argument, I thought 
did an excellent job presenting; and Mr. Redford who makes a 
strong point that the arts are very influential on our culture. 
And they bring something beneficial to our culture 
economically, as well as expanding it in the arts.
    You know, after The Electric Horseman, I went out and 
bought a brand new pair of boots, cowboy boots, wore them out. 
It does have a great impact on our society when you remember 
that. I think what you brought out, Mr. Lynch, about how cities 
and States step up to the plate and contribute billions to 
expanding the arts is a very important point, that we can 
leverage those things. And through whether we can get $144-plus 
million in our budget, whatever the amount is, hopefully more, 
I think we can leverage that very well, and you brought up a 
very good point. So thank you for bringing such fine witnesses 
and making such a strong case. Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Moran.
    Mr. Moran. Thank you, Norm. I share those sentiments, Mr. 
Lynch. And I appreciate the fact that we have the highest 
concentration of arts in my district. It wasn't always that 
way. When I was mayor of Alexandria, we had this massive 
Torpedo Factory that was being unused, and we converted it to 
an art center. And people said we would never be able to fill 
it because it is so large, the opposite has been true. What 
people couldn't imagine is the economic boom it has meant to 
all of Northern Virginia. We are very proud of that. I know all 
of us have examples of where that has been the case.
    It is especially nice, Mr. Chairman, to see people who have 
the ability to attract us and to entertain us, but also to show 
the depth of their intellect. Mr. Legend, Mr. Washington, that 
was certainly the case. It is compelling testimony that you 
were willing to share with us, obviously you as well, Mr. 
Redford. It is obvious that all three of you wrote your own 
testimony. I was a little disappointed that you didn't share 
all of your prepared statement because in the prepared 
statement, Norm, Mr. Redford described how he got carried away 
with sketching and would climb under the table and sketch 
people's feet, which was a dimension of your personality that I 
never really fully appreciated, but that is a neat story.
    There are teachers when you can find a teacher that 
understands what turns someone on and defines who they are and 
can be, that is neat. And I hope that she realize who it was 
that she got started in an artistic career, it is a great 
story.
    Norm, thank you for giving us the opportunity to have this 
hearing, and I trust it will be a major contributing factor to 
your ultimate objective, which is to give the arts the kind of 
priority that it deserves in this country.
    Just one other thing, and I don't want to speak too much, 
but I have been sitting back listening, and one of the things 
that has occurred to me, when you think about 9/11, we have 
such a transformative, adverse impact upon our society and our 
economy and so on. I read a couple of books about when they 
look into who those people were who carried out the attack on 
9/11, and they make up the composition on people who become 
terrorists and threaten our way of life. Turns out that almost 
invariably, they are well-educated, but they have been educated 
in engineering and mathematics, in kind of the hard sciences, 
very intelligent people.
    When they looked at the curricula that they have studied, 
they found almost, without exception, that it was devoid of 
courses in philosophy and comparative religion and the 
literature, particularly of the western world, but it would 
apply to the eastern world as well, and the humanities in 
general, but particularly in the arts. And those who have 
reflected on this realize that it is the arts that give us the 
ability to empathize with the other, that is one of the driving 
purposes of the arts. We don't go see a movie or read a book to 
necessarily see ourselves reflected, but to learn about the 
world around us. And it is that dimension that is so often 
lacking, and you wonder what we could achieve if we could 
simply make the arts available in a far more accessible way 
throughout the world.
    I just came back from Afghanistan, Pakistan and Iraq, and, 
you know, it is not just the creation of civil society, but the 
civility of society, the ability to refine, reflect and 
empathize with others. And so we appreciate the fact that you 
get it and you want the rest of this country to get it and we 
thank you very much.
    Mr. Dicks. Mr. Chandler.
    Mr. Chandler. Thank you, Mr. Chairman. I consider myself to 
be extremely blessed in many ways in my life, but one of the 
greatest blessings that I have been afforded was to have a 
mother who is an artist and a very fine one, in my own opinion. 
It may be a bit biased, but I think she is. And throughout my 
childhood, she inoculated me with the notion that creativity 
was utterly important, that it had to be promoted and 
encouraged in every way possible.
    Now, her efforts with me didn't do much good, but at least 
she got me to understand and appreciate the importance of 
creativity in others. And the case that you are making, the 
case that Mr. Redford is making and so forth, about the 
importance of creativity to our economic advancement, I just 
think it is absolutely on target, absolutely right, 
particularly in the economy that we are in today. We need to 
encourage it, we need to invest in it as much as we can. It 
does create jobs.
    In fact, thank you, Mr. Redford for employing my own cousin 
at your art shack at Sundance. I can tell you firsthand it 
creates jobs.
    Mr. Chairman, you can put me down as one vote absolutely 
for the $176 million figure and I would like to work toward the 
$500 million.
    Mr. Dicks. We appreciate your enthusiasm. Mr. Pastor.
    Mr. Pastor. Thank you, Mr. Chairman and I would also like 
to thank all the witnesses for their testimony this morning and 
into this afternoon. I would like to thank the artists who were 
here for the talent I have shared with them, either on the 
movie screen or, in some cases, a concert and the CDs, and--but 
I would like to thank them for continuing to be an advocate in 
this country so that this country will have the juices out 
there, the ability out there to have the dreams that young 
people have that some day they will be realized by having art 
in the schools and available to them in museums and in our 
communities.
    So I thank them for being advocates for that venture, and 
about the only disappointment I do have is the gentleman at the 
restaurant. I was sorry we didn't have the salad dressing.
    Mr. Dicks. Thank you all for coming, and I just want to 
wrap this up. Robert, thank you again for the great job you did 
in the arts advocacy, all your good work, thank you for the 
witnesses. We will do our very best. We are challenged. The 
President cut our budget by a billion dollars from last year's 
level, the entire budget, and we are faced with the reality 
that since 2001, the Interior Department's been cut 16 percent, 
EPA has been cut 29 percent, the Forest Service is cut 35 
percent. So we are in a very difficult position but we will 
just do the best we can. The Seattle Seahawks said that you 
have to play the hand you are dealt. Well, this year we got 
dealt a bad hand and this year we will do the best we can with 
it and especially for the arts.


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, March 11, 2008.

       NATIONAL ENDOWMENT FOR THE HUMANITIES 2009 BUDGET REQUEST

                               WITNESSES

BRUCE COLE, CHAIRMAN, NATIONAL ENDOWMENT FOR THE HUMANITIES
JESSIE GERSON-NEIDER, TEACHER, PROSPECT HILL MIDDLE SCHOOL, SOMERVILLE, 
    MASSACHUSETTS
STEVEN WHEATLEY, VICE PRESIDENT, AMERICAN COUNCIL OF LEARNED SOCIETIES, 
    NEW YORK, NEW YORK

                   Opening Remarks of Chairman Dicks

    Mr. Dicks. The Committee will come to order, and Bruce, I 
want to welcome you back to what I believe is your seventh 
appearance before our Subcommittee presenting the budget for 
the National Endowment for the Humanities. If I am correct, 
later this spring you will pass the milestone of being the 
longest serving director of the Endowment. This is a remarkable 
accomplishment, not just because of your longevity in the job 
but also because of your contribution to preserving and 
advancing the cultural heritage of our country. We appreciate 
your service to the country. Thank you.
    Speaking for myself, it is no secret that I believe that 
this country's investment in the humanities and the arts has 
been woefully underfunded during the last dozen years. Your 
current appropriation request of $144 million, which is 
essentially a freeze at the 2008 level, is still $33 million 
below the level provided in fiscal year 1994. Factoring in 
inflation, our support for the NEH this year is 40 percent 
below the level 14 years ago. In my opinion, those lost dollars 
are lost opportunities for investment in programs which enrich 
our culture and strengthen our democracy.
    I will also observe, however, that I believe NEH has done a 
very good job with this amount of resources which have been 
provided. Your We the People program has tackled head on what 
you have described as the country's historic amnesia. The new 
Picturing America program within We the People is an exciting 
new addition which we understand will soon be in schools and 
libraries throughout the country. I appreciate your coming up 
and personally showing me some of the pictures done by some of 
our best artists. In fact, I am going to send my set out to my 
grade school in Bremerton, Washington, Naval Avenue Grade 
School, because I was so impressed with them. My mother went 
there too before I did. Naval Avenue is the name of it. You 
would not expect that in Bremerton, Washington, would you?
    Later this week the House will debate a budget resolution 
for 2009, which we hope will allow the Subcommittee to expand 
its support for the arts and humanities as well as for other 
programs under our jurisdiction. I, for one, hope we can at 
least get to $160 million for the fiscal year 2009, which was 
the level originally approved by this Subcommittee last year 
for 2008, and I am hopeful the President will be more flexible 
in negotiating these numbers with the Congress this year than 
last. As chairman of the NEH, maybe you can remind him to worry 
a bit more about history during his last year in office.
    Bruce, we look forward to your testimony and to working 
with you on this year's budget, and I do mean it, I think you 
have been one of the finest, if not the finest, chairman that 
we have had and certainly the most energetic and hardworking in 
expanding this program all over the country. I think it is a 
great tribute to you and to your service.
    Mr. Dicks. And now I will turn to Mrs. Emerson to present 
her statement.

                    Opening Remarks of Mrs. Emerson

    Ms. Emerson. Thank you, Mr. Chairman.
    Dr. Cole, it is so nice to have you here today. Thank you 
so much, and we are grateful that you are here to present the 
fiscal year 2009 budget request. Let me also say that I am 
going to submit my colleague Todd Tiahrt's remarks for the 
record because I think that it would be a little weird for me 
to talk about the role that you have played in his home State 
of Kansas.
    Certainly I want to commend you for all the work you all 
have done in Missouri. It certainly has made a difference in 
the lives of so very many people, all of those who your 
programs touch, and I continue to be a big fan of the National 
Endowment for the Humanities and appreciate your fine work and 
that of your staff, and the interest that you all take in 
trying to educate not only our young people but people all 
across the country.
    So with that, I will yield back to you, Mr. Chairman.
    [The Opening Remarks of Ranking Member Todd Tiahrt follow:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Dicks. Bruce, you may proceed as you wish. I understand 
you may want to do a short video. We are at your pleasure, and 
we will put your entire statement in the record. You can 
summarize or read it or do whatever you want.

             Opening Statement of Bruce Cole, NEH Chairman

    Mr. Cole. Thank you very much. Thank you, Mr. Chairman, and 
thank you, Mrs. Emerson. I am delighted to be here and I am 
honored to appear before you to speak on behalf of the budget 
request for the National Endowment for the Humanities for the 
seventh time. I hope I have not worn out my welcome.
    Mr. Dicks. No, you have not.
    Mr. Cole. I ask that my prepared remarks be entered into 
the record.
    Mr. Dicks. Without objection.
    Mr. Cole. Thank you. The Administration and the NEH are 
requesting just over $144 million for fiscal year 2009. This 
includes $20 million for the Endowment's ongoing We the People 
program. I appreciate the Committee's strong support for the 
Endowment, We the People, and our partners in the State 
humanities councils.
    Last year at this hearing I recounted the many ways in 
which We the People fulfills the Endowment's mandate to bring 
the humanities to citizens all across our Nation. Today I want 
to discuss the newest element of We the People, an initiative 
called Picturing America. On February 26, I joined President 
Bush and the First Lady at the White House for the national 
launch of this initiative, which supports We the People's 
mission in a unique and exciting way. I wish to thank the 
Subcommittee for its support for Picturing America. As you 
know, last year's report language specified that, ``Expansion 
of the new Picturing America program into a nationwide effort 
should be given the highest priority.'' To give the Committee 
an overview of Picturing America, I would like to play a short 
video produced by the Endowment's friends at the History 
Channel.
    [Video.]
    Mr. Cole. Picturing America strengthens our democracy by 
using great American art to ensure that our common heritage and 
ideals are known and they are studied and they are remembered, 
and of course works of art are more than mere ornaments for the 
elite. They are primary documents of a civilization. They tell 
us where we have come from, what we have endured and where we 
are headed. With this in mind, the NEH has chosen notable works 
of American art that will bring our history and principles 
alive for students and citizens of all ages. Picturing America 
includes beloved works such as Washington Crossing the 
Delaware.
    [Posters.]
    Andrew is going to do the Vanna White thing there. We get 
an idea of what they look like. They are very, very high 
quality, fidelity reproductions. Norman Rockwell's Freedom of 
Speech and Frank Lloyd Wright's Fallingwater.
    Through Picturing America, the NEH is distributing 40 large 
high-quality reproductions of these masterpieces to tens of 
thousands of schools and public libraries including private, 
parochial, and charter schools and home school associations. We 
already have tens of thousands of applications. These schools 
and libraries get to keep these reproductions permanently, 
ensuring that the program's impact will be felt for years.
    Mr. Dicks. We are going to go over and vote and come right 
back. I am sorry about this.
    [Recess.]

              Continuation of Mr. Cole's Opening Statement

    Mr. Dicks. Bruce, why don't you go ahead and finish your 
statement?
    Mr. Cole. Okay. Welcome back. I forgot to say when Andrew 
was showing the reproductions that in this age of global 
outsourcing, those are 100 percent made in America.
    Mr. Dicks. Wonderful. We appreciate that.
    Mr. Cole. So these reproductions, 40 of them are being 
distributed to tens of thousands of schools and public 
libraries including public, private, parochial, and charter 
schools and home school associations. They get to keep these, 
and this will ensure that this program's impact will be felt 
for decades. Accompanying the reproductions is an in-depth 
teacher's resource book which helps educators use the images to 
teach history, literature, and other subjects. The Endowment is 
also pleased to offer a dynamic website located at 
PicturingAmerica.neh.gov. This site provides access to all the 
images, scores of lesson plans, and detailed information on the 
art and artists.
    The scope of this program is unprecedented for the NEH. 
Through Picturing America, we are extending the Endowment's 
reach exponentially and broadening public awareness of the 
humanities, especially in rural and underserved areas where 
students may never have had a chance to visit a museum. In 
fact, almost half of the pilot phase recipients were in towns 
with fewer than 25,000 people, places like Aberdeen, 
Washington, and Mountain View, Missouri, and I am proud to say 
that the Naval Avenue Elementary School in Bremerton has 
applied for one of these sets.
    Mr. Dicks. Wonderful.
    Mr. Cole. So Picturing America can reach every student in 
the United States for less than the cost of a first-class 
postage stamp per student. Two months ago we began accepting 
applications for Picturing America awards for fall 2008. Since 
then Picturing America has received more applications than the 
NEH typically receives in four years for all its grant 
programs. In fact, we are averaging over 300 applications a 
day.
    Picturing America enjoys support from a wide range of 
federal agencies: Institute of Museum and Library Services, the 
Office of Head Start, and the National Park Service. So we are 
pleased to be able to partner with our other federal agencies. 
The Endowment has also forged other partnerships with a number 
of non-federal supporters: the History Channel, American 
Library Association as well as a number of private 
philanthropists.
    We are also excited about the role the State humanities 
councils are going to play. The councils have been integral to 
the success of We the People and we look forward to their 
contributions to Picturing America.
    To give the Committee an educator's perspective on this 
program, I now wish to introduce one of the stars of the video 
you just saw, Ms. Jessie Gerson-Neider, who is to my left, who 
teaches English at Prospect Hill Academy in Somerville, 
Massachusetts.
    Mr. Dicks. You are very welcome. We are glad to have you 
here.

                 Statement of Ms. Jessie Gerson-Neider

    Ms. Gerson-Neider. Well, thank you for having me here and I 
am very excited and honored to have the opportunity to speak to 
you about the work that my students and I are doing using 
Picturing America in our classrooms.
    I teach seventh grade English and history at Prospect Hill 
Academy, which is a K-12 Title I charter school in Somerville, 
Massachusetts, and the students who we serve are largely first- 
and second-generation Americans. Their families come from all 
over the world: Haiti, the Dominican Republic, Puerto Rico, 
Peru, Colombia, to name just a few. Our focus is on closing the 
achievement gap and preparing our students for college.
    About a week ago I told my students that I would be coming 
here to speak with you, and one of my students, Helen, was 
quick to inform me that they should be the ones taking these 
matters in hand. She said, and I quote, ``No offense, Miss G, 
but we are way cuter and we always know what to say.'' And she 
is, as usual, correct. So what I would like to do is accept 
Helen's considerable wisdom and share several snapshots of my 
students doing what they do best, which is thinking and 
learning and questioning and making sense of the world around 
them, and I hope that through this I can demonstrate why 
Picturing America is such a unique and valuable resource.
    One wonderful thing about teaching history and working with 
first- and second-generation Americans is that they have a 
pretty unique perspective on what it means to be an American, 
that it is less an automatic and homogenous birthright and 
instead is more of a process and even a privilege that comes 
with both rights and responsibilities and often at considerable 
cost to them and their families.
    The art featured in Picturing America is remarkable in part 
because it allows students to contextualize this particular 
experience within the broader narrative of what it means to be 
an American. In one exercise, my students selected the 10 
images they found the most powerful in the series and they laid 
them out in chronological order and then they did what we call 
a gallery walk with the purpose of making connections between 
those images that they had selected and what it means to be an 
American. In the follow-up discussion, one of my students, 
whose mother is a recent immigrant from Haiti, was particularly 
struck by a trio of pictures: the 1846 painting, County 
Election, by George Caleb Bingham, and the iconic 1965 
photograph of the march for voting rights from Selma to 
Montgomery, and finally the 1996 sculpture of a crooked 
ascending ladder titled the Ladder for Booker T. Washington. 
She kept coming back to these three images, pointing out 
details she was noticing and differences and similarities 
between them, and finally with the help of her classmates she 
articulated her conclusion. She said, ``For some people like in 
the first picture, the County Election, being American is easy, 
but for lots and lots of people like in the other pictures, 
being American is hard and maybe that makes being American even 
more special because the things that you have to work hard for 
matter the most.'' This is sophisticated analysis coming from a 
13-year-old but sophisticated analysis is exactly what 
Picturing America is so good at drawing out of students.
    As a teacher, I know the best kinds of learning draw on 
students' own experiences, helps them create connections to 
those experiences and then pushes them even further into new 
and uncharted territory and gives them a sense of the scale and 
scope of this country and its history. One of my students, who 
has not traveled widely outside of our immediate urban area, 
wrote a short response that she shared with her classmates 
regarding just how struck she was by one of the 19th century 
landscapes. She said that it was not like anything she had ever 
seen before but that somehow the painter was showing her just 
how big the country really is. ``There are parts of this 
country that do not look anything like Boston,'' she said, 
``and I want to see them.''
    Because it is visual and therefore forces students to pay 
attention to details and to make challenging inferences and 
connections, Picturing America is uniquely well suited in ways 
that textbooks, and even teachers unfortunately, are not to 
helping students learn the skills of critical thinking and 
reasoning. As one of my students put it, ``Teachers are always 
talking. They always want us to learn with our ears. But 
sometimes I want to learn my way with my eyes.'' And because 
Picturing America is so rooted in the fundamental question of 
what it means to be American, it gives students a vital and 
important framework in which to use these powers of analysis. 
This is an invaluable resource in our classrooms, and while my 
students, much to their chagrin, could not be here today, I 
hope that through their words and experiences that much has 
been made evident.
    So I would like to thank you again for the opportunity to 
speak here and I would be very happy to answer any questions 
you might have.
    Mr. Dicks. Thank you very much.

                     DIGITAL HUMANITIES PROGRAMMING

    Mr. Cole. Thank you, Jessie, for helping us see how 
Picturing America can be used in the classroom.
    The Endowment is very excited about the potential impact of 
Picturing America. Our mission under We the People and our 
mandate as a federal agency is to democratize the humanities 
and bring them to as many citizens as possible. Picturing 
America helps us fulfill both these goals.
    Another way the Endowment is democratizing the humanities 
is through our work in the digital humanities. The humanities 
are a dynamic enterprise and the NEH has a duty to stay abreast 
of changes in our field and provide leadership where it can be 
most effective. We are doing exactly that through our Digital 
Humanities Initiative, or DHI, which we launched in 2006. The 
international nature of the digital humanities is particularly 
important. Digital technology allows nations to collaborate 
more closely in the humanities so the Endowment is actively 
pursuing joint efforts with our international peers in order to 
fulfill the charge in our founding legislation to foster 
international programs and exchanges.
    For example, we recently joined with Britain's Joint 
Information Systems Committee, or JISC, to award Transatlantic 
Digitization Collaboration Grants. These grants will help build 
a virtual bridge across the Atlantic through the support of 
digital projects that will unify American and British 
collections of artifacts, documents, manuscripts, and other 
cultural material. Last year the NEH entered into a similar 
partnership with the National Research Council of Italy, and we 
are working on other such collaborations with agencies in 
Japan, China, Germany and Mexico.
    I would now like to introduce Mr. Steven Wheatley, the vice 
president of the American Council of Learned Societies. Much of 
the Endowment's digital humanities work has been informed by a 
2006 ACLS report on this topic, so I am pleased that Mr. 
Wheatley has joined us to share his insight.

                    Statement of Mr. Steven Wheatley

    Mr. Wheatley. Thank you. Mr. Chairman and Mrs. Emerson, it 
is an honor to testify today. I want to thank the Committee and 
Chairman Cole for the opportunity to speak briefly about the 
digital humanities. Digital information technologies are 
transforming the economic, political, and cultural life of our 
Nation and indeed the world. The humanities are taking part in 
that transformation but need help to do more. The NEH under 
Chairman Cole has begun to provide support and leadership to 
address this challenge.
    As Chairman Cole mentioned, I represent the American 
Council of Learned Societies, a federation of 69 scholarly 
associations in the humanities and related social sciences. In 
each of the past five decades, our council has issued a report 
on how technologies can aid scholarship and teaching. Our 2006 
report titled ``Our Cultural Commonwealth: A Report on 
Cyberinfrastructure for the Humanities and Social Sciences,'' 
sought to provide decision makers in higher education, 
government, and private philanthropy a prospectus for making 
digital investments.
    Now, what will be the return on investment in the digital 
humanities? First, digital technologies dramatically increase 
access to original materials and to the means of understanding 
those materials. Massive digital collections of books, 
articles, images, and sound ease impediments of time and 
distance. The works of Confucius, Cervantes, Thomas Jefferson, 
Harriet Beecher Stowe, and Frederick Douglass are now accessed 
with a few mouse clicks. The University of Nebraska's Walt 
Whitman Archive, supported by the NEH, provides access to 
multiple varying editions of Whitman's work as well as to 
images of unpublished manuscripts. The student, teacher, or 
general reader is no longer restricted to the holdings of 
nearby libraries.
    Investments in the digital humanities are also yielding 
rich returns in the classroom. The Center for History and New 
Media at George Mason University, which received a challenge 
grant from the NEH, offers History Matters, an online U.S. 
history survey course for high schools and colleges around the 
world.
    The digital humanities require special investment because 
they cultivate more than mere information. Having masses of 
text, images and sound online is not enough. If digitized 
materials are to be broadly useful, they need to be accompanied 
by tools for navigating, selecting, and analyzing the 
information available, tools, that is, for turning information 
into knowledge. Humanities scholars must apply their critical 
expertise to the selection and presentation of materials and to 
the development of tools for their use such as search engines, 
online reference, and standards for classifying data.
    The Endowment's Digital Humanities Initiative, now 
established as the Office of Digital Humanities, seeks to make 
strategic investments to put that expert knowledge on line. I 
know that Chairman Cole and NEH program officers are thinking 
carefully about how their grant making fits into and enhances 
the developing cyberinfrastructure. The Endowment's selection 
criteria for digital projects focus not on technical innovation 
for its own sake but on how new efforts will add value to the 
sustainable work already in place. NEH investments by design 
leverage and complement investments from other sources.
    I very much hope that the Congress will provide the 
appropriations to continue this important work of assuring that 
the information age is also an age of knowledge. Thank you very 
much.

              Continuation of Mr. Cole's Opening Statement

    Mr. Cole. Thank you, Steve.
    As you can see, digital technology offers the NEH an 
unparalleled opportunity to fulfill our mandate to democratize 
the humanities, and we are pursuing that opportunity 
aggressively.
    This afternoon I have only scratched the surface of the 
Endowment's contribution to our Nation. What unites all our 
efforts from We the People and Picturing America to our support 
for the digital humanities and all other grant programs is our 
mission to bring the humanities to every American. Our agency's 
founding legislation declares that democracy demands wisdom and 
vision in its citizens. We take this charge seriously and we 
are proud of the NEH's continued role in cultivating the 
enlightened citizenship required for our national survival.
    Mr. Chairman and members of the Committee, thank you again 
for your continued support for the NEH, but before I relinquish 
the microphone, I want to invite you Committee members and your 
staff to a special event this Thursday evening from 5:00 to 
7:00 p.m. The co-chairmen of the Senate Cultural Caucus, 
Senators Kennedy and Coleman, are hosting a reception in the 
LBJ Room to celebrate the launch of Picturing America. I hope 
to see you there on Thursday night.
    I look forward to answering any questions you may have.
    [The statement of Bruce Cole follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Dicks. Let me ask Jessie a question. Tell us a little 
bit about how you use these pictures in your classroom. Did you 
do your own curriculum? Tell us a little bit about that.

              USING ``PICTURING AMERICA'' IN THE CLASSROOM

    Ms. Gerson-Neider. Sure. The librarian shown in the film is 
unbelievable. She is also a good friend of mine and she is the 
person who wrote the grant that got these resources for our 
school, and so she led a series of really focused workshops on 
ways that we could use those materials in our classroom, and as 
a result these are being used--I teach English and history. 
They are also being used in the art classrooms. They are also 
being used in our reading and research classroom, which is a 
literacy-building course that we have put in place to help kids 
with ESL reading issues. So what I am doing is based on 
information that I got from the user-friendly handbook that 
comes with the posters, but I would say that I have taken the 
information and I am probably at this point developing my own 
lesson plans from it, which I would imagine would be the 
ultimate goal since it really makes more flexible what you can 
do with them in different classrooms.
    Mr. Dicks. And obviously the reaction of the kids has been 
very positive.
    Ms. Gerson-Neider. Oh, they love it, and they have 
particular favorites. Dorothea Lange's photograph ``Migrant 
Mother and Children,'' any time we are doing any kind of 
writing project they want to use that picture hands down.
    Mr. Dicks. So how long have you had this?
    Ms. Gerson-Neider. I think that we had had the resources in 
the school since perhaps earlier in this school year we got 
them and it is amazing how quickly they have become pretty 
ubiquitous in the classrooms.

                    BUDGET FOR ``PICTURING AMERICA''

    Mr. Dicks. How much do we have in the budget to do this? I 
mean, what if everybody in the country, what if the whole world 
wants it? What are we going to do?
    Mr. Cole. The whole world, we have not counted on that. We 
figure on the basis of the pilot.
    We figure that we will probably get half the universe of 
American public libraries and schools of all types. That is 
about 70,000. This is the first implementation phase of the 
initiative. The deadline for this is April 15, and then we will 
run one more application competition.
    Mr. Dicks. Tax day.
    Mr. Cole. That is right.
    Mr. Dicks. We want the American people to know they are 
getting something for their money.
    Mr. Cole. That is right. And then we will have another 
round of competition, which will end in late fall. So we figure 
we will probably get about as many as we are going to get, 
about 70,000, which is half the universe of public libraries 
and schools.
    Mr. Dicks. And we have enough money to do that?
    Mr. Cole. We do.
    Mr. Dicks. The last thing we would want is not to be able 
to finish this.
    Mr. Cole. Absolutely, and we made sure when we were 
planning this that we had enough money to fulfill these 70,000.
    Mr. Dicks. What do one of these kits cost?
    Mr. Cole. Well, you know, it all depends on how many we are 
going to produce but probably anywhere----
    Mr. Dicks. The price goes down if you----
    Mr. Cole. Right. It depends on the volume, but you get the 
40 poster reproductions. I wish we could show you that 
teacher's guide so----
    Mr. Dicks. Do you have the pamphlet?
    Mr. Cole. It is really a beautiful guide that gives the 
teachers more information about the works and about the artists 
and about the events, people and places it portrays, and then 
there is also the website. But the actual production of the 
posters, the kit, they come in a special box, will vary. We 
estimate somewhere between $100 and $120 per set, which is 
really incredible. So, you know, we figured it out for the 
entire universe, if we were to give a kit to every school and 
to reach every student in the United States, which I do not 
think we are going to do just because I do not think that is 
going to happen. It would be, per student, less than the price 
of a first-class postage stamp, about half the price of a 
postage stamp. So it is an incredibly economical resource, and 
once the schools get it, they keep it and we hope that it will 
stay there for decade after decade after decade.

               SUPPORT FOR DIGITAL HUMANITIES PROGRAMMING

    Mr. Dicks. Mr. Wheatley, we appreciate your being here 
today as well and the Learned Society and your historical work 
on digital humanities. How do you think that is going? I mean, 
your testimony is very positive but, I mean, are you concerned? 
Would you like to see it expand, or what can you tell us? Since 
it was your idea, I guess, the Society's idea originally.
    Mr. Wheatley. Yes, we represented a broad spectrum of 
opinion that came together in this report. I think that the 
Digital Humanities Initiative is very well begun. It could be 
bigger. The work that it does, as I tried to suggest, leverages 
a great deal of extra funds because the basic infrastructure, 
the computers, the servers, the pipes of connectivity, that is 
there. What we need is the scholars who can help put 
collections, databases, these teaching materials up there and 
add to it. So every dollar that the NEH and the Federal 
government puts in is by definition matched by contributions 
from the universities where these scholars are working. So I 
think it is a very efficient means and it could be easily 
expanded.
    Mr. Dicks. What is in the budget for Digital Humanities?
    Mr. Cole. Two million.
    Mr. Dicks. That is pretty modest, is it not?
    Mr. Cole. It is $2 million for----
    Mr. Dicks. Every year, so that does add up.
    Mr. Cole. But there are also digital projects in each of 
the Endowment's program divisions and We the People to support 
a huge digital project, the National Digital Newspaper program, 
which I have talked about. We are very keen on digital 
technology too because as a federal agency, it gives us an 
unparalleled tool to reach anyone who has an Internet 
connection, and not only in the United States but worldwide. So 
I really feel very lucky to be at the Endowment when the Web is 
being developed and not only great technology but great access 
issues are coming to fruition.

         EVALUATING THE EFFECTIVENESS OF ``PICTURING AMERICA''

    Mr. Dicks. Mrs. Emerson.
    Ms. Emerson. Thank you.
    Thank you all so much. I loved watching that video with you 
and your students, Jessie, and it was remarkable how engaged 
they were and how excited, and I just do not remember being in 
school and liking it as much as those kids seemed to like it, 
so obviously something is being done right.
    Let me just ask, I am curious, and Bruce, this is probably 
to you as a better question. Are there certain benchmarks that 
you all have in place to measure the program's overall 
effectiveness and success, you know, like you did perhaps for 
We the People but also for this?
    Mr. Cole. Every grant product that the Endowment supports 
has to submit a report. We do not really have benchmarks 
because the Picturing America initiative is not really a 
curriculum. It is a teaching tool and it supplements 
curriculum. So one of the wonderful things, as you can see from 
Jessie, is that although we have lesson plans, we are really 
depending on the creativity of the teachers. I visited a number 
of schools including team-teaching of first-grade class and 
fourth-grade class at Robert Brent Elementary School here in 
the District, one of my most terrifying experiences. I have not 
talked to first graders since my kids were in the first grade 
or fourth graders, and what I saw was the creativity that the 
teachers brought in a way that I had not suspected and also the 
wonderful way it unlocked the enthusiasm and imagination of 
those kids. It was really one of the most gratifying days that 
I have ever had at the Endowment. There is, of course, an 
online application. When the teachers or schools--and by the 
way, school districts can sign up. The New York school system 
has signed up, which has 1,400 schools, and 1,100,000 students. 
Chicago is signing up. Philadelphia is signing up. So we 
encourage school districts to make one application to us. But 
one of the things you see is that this brings out this terrific 
creativity, and when they sign up they have to tell us what 
they are going to use it for and then you see it is not only 
history but it is language arts, it is arts, it is the whole 
spectrum all the way across the curriculum.
    Ms. Emerson. You said Mountain View, Missouri, which is in 
my district. I might have to go see their program.
    Mr. Cole. There were 21 schools in your district that 
received kits in the pilot phase of the project. There are 465 
schools and libraries in Missouri that have already applied, 
and we have a month until the application deadline.

         ``PICTURING AMERICA'': FEDERAL & NON-FEDERAL PARTNERS

    Ms. Emerson. Really? That is fabulous. I am very excited. I 
will have to take advantage of the opportunity to go visit, I 
think. Of course, having watched Jessie teach, I am going to 
say, are you doing it this way, that is the way Jessie says to 
do it.
    Now, do you all rely on non-federal partners in the private 
sector educational foundations to help provide matching funds 
for these efforts?
    Mr. Cole. Well, we have been helped with a number of 
partners. The Institute of Museum and Library Services has 
given us $1 million for this. We are partnering with the 
National Park Service and also it is going to go this year to 
10,000 Head Start centers as well. And then we have had a 
number of private partners who have been very generous.

                  OUTREACH TO UNDERSERVED COMMUNITIES

    Ms. Emerson. Well, and that is important and I am 
particularly pleased too that you do outreach to underserved 
communities. The bulk of my Congressional district is an 
underserved community and so being able to expand the reach of 
your grant opportunities is so critical, and I am pleased and I 
know that your budget request does propose funding to support 
initiatives in fellowships at historically black, Hispanic 
serving, tribal colleges and universities. Can you just explain 
for us quickly, and I know we have got votes going on again 
here, can you explain in some detail the extent to which the 
National Endowment's sponsored initiatives reach specifically 
to tribal colleges and universities? I mean, do you know how 
many grants you provide on an annual basis?
    Mr. Cole. No. I can get you those figures, but we make a 
special effort, especially with tribal colleges and 
historically black colleges and universities to reach them and 
we have a couple of guidelines for them as well. We feel very, 
very strongly about that, that it is the Endowment's mission to 
reach out to underserved communities and that is why we are 
pleased with that figure with Picturing America but also some 
of our other programs reach out to communities where people 
never have the opportunity to experience a picture or get a 
humanities program as well, so we feel very, very strongly 
about that. We are committed.
    [The information follows:]

                 National Endowment for the Humanities

neh support for humanities projects at historically black colleges and 
   universities, hispanic-serving institutions, tribal colleges and 
                              universities
    The Endowment's grant programs reach underserved communities in 
several ways. Humanities Initiatives for Faculty at Presidentially 
Designated Colleges and Universities is a special outreach grant 
category in the agency's Division of Education Programs that supports 
efforts to strengthen and enrich humanities education and scholarship 
at the three types of Presidentially-designated institutions: 
historically black colleges and universities, institutions with high 
Hispanic enrollment, and tribal colleges and universities. During 
fiscal year 2007, five Humanities Initiatives for Faculty awards to 
historically black colleges and universities (HBCUs) totaled $239,750; 
two awards totaling $60,000 went to institutions with high Hispanic 
enrollment (HSIs), and two awards totaling $100,347 went to tribal 
colleges and universities (TCUs). In the Endowment's Division of 
Research Programs, Faculty Research Awards for historically black and 
universities, institutions with high Hispanic enrollment, and tribal 
colleges and universities are awarded to individuals at eligible 
institutions who are pursuing advanced research in the humanities that 
contributes to scholarly knowledge or to the general public's 
understanding of the humanities. In FY 2007, $40,000 Faculty Research 
Awards supported the work of three scholars at HBCUs and three at HSIs.
    Minority-serving institutions of higher education and their 
faculties are also eligible applicants in NEH's other programs that 
support teaching and research in the humanities. In FY 2007, in 
addition to funding awarded through the Endowment's two special 
outreach programs, HBCU's received four grants totaling $354,667, HSIs 
received three grants totaling $175,796, and TCUs received two grants 
totaling $6,000 through the Endowment's other programs.

    Ms. Emerson. I appreciate that.
    Mr. Chairman, I have other questions but if you want to go 
and----

   REDUCTION OF PRESERVATION AND ACCESS AND CHALLENGE GRANTS BUDGETS

    Mr. Dicks. Yes, let me just ask a couple quick ones here. 
We notice that there is a cut in preservation and access of 
$4.5 million and a plus-up of We the People by $4.9 million. 
What happens to preservation and access with a cut of that 
seriousness?
    Mr. Cole. Well, there are two cuts, in the Preservation and 
Access division, and in Challenge Grants program. The 
Preservation and Access budget was about $18 million. It was 
quite a bit larger than any of the other division budgets, and 
that was historic. That money was there because it had funded 
two programs that are no longer active, the Brittle Books 
program, which has declined from 8 grants and $4.5 million 
awarded in 2000 to no grants awarded in 2007 because that work 
is finished. The other large-scale project was the United 
States Newspaper microfilming program. That program has wound 
down now too. Now we are digitizing newspapers through the We 
the People program. So historically there was some money parked 
in that division that I thought could be used elsewhere. This 
division and the Challenge Grants program are important but 
challenge grants are very front-loaded and we have to spend a 
lot of money to get really very little return on the 
investment. A $1 million endowment-building grant, for example, 
only gives you about $50,000 in return, and I think some of 
that money could be better spent on more active programs, 
$50,000 for fellowships or $50,000 for a Digital Start-Up 
Grant. And, you know, I think this is just a matter of 
priorities and leadership and responding to the realities of 
what is going on now.
    Mr. Dicks. Mrs. Emerson.
    Ms. Emerson. Just a quick question, and this is a Mr. 
Tiahrt question so I am going to ask it so that he knows.
    Mr. Dicks. Yes, go ahead.

                             RENT INCREASE

    Ms. Emerson. It is a question about your administrative 
budget for 2009. Apparently the GSA rent expenses are projected 
to increase by $689,000, or roughly 35 percent, and can you 
tell us why? That is awfully dramatic.
    Mr. Cole. It is a dramatic increase, and our administrative 
budget, I think like a lot of other federal agencies, is in a 
kind of fix because we have all these fixed costs that are 
rising. It is not only increase in rent, but also an increase 
in building security costs. We also bring in lots of panelists 
from all over the United States to review grant applications, 
which costs us airfare and hotels and the like.
    Ms. Emerson. That part is included?
    Mr. Cole. Right, and for our rent, one of the things that 
happened is that GSA initially underestimated the amount of our 
2008 rent and then has gone and corrected it, so I think that 
is what you are talking about.
    Mr. Dicks. Great hearing. I am sorry about the 
interruption. Thank you, Jessie. Thank you, Steven. Thank you, 
Bruce.


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                          Wednesday, April 9, 2008.

                        SMITHSONIAN INSTITUTION

                               WITNESSES

CRISTIA'1N SAMPER, ACTING SECRETARY OF THE SMITHSONIAN INSTITUTION
ANTHONY BEILENSON, FORMER REPRESENTATIVE

                   Opening Remarks of Chairman Dicks

    Mr. Dicks. Dr. Samper, we want to welcome you to the 
Subcommittee this morning. While this is your first appearance 
before the Committee to testify on behalf of Smithsonian 
budget, you are well known to most of us because of your 
leadership of the Institution as Acting Secretary for the last 
13 months. And I think you have done an outstanding job.
    We all know that this has been a very difficult period for 
the Smithsonian's dedicated staff, but it has been a necessary 
period of self examination and change for the Institution 
following the precipitous departure of the previous Secretary 
last March.
    Members will talk about the many reform efforts and 
organizational changes which have been put in place at the 
Smithsonian in some detail during our hearing this morning.
    At the outset, however, I want to thank you for the quality 
of your leadership during this challenging period. While the 
process has been painful, I believe the Smithsonian is now 
positioned to be a much stronger institution for the future 
than it was when this process began.
    While many people contributed, no one played a more 
important role in putting the Smithsonian back on a positive 
course than you did in your position as Acting Secretary. You 
have restored morale, led an aggressive reform effort, and 
restored public confidence. Everyone on this Subcommittee, and 
in fact, everyone in this Nation owes you a debt of gratitude 
for a job well done.
    Dr. Samper, the President has submitted a reasonable budget 
for the Smithsonian in the aggregate. The overall request for 
the Smithsonian of $716 million is a $34 million increase, 
about 5 percent above the 2008 enacted level. That is a good 
start if measured against the $1 billion reduction proposed by 
the President for programs handled by this Subcommittee.
    Within this proposed aggregate increase, however, there are 
a number of difficult tradeoffs. Increases for fixed costs and 
for needed maintenance improvements are offset by cuts to 
important exhibitions and public education activities. We need 
to better understand these reductions. The Subcommittee will be 
seeking your help over the next several weeks in finding the 
right mix of resources to help the Smithsonian serve the 
country.
    We look forward to your testimony and to hearing your 
views.
    Mr. Dicks. And I will turn to Mr. Tiahrt at this point.

                 Opening Remarks of Congressman Tiahrt

    Mr. Tiahrt. Thank you, Mr. Chairman. I also welcome you, 
Secretary Samper, to the hearing this morning to discuss your 
2009, budget, but I first must congratulate you for helping us 
through a very difficult time. You led the Smithsonian through 
I think one of the most challenging times in the Institution's 
history. I personally believe that the Smithsonian has turned a 
corner by embracing the reforms you are now taking, and I think 
you are now taking the appropriate action to ensure that this 
Institution that is respected and recognized worldwide remains 
strong and significant in the future.
    Thank you for your leadership. Thank you, Mr. Chairman.
    Mr. Dicks. We will put your entire statement in the record. 
You may proceed as you wish.

                      ABRAHAM LINCOLN'S IRON WEDGE

    Mr. Samper. Thank you very much, Mr. Chairman, Mr. Tiahrt, 
Mr. Moran. Good morning.
    With your permission, Mr. Chairman, before I read my 
opening statement I just want to draw your attention to a few 
of the objects I have brought this morning, because I think it 
is important to remember what the Smithsonian is all about as 
we enter this hearing. And I will just point them out briefly 
and maybe at the end of the hearing we can spend a few more 
minutes.
    Mr. Dicks. There are a number of those over in the 
Longworth Building. I have seen them.
    Mr. Samper. Well, let me point out a few things here. Let 
me start with a little bit of our history right here. This iron 
wedge that you see here is a very interesting piece, which was 
found in 1885, at the home of Lincoln's friend, Mentor Graham. 
And this wedge actually dates back to the 1830s to the time 
when Lincoln lived in New Salem. We know that from reading some 
of the information from that time, that Lincoln actually took 
this wedge to a blacksmith and asked him to carve his initials 
on the side of the wedge.
    As it turns out, the blacksmith said, ``I am no scholar. I 
cannot do that,'' so Lincoln took the tools himself and if you 
look carefully, right here on the side, you will see the 
initials, A. L., Abraham Lincoln, that were actually chiseled 
by Lincoln himself on this particular piece.
    This is just one of the objects in our American history 
collection.
    Mr. Dicks. What would Lincoln have used this wedge for? As 
a rail splitter?
    Mr. Samper. That is correct. And this is just one of the 
objects that we have in our collections that we will be 
displaying next year. As you know, 1809, was Lincoln's birth, 
so next year is the bicentennial of his birth, and we are 
planning a major exhibition at the National Museum of American 
History to display some of these collections, including his top 
hat, his clothes, to really celebrate the contributions of 
Lincoln, not only in the American History Museum, but 
throughout the Institution. It is objects like this that remind 
us of our history.

                         ASIAN LONGHORN BEETLE

    Some of these artifacts here that you are looking at tell 
us the story as well of not only the diversity of this planet 
but the consequences of unintended guests. Invasive species are 
a $120 billion problem a year in this country right now.
    I will just point out one now. We can go into the others 
later, but this little one right here is the Asian Longhorn 
Beetle. Now, this beetle is originally native to China, and it 
creates major problems in terms of the economy, because it lays 
the eggs and the larvae grow into the trees, eat the bark of 
the trees, and the trees decay, and it kills billions of trees 
in China every year.
    As it turns out, this beetle showed up in Brooklyn, New 
York, in 1996, and has expanded in New York and also in the 
city of Chicago, causing the death of many, many trees, and 
becoming a threat. That same species has been found in wooden 
crates that have arrived in California, Washington State, and 
Hawaii.
    We estimate that if some of these species like the Asian 
Longhorn Beetle are not controlled, we will see billions of 
dollars of damage to our timber industry. Because we have a 
global collection of more than 30 million insects covering all 
the world, when a small creature like that crawls out of a 
crate that arrives in San Francisco, we can actually send an 
image or bring it to the Smithsonian, and tell you what it is, 
where it is from, and actually help departments like USDA and 
Customs with this.
    Mr. Dicks. Do you have a database?
    Mr. Samper. We are beginning to digitize some of these 
collections.
    Mr. Dicks. Don't you think that would be smart to do?
    Mr. Samper. Absolutely. The challenge, of course, is that 
we have 126 million natural history specimens, so we are 
working on this slowly, chiseling away at this, but we want to 
do more.

                           ANACONDA VERTEBRAE

    Now, this little specimen here also tells a story. I do not 
know if you would recognize what it might be if you are not 
experienced in paleontology.
    This is actually a fossil of a vertebra.
    Mr. Dicks. Of a vertebra?
    Mr. Samper. Of a vertebra of an anaconda snake that lived 
60 million years ago. This comes from South America. This other 
vertebra is from a contemporary anaconda. This is a vertebra of 
a 17-foot anaconda----
    Mr. Dicks. Wow.
    Mr. Samper. From the Amazon. Right now we estimate the 
ancient anaconda was more than 50 feet long----
    Mr. Dicks. Oh, my!
    Mr. Samper [continuing]. And weighed more than 1 ton. Just 
imagine the Potomac crawling with these little creatures. But 
the work of our paleontologists in the Natural History Museum 
at the Smithsonian----
    Mr. Dicks. The Potomac River?
    Mr. Samper. Well, this particular one comes from South 
America. But what we know is that because of climate change 
over millions of years we used to have tropical rainforests in 
places as far north as Wyoming. We are beginning to reconstruct 
the history, but the collections allow us to understand the 
past and see how communities of plants and animals have 
responded to changes in the environment over millions of years. 
And this kind of work, whether it is these fossils----
    Mr. Dicks. Do you know where that fossil was found? Do you 
have any idea?
    Mr. Samper. Yes, I do. This particular fossil was found in 
the coal mine called Cerrejon in northern Colombia that was 
explored by the Drummond Company. And Cerrejon is turning out 
to be an incredible treasure trove, and these just have been 
coming out in the last 2 years. Many of these were creatures we 
had no idea existed in the past. This next fossil is a peccary 
bone about 15 million years old from the isthmus in Panama. As 
you know, there is an expansion of the Panama Canal that is 
taking place right now.
    Mr. Dicks. Right.
    Mr. Samper. A $5 billion investment that will help world 
trade and many of the economies because of the goods that go 
through there every year. The scientists at the Smithsonian 
Tropical Research Institute are collaborating with the people 
working on this expansion and discovering some of these 
fossils. This is leading them to an understanding of the role 
of the isthmus of Panama in the past. Also, by studying the 
dynamics of tropical rainforests around the world, we are 
expanding our knowledge to see the impacts of climate change.

                               LIFESTRAW

    And one last example is this LifeStraw. This is from an 
exhibition at the Cooper-Hewitt National Design Museum in New 
York last year. It was part of a fascinating exhibition called 
``Design for the Other 90 Percent,'' showing how we can use 
contemporary design to improve the lives of the other 90 
percent of the population in developing countries.
    This particular LifeStraw can be used, as you see in this 
illustration, by rural populations in Africa to drink water. It 
purifies it in a way that will substantially reduce illnesses. 
And we have also worked in recovering materials in areas 
devastated by Hurricane Katrina.
    So these are just a few stories. There are more. Some of my 
colleagues who work with these artifacts are here.
    Mr. Dicks. Who developed the LifeStraw?
    Mr. Samper. It was not developed by us. I will give you the 
answer to that. I do not know the answer.
    Mr. Dicks. No. It just would be interesting.
    Mr. Samper. We will double check the catalog, and if it is 
not there, I will find the answer for you. And we have got a 
couple of others that we will show you later including----
    Mr. Dicks. It might be useful to the military, too.
    Mr. Samper. I think it is a way of using collections to 
inspire design.
    [The information follows:]

                               LifeStraw

    The LifeStraw is a personal, mobile, water purification tool 
designed to turn surface water into drinking water. The LifeStraw was 
designed by Torben Vestergaard Frandsen of Denmark.

                         RADIO-TRACKING COLLAR

    And one last object that we will look at later, this 
``small'' collar that you see there is actually a collar that 
we used for radio-tracking wild Asian elephants in Sri Lanka. 
And that particular collar was on an elephant there, and we are 
using it to understand the populations and the movements of 
elephants in the wild so we can assist in the conservation of 
endangered species. And one of our curators from the National 
Zoo who is working on this is here with us. Maybe at the end of 
the hearing if any of you have time I would love to tell you a 
little bit more about those stories.
    Mr. Chairman, I just figured it was a good way to start the 
hearing, to remind us----
    Mr. Dicks. Fine. I think that is terrific.
    Mr. Samper [continuing]. What the Smithsonian is all about.
    Mr. Dicks. And thank you for that presentation, and what 
are the other bugs over here?

                             OPUNTIA CACTUS

    Mr. Samper [continuing]. This is the leaf of an opuntia 
cactus, which is the cactus that is found in parts of the 
southwest, also parts of Florida. This particular species of 
moth, which is called Cactablastus, was originally from 
Argentina, and as it turns out, it was introduced as an 
invasive species that showed up in Florida and now is spreading 
throughout the United States. This species, which is endemic to 
Argentina and affects local populations of Opuntia, is now 
beginning to affect the species of cacti that are found in the 
dry areas of the U.S. and is beginning to be a big problem.
    This tiny little creature that you see here is a parasitic 
wasp, that is known from the original range of this particular 
moth species and can be used as a biological control against 
these species.
    Mr. Dicks. Well, that is the cactus there. What is this 
over here on the left? The little one.
    Mr. Samper. That is probably the flower, the fruit of the 
cactus. Botanists always need a flower or a fruit to be able to 
classify a species of plant.
    Mr. Dicks. Well, where would that cactus be from? Arizona?
    Mr. Samper. We can look at the label, and it tells us this 
particular specimen was collected in 1987, in Rancho Nuevo. It 
is Mexican.
    Mr. Dicks. Mexican.
    Mr. Samper. This particular one is from Mexico.
    Mr. Dicks. Mexico. Okay. All right. Well, thank you.
    Mr. Samper. There are many more stories like this, Mr. 
Chairman, but I appreciate your indulgence.
    Mr. Dicks. No. We appreciate that.
    Mr. Samper. Now, if I may go on with just a short 
statement, and you have my written statement.
    Mr. Dicks. Right. We will put your full statement in the 
record and----
    Mr. Samper. I appreciate it.
    Mr. Dicks [continuing]. You may summarize as you wish.

                  Opening Remarks of Cristia'1n Samper

    Mr. Samper. Thank you. Let me just thank you, Mr. Chairman 
and members of the Committee, for the opportunity to testify 
before you today to discuss our fiscal year 2009 budget. The 
support of the Administration and Congress is essential to all 
that we do, and we greatly appreciate that support and look 
forward to working with members to make the Smithsonian even 
stronger for future generations.
    As you know, last month the Regents unanimously elected the 
twelfth Secretary of the Smithsonian Institution, Dr. Wayne 
Clough, who currently is the President of the Georgia Institute 
of Technology. He officially assumes his office on July 1, and 
I have been working with Dr. Clough to insure a smooth 
transition at the Smithsonian and will continue to do so in 
coming weeks and months.
    As I have mentioned to you, my plan is to return to my 
regular job as Director of the National Museum of Natural 
History beginning on July 1.
    The core mission of the Smithsonian, our work related to 
the research, collections, outreach, and public programs 
remains strong. People are coming to see that work, and for 
those who cannot come to Washington, we are reaching out to 
connect with them.
    More than 24 million visitors from across the country and 
around the world enjoyed the Smithsonian last year, including 
35 extraordinary exhibitions that were hosted by various 
museums, and we had 183 million visitors to our various Web 
sites, which is about a 20 percent increase over a year before.
    The Smithsonian Traveling Exhibition Service reached 409 
communities in all 50 States, Puerto Rico, and Guam, and an 
additional five million people last year were able to see 
collections of the Smithsonian across America thanks to this 
partnership. We now have 159 affiliate museums in 39 States, 
Washington, D.C., Puerto Rico, and Panama. And in addition, 
Smithsonian Networks, which is our new venture for a television 
channel, has expanded its services and is now bringing programs 
and great stories about the Smithsonian to more than 22 million 
people across America.
    Last year the spectacular Robert and Arlene Kogod Courtyard 
opened at the Smithsonian's National Portrait Gallery and the 
Smithsonian American Art Museum, and this year we will open the 
Ocean Hall of the National Museum of Natural History in 
September and a transformed National Museum of American History 
will reopen in November as the new home for the Star-Spangled 
Banner.
    With that as background let me provide the Subcommittee 
with a brief update on three priorities; strengthening 
governance, fixing our facilities, and investing in our 
programs.
    As you know, the Smithsonian Board of Regents has 
established an aggressive governance reform agenda to address 
the problems that were identified last year. I am pleased to 
report that the Smithsonian has now fully implemented 17 of the 
25 governance reform recommendations, and we are on schedule to 
complete the rest of the recommendations in the next few weeks 
or months.
    The reforms include the creation of a new position for a 
Chairman of the Board and establishing an Office of the Regents 
that is separate from the Office of the Secretary. We have 
developed a unified compensation approach, and all senior 
executives are now on an earned leave system like all other 
employees of the Smithsonian and have also been prohibited from 
serving on any corporate boards. The details of additional 
reforms are publicly available in our scorecard on our Web 
site.
    The second major challenge is the maintenance and 
revitalization of our facilities. We have made good progress in 
recent years, but we still have much work ahead. We appreciate 
the support that we have received from the Administration and 
from Congress, including the additional funds that have been 
provided through the Legacy Fund this year. The budget request 
for 2009 includes a substantial increase for facilities 
capital, maintenance, and security, and will no doubt allow us 
to make substantial progress in this regard.
    And this brings me to the third challenge, which is 
investing in our programs. As you know, I care deeply about the 
mission of the Smithsonian. We look after many of America's 
greatest treasures, we conduct research that expands our 
understanding of the world, and we share this knowledge with 
millions of visitors who come from all over America and around 
the world to see the Smithsonian.
    Unfortunately, for more than a decade we have suffered 
through a steady base erosion in our federal funding, and our 
staff across the Institution has been reduced by more than 20 
percent, which is definitely taking its toll on our programs. 
The fiscal year 2009 budget provides a significant improvement 
in facilities maintenance and revitalization, but it reduces 
federal funding for our public programs, exhibitions, and 
research by $11.2 million.
    This puts many programs at risk, for example, the popular 
Insect Zoo at the Natural History Museum, the guided school 
tours that we do at many museums, our traveling exhibitions, 
and other program activities.
    I always like to remind my colleagues and the Board of 
Regents that in my view there is no point in having beautiful 
facilities if they are going to be hollow inside. We need to 
invest in our physical and our intellectual infrastructure. We 
must continue to attract the best minds in the world, the 
brightest scientists, the brightest educators, and the 
brightest curators. These are the people who bring the 
collections to life, who reach out to visitors from around the 
world, and who explore the world to create new knowledge that 
we can share with present and future generations.
    The Smithsonian has been a public private partnership from 
its inception back in 1846, and we would not be here without 
generous support from the Administration, from Congress, and 
from the American people. We look forward to building on this 
partnership, and thank you for your support and the hearing 
today.
    [The statement of Cristia'1n Samper follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                   RECENT CHANGES AT THE SMITHSONIAN

    Mr. Dicks. I personally believe the Smithsonian has come 
through this very difficult period a much stronger institution. 
As we both know, during the last few years the Smithsonian has 
suffered from a significant decline of public confidence in the 
Institution. Because of the strength of your leadership, this 
National treasure can now move forward with a bright future 
which matches its wonderful past.
    The turnaround has meant a lot of changes for the 
Smithsonian, which we will discuss in a few minutes. In your 
role as Acting Secretary, can you tell us in broad terms how 
you believe the Smithsonian is different today than when you 
took over last March?
    Mr. Samper. Thank you, Mr. Chairman. This has been in my 
view quite an extraordinary year for the Smithsonian, and I 
think the major changes that we have seen include the reform in 
our governance. I think after 160 years of history it was 
important to step back, to look at best practices, and look at 
ways that we could improve how we do things. I outlined a few 
of these changes, and I am confident that the governance of the 
Smithsonian is much stronger today.
    The other area where I am very pleased with the progress 
that we have made deals with employee satisfaction and morale. 
I think we have seen a major change in this. I am happy to say 
that our curators, educators, collection managers, security 
officers, and others are committed to the mission, and I think 
we have seen substantial progress in improving the morale at 
the Smithsonian.
    I would also acknowledge that thanks to the support that we 
have received we continue making good progress in the 
facilities area, in our facilities capital investments through 
renovations like the old Patent Office Building, but there are 
still challenges ahead, especially those relating to our 
programs and our investment in science, art, and culture.

                        FISCAL YEAR 2009 BUDGET

    Mr. Dicks. The overall budget request of $716 million for 
the Smithsonian is an increase of $34 million or about 5 
percent. This 5 percent increase is the largest percentage 
increase proposed for any major agency funded by this 
Subcommittee. This is a pretty remarkable request in the 
current budget environment.
    As we all know, however, the devil is often in the details. 
Large increases for fixed costs, facilities maintenance, and 
capital projects are offset in the President's request by a 
largely unexplained reduction in funds to support public 
programs.

               IMPACT OF $11.2 MILLION PROGRAM REDUCTION

    What can you tell us about the impact of this $11.2 million 
reduction on programmatic and educational activities?
    Mr. Samper. As you point out, Mr. Chairman, we are 
certainly grateful and satisfied with the overall submission of 
the budget and the $34 million increase, and we are very 
grateful for that, but as you point out, nearly all of it is 
going to facilities maintenance and revitalization at the 
expense of some of the programs.
    We have not determined any allocation for these cuts at 
this point, but we have started examining options should we not 
be able to turn this around as a result of this hearing with 
the work of this Committee and the Senate.
    There is no doubt that an $11 million cut would affect our 
ability to provide some of the educational opportunities, some 
of the ways we can provide services for school groups, some of 
the attractions that we have around the Smithsonian, and we 
will probably also be forced to reduce our traveling exhibition 
service and some of our loans to various museums and research 
institutes and universities around the country.
    Were that number to hold, we estimate we would do anything 
we can around the sides to limit our activities, but I would 
not discard the possibility of having to look at a reduction in 
force in our program activities, primarily in education and 
exhibitions, which would be devastating for the Smithsonian.
    Mr. Dicks. In your statement you indicated that you will 
try to replace $11.2 million, with private contributions. Is 
that realistic?
    Mr. Samper. Not in the short term, Mr. Chairman. We are 
fortunate, and we make a big effort every year to go out and 
raise funds, and we have been very successful in raising funds 
for major renovations or exhibitions. The problem with these 
proposed cuts is that they would affect our base staffing, 
which is what allows us to carry on these activities in the 
long term.
    So although we are committed to continuing to expand our 
federal base and our private funding, what we call the trust 
funding, we feel that it would be very difficult to fill this 
gap for these kinds of activities in a matter of 6 months.
    Mr. Dicks. At the same time the budget for annual 
maintenance, even with a $16.8 million increase, is still about 
$30 million below the $100 million standard for maintenance 
recommended based on industry facilities standards. If 
additional funds cannot be found, should the Committee consider 
reallocating some of the facilities funds requested by the 
President back to the programmatic area?
    Mr. Samper. I think it is one of the options we will need 
to examine, Mr. Chairman. The issue, as you point out, is that 
the facilities maintenance budget is still below the industry 
standard. Given the size of our facilities, the fact that we 
have more than 700 buildings and facilities at the Smithsonian, 
we estimate that the industry standard would dictate about a 
$96 million investment every year.
    So even with the proposed increase, we would still be 
short. My preference would be to try to maintain some of the 
funding for the facilities maintenance. I think there are some 
of the investments in facilities capital that we could look at 
potentially deferring if that were the case.

                       SALE OF REAL ESTATE ASSETS

    Mr. Dicks. Two years ago the Smithsonian raised about $48 
million through sale of the Victor Building. You indicated in 
your budget documents that the Smithsonian currently owns over, 
as you just mentioned, 700 buildings. Are there excess or 
under-utilized assets which could be sold to raise money for 
other needs at the Institution like maintenance?
    Mr. Samper. The short answer would be, no, there is no 
other asset like the Victor Building that has been purchased 
and could be sold. So we are not looking at that as an option 
in the short term. We are looking at the possibility of 
consolidating some of these facilities and trying to move out 
of some of the facilities like the one we have at 1111 North 
Capitol, which needs to be moved to another location, which 
supports our exhibits central service. But we do not have an 
asset like Victor Building we could turn around and sell.
    Mr. Dicks. Mr. Tiahrt.

                PROGRESS ON REDUCING FACILITIES BACKLOG

    Mr. Tiahrt. Thank you, Mr. Chairman.
    This Subcommittee appropriated about $900 million since the 
critical backlog problem was brought to our attention back in 
1996. Recognizing that your backlog has been verified to be 
somewhere in the area of $1.5 billion and that no agency ever 
completely eliminates the problem, can you describe to us how 
much progress has been made to date, assuming you have been 
addressing the most critical items first?
    Mr. Samper. Thank you, Mr. Tiahrt.
    As you point out, I think we have been able to make 
progress thanks to the support and the appropriations we have 
received. Our priorities have been focusing on those buildings 
that receive the largest number of visitors, that house the 
largest number of collections, and that pose greater issues 
related to safety.
    We have taken on large projects. The most recent one that 
we completed successfully was the renovation of the old Patent 
Office Building, which I think has been very successful. We can 
all be proud of this. As you know, this was a $200 million 
project. So I think we have made progress there.
    We have also been able to recently complete the expansion 
of our Museum Support Center, what we call affectionately Pod 
5, out at Suitland in Maryland, which has now allowed us to 
build a state-of-the-art facility, a $40 million project, for 
collections that are preserved in alcohol such as fish and some 
of the very important collections we have. These are now being 
moved from the building on the Mall to Pod 5. All of the fish 
collection is to be moved out there.
    So I think we have made substantial progress, but as you 
point out, we still have a lot of work ahead. We estimate the 
kind of figure we are looking at is about $1.5 billion for 
revitalization over the next 10 years.
    Now, the appropriation request is before you, which 
includes $128 million for facilities capital, would certainly 
allow us to make substantial progress and brings us much, much 
closer to what is our annual target number, which is $150 
million. And we have been able to come this far thanks to the 
support from this Committee and the Senate.

              IMPACT OF FACILITIES INVESTMENT ON PROGRAMS

    Mr. Tiahrt. By focusing on these increased backlogs, what 
impact has it been to your science programs, your public 
programs, the core areas you feel like you have at the 
Smithsonian?
    Mr. Samper. We all know we have a big issue with the 
facilities, and I think we have been fortunate to document it 
well and make progress. But in my personal view we have been 
investing in the facilities at the expense of our program 
activities in science and education.
    One of my priorities as Acting Secretary has been to try to 
bring a better balance in these. As I mentioned in my 
statement, absolutely we need to continue fixing the buildings, 
but there is no doubt in my mind that we need to invest in the 
minds and the collections that are housed in those buildings.
    This is part of the balance that we are seeking, and I will 
continue pushing either as Acting Secretary or Director of the 
National Museum of Natural History.

                 STATUS OF ARTS AND INDUSTRIES BUILDING

    Mr. Tiahrt. All right. Last year the Smithsonian issued a 
request for proposal for historic Arts and Industries Building 
on the Mall. What was the response from the private sector, and 
before you issued the RFP, did the Smithsonian conduct an 
internal study into their possible use of the building, or is 
this decision to seek private sector financing and use simply 
driven by the lack of federal funds?
    Mr. Samper. As you know, the Arts and Industries Building 
was closed back in 2004 due to concerns about the structural 
safety of the building, and one of my priorities as Acting 
Secretary has been to explore options to bring it back to the 
public.
    We did issue a request for qualifications to seek potential 
public private partnerships, and that was driven largely by the 
lack of federal funds to deal with this. We received 11 
responses as a result. A technical panel from our staff across 
the Institution is currently reviewing them to see whether 
there are any that would be adequate in terms of good fit with 
the overall mission of the Smithsonian, expanding the services 
that we bring, preserving the architectural and historical 
significance of the building, and would also be financially 
viable. We are currently assessing these.
    Simultaneously, what I have decided to do just in the last 
3 months is to issue a request for ideas from our own staff in 
terms of potential uses for the building; this study will be 
completed on April 15. Our goal is to have the results of the 
request for qualifications and the internal study with options 
that can be discussed with the Board of Regents and with this 
Committee in the next few months. It is a very important 
decision, and there is no doubt that we need to find a solution 
to bring this building back to public use.

                STATUS OF SMITHSONIAN BUSINESS VENTURES

    Mr. Tiahrt. Last year the Smithsonian Inspector General 
released a report on the Smithsonian's Business Ventures Office 
originally created by Larry Small, but I believe you also 
directed a group, to review the issue at least internally.
    Can you talk about your plans for that group now?
    Mr. Samper. Yes. Smithsonian Business Ventures was 
established back in 1999, as a way of consolidating a lot of 
our business practices and try to improve business management. 
But there has been a lot of criticism both inside and outside 
the Smithsonian.
    When I became Acting Secretary, I decided it was time to 
really take a hard look at this, see some of the ways some of 
our deals have been structured. So I appointed a task force. 
The task force released a report in January, and we discussed 
it at the Regents' meeting in January.
    In a nutshell the recommendations are that we need to make 
absolutely sure that the business activities that we pursue in 
the Smithsonian are very well aligned with the mission. I think 
most of them are but some of the licensing deals are probably a 
little bit on the edge, and I think going forward we need to 
make sure that they fit in and help us expand our mission. But 
also that they are done in a very transparent way.
    What we are doing currently is completely restructuring 
Smithsonian Business Ventures. We intend to rename it, likely 
calling it Smithsonian Enterprises, appointing new leadership 
for this unit, and revising all of the revenue share 
arrangements with the various museums.
    So it is a major overhaul of Smithsonian Business Ventures 
to try to bring it back into the fold and refocus on the 
mission. I am convinced that there are businesses that are good 
business that are also fully consistent with the mission, and I 
think those are the ones that we should focus on going forward.
    Mr. Tiahrt. Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Moran.

                 STATUS OF ARTS AND INDUSTRIES BUILDING

    Mr. Moran. Thanks, Mr. Chairman. I am going to follow up on 
a couple of the issues that Mr. Tiahrt raised.
    First of all, the Arts and Industry Building. I happen to 
be a booster of the Women's History Museum going there, but you 
are requiring $75 million to repair what, the roof and the 
shell, for anyone that wants to be able to use that building I 
gather. That is a very expensive undertaking.
    Have you gotten many proposals for that project?
    Mr. Samper. Thank you, Mr. Moran.
    As you know, this is a building of great historical 
significance, and part of the challenge is that restoring a 
building while preserving its historical architecture----
    Mr. Moran. It is a beautiful building.
    Mr. Samper [continuing]. Will be very expensive. We do 
estimate that just fixing the building, which includes redoing 
all of the electrical systems, replacing the roof, all the 
plumbing, all the different systems will be in the order of $75 
million.
    As I mentioned, we issued a request for qualifications to 
explore these. We had 11 expressions of interest. Not all of 
them are viable, and I think it is too early to know what the 
results will be, but I was pleased to see that there are some 
private groups and companies that have come forward and 
expressed interest in investing some of these funds. But as you 
can imagine, there are probably a number of limitations like 
long-term leases on the building, and I think we need to 
examine those very closely internally within the Smithsonian 
management----
    Mr. Moran. What is your timing, Mr. Samper?
    Mr. Samper. We already received the results for the request 
for qualifications. We are finishing the internal study of 
options for the building that will be done by April 15. It is 
my intention to have both documents ready for the May 5 meeting 
of the Regents, and I think after a preliminary discussion, we 
would like to begin consultations with this Committee.
    I would certainly hope that we could have a decision about 
the best way forward at some point early this fall, which could 
include either pursuing a public private partnership or looking 
at other alternatives that we could do if we had federal 
support.
    Mr. Moran. Thank you. Your attendance was going up until 
you closed the American History Museum, and so that throws the 
numbers off, otherwise you'd have record attendance. Do you 
have any numbers for this year?
    Mr. Samper. Yes. I actually just looked at our numbers 
through March yesterday, Mr. Moran. I am happy to say our 
attendance is holding strong. Last fiscal year finishing 
September 30, we had 24.6 million visitors across the 
Smithsonian, which represented a 7 percent increase over the 
previous year, and that number as you point out is with the 
American History Museum closed, which itself would drive about 
three million visitors a year. So it has been strong.
    The attendance in the first 6 months of this fiscal year is 
up 2 percent over last year. So it is still holding despite 
some of the concerns with the economy, but we will really feel 
the impact of that this summer, because as you know, our 
attendance is very seasonal. We get half of our visitors during 
the summer months.

                   SMITHSONIAN STUDENT TRAVEL PROGRAM

    Mr. Moran. Sure. Now, Mr. Chairman, I have one other issue 
I need to explore here, and Mr. Secretary, I have sent you a 
letter, and you had somebody else respond, but it is on the 
Smithsonian Student Travel Program. Eight different student 
travel companies have written expressing concern about this.
    You have given this E. F. Travel out of, where is it? 
Sweden. I think it is a Swedish company. The right to 
exclusively use the Smithsonian name, and they bring people 
from around the world, really, but particularly around the 
country and but they really have no relationship to the 
Smithsonian, and yet they have even changed their name to take 
the E. F. that designates the company and just say, Smithsonian 
Student Travel Services. So anyone would normally think this 
was a Smithsonian Institution enterprise. Their promotional 
material implies they have special access to the Smithsonian, 
unique programs that their competitors cannot offer. Their 
competitors give the names of the people that they bring in, 
and then all those names are given to this E. F. company. And, 
in fact, there was even an advertisement for a program manager, 
and one of the jobs of the program manager was to facilitate 
the exclusive licensee's access to prospective tour leaders and 
customers through Smithsonian channels.
    So in other words their job is to give all this, what other 
groups feel is somewhat proprietary information, to this E. F. 
group. And you know, when you have the adult tour groups, that 
is a multiple, you put that out for multiple bidding. This was 
basically a sole source contract, and then they have told me 
that there is an inconsistency, if not a violation of D.C. law, 
because they do not always provide somebody to attend the 
groups as they are going throughout the District of Columbia.
    So I have got any number of more concerns about this. I do 
not want to take up all of the time but----
    Mr. Dicks. Good.
    Mr. Moran [continuing]. Well, you know, Mr. Chairman, I 
just want to raise this because----
    Mr. Dicks. We will put it all in the record.
    Mr. Moran. Well, we can put some of it on the record but 
nobody ever reads that stuff. Maybe you do. I doubt it. But----
    Mr. Dicks. Mike reads it all.
    Mr. Moran. I know, but there is only so much Mike can, just 
a little digression, Mr. Chairman, but, you know, the 
Smithsonian got into a lot of trouble previously----
    Mr. Dicks. Right. We do not want them to get into any more 
trouble.
    Mr. Moran [continuing]. With the TV channel, and that is 
why we are raising this so that----
    Mr. Dicks. Well, we should raise it.
    Mr. Moran. Thank you.
    Mr. Dicks. I applaud you for raising it.
    Mr. Moran. That is the spirit. Now we are going to leave 
that digression for the conversation and let you respond a bit, 
and I would hope you would share this concern, though, that a 
number of groups have raised.
    Mr. Samper. Thank you, Mr. Moran. I am aware of the 
concerns from these groups, and I am happy to say that the 
Acting CEO of our Business Ventures held a meeting in the last 
few days with some of the members of these groups. So, we have 
opened a channel of communication to explain this agreement.
    This was one of the deals that was done by Business 
Ventures----
    Mr. Moran. Yes.
    Mr. Samper [continuing]. More than 2 years ago. As I 
indicated, I think we need to review some of our practices.
    Mr. Dicks. Was it a sole source?
    Mr. Samper. It was, with this company, yes, but the one 
issue that is important to clarify is that, this is one of the 
licensing deals where they were allowed to use the Smithsonian 
name in exchange for a fee that is destined to support 
educational programs.
    Mr. Moran. But what if they take tours all over the country 
that have nothing to do with Smithsonian and still use the 
name?
    Mr. Samper. Correct. But the important issue is that, as 
you know, Smithsonian Journeys has been something we have been 
running for more than 20 years, and we have worked with E. F. 
as one of the companies doing this. In general, we are not in 
the business of running our own tours. We provide some 
additional expertise, but we outsource many of them. I think 
that uses our skills better. So this was in many ways a logical 
extension from our Journeys program, expanding it to some of 
the student travel.
    The one issue that is important and that we have clarified 
to these groups that were interested is that this group, 
although they can use the Smithsonian name, they are not being 
given any privileges or access that are not available to any of 
the other student groups.
    Mr. Moran. Use of the Smithsonian name is the privilege.
    Mr. Samper. Correct.
    Mr. Moran. Because people think it is a Smithsonian 
Institution Program.
    Mr. Samper. Correct. And the various companies, including 
World Strides and the others, have shared some of these 
concerns. As I mentioned, there was a meeting recently, and we 
are listening to see how we can accommodate some of their 
concerns within the terms of this particular license. And 
certainly our intention is once this particular license deal is 
completed, Smithsonian Enterprises in its new form will----
    Mr. Dicks. When will that be? When will it be done?
    Mr. Samper. I do not know the exact term off the top of my 
head.
    Mr. Dicks. Why don't you put the details in the record on 
that?
    Mr. Samper. I will be happy to provide you with that, Mr. 
Chairman. Thank you, Mr. Moran. I am looking into the issue.
    Mr. Moran. That is the spirit. Good answer. Thank you, and 
thank you, Mr. Chairman.
    Mr. Dicks. And a totally appropriate question.
    [The information follows:]

                   Licensing Agreement With EF Travel

    The agreement with EF Travel to license the Smithsonian name for 
student travel services was signed in 2006, and is for a term that is 
no longer then 10 years.

                         SMITHSONIAN ENDOWMENT

    Mr. Calvert. Thank you, Mr. Chairman. Thank you, Doctor, 
for coming today.
    I am new to the Committee, but I have some questions on 
your endowment. How large is your endowment?
    Mr. Samper. The endowment, depends on the market, Mr. 
Chairman. The last few weeks it has not been doing that great, 
but it is about $1 billion total.
    Mr. Calvert. About $1 billion.
    Mr. Samper. Yes.
    Mr. Calvert. Do you know what the average rate of return 
has been in the last, say 5 years?
    Mr. Samper. Let me get some help. I know the last few was 
about 18 percent, so we have been diversifying our investments 
substantially in the last few years. It took a very big hit 
after 2001, because it was almost all being held in government 
bonds and S&P-500s.
    Mr. Calvert. Yes.
    Mr. Samper. I will have to get you the exact average for 
the last 5 years. I do not know it off the top of my head.
    Mr. Calvert. On the endowment itself, what percentage are 
you setting aside for annual allocation?
    Mr. Samper. Five percent.
    Mr. Calvert. Five percent.
    Mr. Samper. Five percent, which is a consistent practice 
for most endowments.
    Mr. Calvert. And do you have a number of people that go 
around the country looking for large donations to the 
endowment?
    Mr. Samper. Yes, we do. Part of the job of every museum 
director and research institute director is to go out and try 
to secure funding for the endowment. Mr. Calvert, as you can 
imagine, many of these donors are people with particular 
interests who will give us restricted funds for say, an endowed 
chair or a fellowship. So the vast majority of this is----
    Mr. Calvert. Just, and again, I am new to the Committee. It 
just seems relatively small endowment relative to say Notre 
Dame or Harvard or some, Stanford, something that have 
significantly larger endowment funds than a much older and 
prestigious institution such as Smithsonian.
    Mr. Samper. You are absolutely correct, Mr. Calvert. It is 
a very small endowment given the size of our annual operating 
budget, and one of the things we are trying to do is increase 
it substantially.
    I just got the answer from my colleagues on your question 
on the 5-year trailing average. It was a 14 percent average.
    Mr. Calvert. That is a very good rate of return. So who 
manages your endowment account?
    Mr. Samper. We have an investment office that we have set 
up, and we have an Investment Committee that is made up of some 
of the members of our Board of Regents.
    Mr. Calvert. So it is done in-house?
    Mr. Samper. It is done in-house, and we are doing pretty 
well, but we still have a lot of work ahead, and we want to 
grow. We are beginning to design a national campaign, and one 
of our priorities is going to be to try to increase the size of 
the endowment.
    Mr. Calvert. You have a national campaign also, not just 
for large donations but small donations?
    Mr. Samper. That will certainly be one of the components of 
the national campaign, and I am happy to say that we also get 
small donations right now from contributing members who receive 
``Smithsonian Magazine'' and other benefits. So we have about 
two million people who currently contribute.

                             DONATION BOXES

    Mr. Calvert. And people have the opportunity to give when 
they come into any of the Smithsonian Museums, if they choose 
to do so?
    Mr. Samper. This is a relatively new experiment; we have 
added contribution boxes in our various museums.
    Mr. Calvert. Do those monies go into the endowment, or does 
that go in the general----
    Mr. Samper. That goes to support the programs in the 
individual museums. The amount that we are bringing in from the 
contribution boxes is relatively small, about $200,000 a year.
    Mr. Calvert. Are the boxes just displayed where people 
could easily see them, or does anyone actually request a 
contribution?
    Mr. Samper. Right now there are just boxes. No one is 
requesting a contribution, but we have been playing around with 
the design and location of these boxes. I can report that in 
the last 2 months we redesigned the boxes at the Natural 
History Museum. We added a suggested contribution of $5 and put 
them much more upfront, and I am happy to say that we saw a 
substantial increase in the number.
    Mr. Calvert. Do people, I do not even know if they are 
authorized to do this, do people ask for a contribution if you 
choose? I mean, in a polite manner as they come into the 
museum, if you choose to contribute, we have this box over here 
that you can contribute money to?
    Mr. Samper. It is something we have not done. My guess is 
we could certainly encourage people to do this, but as you 
know, our general philosophy for the Smithsonian historically 
has been to have free admission.
    Mr. Calvert. I am not questioning that. I think that is 
important to maintain free admission, but those individuals and 
families that have the resources who may choose to do so, if 
they are given the opportunity, they do not probably, they do 
not see it or they do not know about it. I was going to ask the 
Chairman if he, whether or not there was ever any thought about 
promoting the idea of gifting to visitors who go into the 
various Smithsonian facilities to donate money if they choose 
to. If they do not choose to, they do not have to. I would 
think with, how many visitors did you have last year? Twenty-
four million?
    Mr. Samper. Twenty-four point six million visitors across--
--
    Mr. Calvert. You could probably have----
    Mr. Dicks. The fee idea has been very controversial.
    Mr. Calvert. Well, I do not want a fee, Mr. Chairman, but 
just an ability to, for folks who attend the museum, maybe, of 
the various facilities may want to contribute money.
    Mr. Dicks. Yes.
    Mr. Calvert. I mean, I go to museums all over the country. 
I like museums.
    Mr. Dicks. Yes.
    Mr. Calvert. And I always contribute if asked, and if I 
choose not to, then I do not have to. But----
    Mr. Dicks. Yes.
    Mr. Calvert. Thank you.

                CHANGES IN SMITHSONIAN SENIOR LEADERSHIP

    Mr. Samper. Thank you, Mr. Calvert.
    Mr. Dicks. Well, I am going to ask a question or two, and 
then we will go to Mr. Peterson, let him get focused.
    Let us talk about the reform process a little bit. Now, we 
all know about the departure of the Secretary and the Deputy 
Secretary. Can you review for the Committee the extent of any 
of other changes in the senior leadership of the Smithsonian?
    Mr. Samper. Mr. Chairman, I do not think I have ever been 
in a job where we have had so much change in such a short 
period of time.
    Mr. Dicks. Yes.
    Mr. Samper. Of the top seven positions in the Smithsonian 
five have changed in the last year. In most of the cases I 
appointed acting people to these positions by design. Partly to 
allow the flexibility for the incoming Secretary to do this and 
partly because some of the people I asked to step up to the 
plate wanted to know who they were going to be working for.
    Now that Dr. Clough has been appointed, he has started 
having meetings, and we are looking at this right now. We have 
reorganized a couple areas as you know. When Deputy Secretary 
Sheila Burke departed, I decided to split the administrative 
and finance functions from the history and culture functions, 
which in my view is a much cleaner split than we had before. We 
were fortunate to have Alison McNally step in as the Acting 
Undersecretary for Finance and Administration and Richard Kurin 
to take on the History and Culture.
    Ned Rifkin, who has been the Undersecretary for Art, will 
be departing the Smithsonian this Friday. I have decided to 
revert back to something we have tried in the past, which is to 
fold the art museums into the history and culture portfolio 
because many of these museums are the interface of both, so 
that portfolio is now moving under Dr. Kurin as well.
    So there has been a lot of change. One of our priorities, 
now that Dr. Clough has been appointed, is making the 
appointments that he wishes for his team and stabilizing the 
leadership so we can move forward.
    Mr. Dicks. Mr. Pastor.

                 STATUS OF THE NATIONAL ZOOLOGICAL PARK

    Mr. Pastor. Good morning. I just want to comment on 
Calvert's idea. Most of these museums, there are boxes that if 
someone wants to volunteer and add whatever contribution they 
want, they are there. Possibly they can highlight them more and 
suggest certain donations, but I support the idea of keeping 
the museum free because that is the tradition, and it should 
continue. Maybe what we ought to do is increase the funding 
from this Subcommittee, and it will really help them go a long 
ways.
    So I think it was last year, probably 2 years ago, you were 
having problems up in the National Zoo with maintenance, care, 
health of the animals and then there were personnel changes. 
What is the status today?
    Mr. Samper. Thank you, Mr. Pastor. I am happy to say that I 
think the Zoo has come a long way. We have appointed a new 
director at the Zoo in the last couple of years. His name is 
John Berry, and he is doing a terrific job leading the Zoo, and 
he has established his leadership team. I am very happy to say 
that we have a good team in place now.
    We have also been taking on some of the critical Zoo issues 
like the fire safety. We appreciate the appropriation and 
support that we have received from this Committee to allow us 
to do it. You will see in the fiscal year 2009 appropriation 
request that there is a substantial increase in the funding. We 
are looking at about $20 million of investment that would allow 
us to fix some of the old facilities that we have there but 
also keep addressing the fire safety issues.
    We have made good progress.
    Mr. Dicks. Fire safety is a very serious problem, is it 
not?
    Mr. Samper. Absolutely. I think none of us want to see any 
major issues. Safety across the Smithsonian for our visitors 
and our collections is at the top of our list. We have been 
able to deal with issues like the alcohol collections and 
getting them off to a better place, but clearly fire safety 
with the zoo with the live animals is a key issue.
    Now, we have invested a lot, and I think we have made 
progress. This year we are investing about $8 million in 
upgrading some of these. We still have about another $9 million 
to go to get the fire safety (not including smoke evacuation 
systems) to where it should be. The $9 million for fire safety 
is included in the fiscal year 2009 request.
    We are exploring ways to see if we can actually move some 
of this forward this year, and I am happy to say that designs 
for the fire safety projects are moving along very well. If we 
have the funding or we can release some from the legacy fund, 
we would actually be able to award those contracts this fiscal 
year.
    So I think we have come a long way. We have big plans for 
the Zoo, including the renovations. I do not know if you have 
had a chance to see the new Asia Trail, Mr. Pastor----
    Mr. Pastor. No, I have not.
    Mr. Samper [continuing]. But I would encourage you to come 
and see it. It is very good, and we are now beginning to work 
on the----
    Mr. Pastor. When it warms up a little bit more.
    Mr. Samper. Absolutely. But the pandas do like the cold 
weather.
    Mr. Pastor. I understand, but I am from Arizona and--I have 
seen in major zoos, well, I know that you have Corporate 
sponsors and sometimes bring collections to the art museums, 
you have sponsors, and you know, they are highlighted and given 
credit. But I have seen in major zoos where, when you want to 
rehab say the cheetah pen and make it more natural, that they 
allow a corporation basically to sponsor the renovation, and 
they are given credit, and obviously it is still under your 
control, but the corporation were the donors for that.
    I do not think I have seen it in the National Zoo. Have you 
attempted that or thought about that?
    Mr. Samper. Yes. We certainly have thought about it. We 
have tried it, and I am happy to say in some cases we have been 
successful. I think the best example is the support that we got 
from Fuji Film to support the panda habitat as part of Asia 
Trail, and they are recognized as the Fuji Panda Habitat. So it 
is a fine line as you say between recognizing the contribution 
but at the same time making sure you keep the control over the 
design of the exhibition. And that is what we try to do.
    So we are continuing to explore corporate sponsorships as a 
possibility but doing them carefully.

                        SMITHSONIAN AFFILIATIONS

    Mr. Pastor. I think when we had the National Endowment of 
the Arts Director, one of the issues that he brought forth, and 
I agree with him, is that in our public school system art 
education is suffering tremendously and is getting pushed aside 
by the testing, standardization, achievement. Much to my 
disappointment, I have seen that the Smithsonian's activities 
or the affiliates, I guess, we do not have one in Phoenix. We 
have Tuscan and smaller communities around Arizona that are 
affiliated with the Smithsonian, but I do not see major museums 
or facilities in Phoenix. And so we will work on that.
    What does it take to become an affiliate?
    Mr. Samper. Not that much, Mr. Pastor, and we can certainly 
explore Phoenix as a possibility. We are open to any museum 
anywhere in the country that wants to become an affiliate. We 
ask them to make a contribution, and then we host an annual 
affiliates meeting. The meeting is coming up in a few weeks and 
I will be happy to make sure you get invited. Harold Closter is 
the Director of this program, and if we have a lead or a 
contact from anyone in Phoenix, we could certainly explore 
that.
    We are interested in expanding the representation of the 
affiliates program.
    Mr. Pastor. Going back to my question of art education and 
music education and schools, as the national advocate for the 
arts and culture, have you involved yourself at all in 
developing material or associating yourself with schools so 
that we do not lose the emphasis in art education in our public 
schools?
    Mr. Samper. This is a very important issue. We are all 
concerned about the quality of education in our schools in arts 
and history and science as well. We have addressed education in 
two ways. The individual museums develop materials specifically 
tailored towards schools and to school groups. We are fortunate 
to host about 650,000 school students every year that come to 
the Smithsonian. Of course, that means those who can come to 
Washington.
    Some of these materials are made available in the other 
ways. In the science areas we have developed in the last 20 
years a very successful program called the National Sciences 
Resources Center, which is a partnership with the National 
Academy of Sciences, that is specifically designed to provide 
curriculum materials for schools that are being used right now 
in 20 percent of U.S. schools. We do not have a program that 
size in the arts or culture, but it is certainly something we 
are looking at.
    I am also happy to report that we have now entered into an 
agreement with the Council of Chief State School Officers to 
specifically look for ways that we can collaborate with them, 
and one of the first steps we took was to develop a new website 
that ties the content in our website to the educational 
standards for each of the states. So it is a gateway. Any 
teacher, say in Arizona, can go through there and see what the 
materials are and how they tie in with the standards for 
Arizona.
    Now, that is for the existing materials and clearly as we 
receive additional resources, we want to expand the offerings 
that we have on the Internet.
    Mr. Pastor. Do you offer a virtual tour through any of your 
museums?
    Mr. Samper. We have through some of our exhibitions, not 
necessarily a full museum. Even for museums that do not have a 
building, we are starting to do virtual activities or 
exhibitions. A good example is the new National Museum of 
African-American History and Culture, where there will not be a 
building for another 8 years, but we are already developing 
exhibitions online in partnership with different institutions.
    So we are certainly interested in expanding our presence on 
the web and the materials that we can give.
    Mr. Pastor. Thank you. Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Peterson.

                     SMITHSONIAN MEMBERSHIP PROGRAM

    Mr. Peterson. Yes. Welcome.
    Mr. Samper. Thank you, Mr. Peterson.
    Mr. Peterson. I have just been intrigued, I was not going 
to talk about this, but I have been intrigued by the discussion 
of people giving. You know, I, people from my district, they 
just love the Smithsonian. I mean, that is one of their 
favorite places to go, and I guess I have been a retailer all 
my life and in public. I think you are missing a great 
opportunity, and I guess I would suggest you might establish 
friends of the Smithsonian, with a, you know, and so much money 
is raised today with just a card that you put your credit card 
number in, you sign it, you know, or check attached, you know, 
with an envelope.
    If you have 26 million visitors, if 10 percent had a 
benevolent feeling in their heart, and they gave you $10 a 
piece on an average, you bring in 26 million. If they gave you 
$100, you bring in $260 million. I mean, you are talking real 
money here, and then there is a lot of generous historians out 
there. I mean, people that have made a lot of money and love 
what they see and love this opportunity. I think you are 
missing a huge opportunity.
    But it should not be a fee. It should be, I like this. I 
want more of it.
    Mr. Samper. Yes.
    Mr. Peterson. Tax deduction.
    Mr. Samper. It is a good point, and we actually have a 
membership program that we set up that is tied with our 
Smithsonian membership and our ``Smithsonian Magazine.'' And it 
is one of the benefits that we have. We have about two million 
people who right now subscribe to the magazine and provide a 
donation, I think right now it is $19 for new subscribers, and 
the good news is when you look at all that, we do get a net 
revenue from our magazine activities of about $12 million every 
year that we use to support the mission directly.
    In addition to that, there is one unit that has developed a 
friends program, the Friends of the National Zoo here locally.
    Mr. Peterson. Yes.
    Mr. Samper. They have a program. I am a member, and I think 
many of us with small children in the District are members. We 
contribute, and that is also successful, but we can certainly 
expand this. As we gear up for a national campaign, I think the 
opportunity, which I see as you do, is to take this base 
membership of our visitors and try and get them to give 
additional contributions.

                          ENCYCLOPEDIA OF LIFE

    Mr. Peterson. Just friends of. It is like it is not an 
annual thing. I am just, this is today. And so when I visit, I 
come back 4 years later with my kids, and I pick up another 
card, and I mean, you are going to have people that are going 
to write big checks. Do not underestimate it. I mean, people 
love to go to the Smithsonian. And they love their 
grandchildren to go to the Smithsonian. So I mean, I just think 
it has huge potential, but make it simple. Do not make it 
complicated.
    You embarked some time back on an effort to digitize the 
Smithsonian collection so that the public can have access 
online. I also note that you have been given a very generous 
private gift from the McArthur and Sloan Foundation to digitize 
the collection of the Natural History Museum. I believe it is 
entitled, Encyclopedia of Life. Can you tell me how those 
efforts are proceeding?
    Mr. Samper. Yes. We are making slow but steady progress in 
digitization. I think one of the great things of the 
Smithsonian is the collection, but the vast majority of that 
collection is behind the scenes and not necessarily available 
to people out there. So digitizing some of this collection is a 
top priority.
    We have made progress in some of the natural history 
collections as you mentioned, digitizing what we call the type 
specimens, which are the original specimens used to describe a 
species. We also have a Smithsonian Photography Initiative that 
has allowed us to digitize some of our photographic 
collections. Although we are making some progress, it is an 
area where historically we have underinvested. I do see 
tremendous potential here in terms of getting more of our 
content out.
    We put together a digitization group to study this and 
determine the priorities. We have their report and we have made 
some budget requests to try to see increases that focus 
specifically on digitization of the collections.
    The Encyclopedia of Life is a project that happens to be 
close to my heart, because I am the principal investigator on 
that project. And as you point out, we were fortunate to get a 
total of $25 million in support from two private foundations 
for the project. It will be tied to our collections, but the 
concept is relatively simple: create a web page for every known 
living species on the planet, 1.8 million pages. We have 
launched the prototype with the first 35,000 pages just a few 
weeks ago. It is up and running, and I think this will be a 
great opportunity to link the Smithsonian to school children 
across America, bringing our content to them.
    One of the components is digitizing the libraries; we have 
almost one million volumes in our libraries with a lot of the 
original descriptions that are not easily available to people. 
So our goal is to digitize about 50 million pages of the 
literature and put them up for free on the Internet.
    I am very inspired by this project, and we need to 
replicate it in other areas--in arts and culture--and I think 
that is where the future lies for the Smithsonian.

                           HISTORY OF ENERGY

    Mr. Peterson. One area I was surprised my last time there, 
of course, I have not seen it all, but we do not really have 
much on the history of energy, and you know, energy is the 
issue of the day. It is going to be the issue of the day for a 
long time to come, and I happen to come where the energy thing 
started. I was born a mile from the first oil well in America, 
Drake Oil, so I guess the history of oil has always been 
intriguing to me.
    But I was, you know, it changed America. It changed the 
world. Energy is, there is nothing, you know, the second thing 
probably is computers that has changed the world, but nothing 
changed the discovery of modern sources of energy.
    Is there any plan to expand our energy history?
    Mr. Samper. We certainly have some important collections at 
the American History Museum focusing on the area of energy, but 
I think it is the earlier history, not necessarily some of the 
recent history as you have mentioned.
    Mr. Peterson. Well, we should have it the complete history 
of how----
    Mr. Samper. I think it is a good point. I am not aware of 
any short-term, immediate plans to focus on this, say, for an 
exhibition, but let me take that away as a suggestion. I will 
make sure I convey it to our Director of the Museum of American 
History.
    Mr. Peterson. It is certainly a time when some of the 
energy giants who are going to do very well for a long time in 
the future could be very big benefactors and could help us 
prepare. Today is the time I think. I mean----
    Mr. Samper. Point well taken.
    Mr. Peterson. Thank you.
    Mr. Samper. Thank you.
    Mr. Dicks. Mr. Goode.

                   SMITHSONIAN STUDENT TRAVEL PROGRAM

    Mr. Goode. Thank you, Mr. Chairman, and thank you for being 
here, Mr. Samper.
    Mr. Samper. Thank you, Congressman Goode.
    Mr. Goode. I know Congressman Moran touched upon this. 
Your, you have a license or a contract with a French firm. I 
believe it is called E. F.?
    Mr. Samper. E. F. Travel.
    Mr. Goode. Yes.
    Mr. Samper. Yes. This is a licensing deal that was entered 
into by Smithsonian Business Ventures. We covered this before. 
This company is registered in the United States as well and----
    Mr. Goode. But most of the owners of the company are not in 
the United States.
    Mr. Samper. They have foreign interests, but they are 
registered in the United States, but, yes, we have that, and I 
was mentioning to Mr. Moran----
    Mr. Goode. How many people do you think E. F. Travel 
employs totally?
    Mr. Samper. I do not know the answer to that, Mr. Goode, 
but I am happy to get that information to you.
    Mr. Goode. All right. Because I cannot tell you how much it 
rankles me for federal agencies just like, and I do not know 
who sent the passport work to some foreign country, but that 
really irritates me, too and it really irritates me when I see 
Smithsonian licenses its name to and E. F. Travel. If you are 
going to do that, my lands, why do you not pick a U.S. company?
    Mr. Samper. I think we have heard your concerns and I was 
telling Mr. Moran, Mr. Goode, that we have we just had a 
meeting in the last couple of weeks with about eight of the 
student travel organizations, American institutions. We are 
looking at their concerns, trying to make sure that we----
    Mr. Goode. But you have an agreement with E. F. They are 
able to stamp, Smithsonian'' on their handbag carts. Am I not 
right?
    Mr. Samper. They have a licensing deal that allows them to 
use the Smithsonian name in their marketing.
    Mr. Goode. No. I mean, E. F. does, but let us say one of 
the U.S. firms wanted to stamp Smithsonian across their 
brochure. You know, the first time I saw E. F.'s brochure, I 
thought it was a brochure you all put out.
    Mr. Samper. Yes. You are correct. The way that that 
licensing deal was structured does give E. F. the exclusive use 
of that name for the period of time of that license. What they 
do not have is any----
    Mr. Goode. Do you think----
    Mr. Samper [continuing]. Additional benefits.
    Mr. Goode [continuing]. China will give a U.S. company the 
right to stamp on its brochure, ``Shanghai''? Probably not.
    Mr. Samper. Probably not but I am not the person to answer 
this.
    Mr. Goode. Do you think that France is going to give a U.S. 
company the right to stamp on its brochures, ``Eiffel Tower''? 
Send your dollars to one of the firms here in the U.S., and 
then we will get your students fixed up to tour the Eiffel 
Tower. Do you think they are going to do that?
    Mr. Samper. Probably not.
    Mr. Goode. Probably not.
    Mr. Samper. What I will say, Mr. Goode, is we have heard 
your concerns and that of other members, and we are looking at 
this. As I mentioned, we are now having meetings with the U.S.-
based companies in student travel. We are trying to see what 
steps we can take within the parameters of this license to help 
them and certainly we will not be looking at entering into this 
agreement as a sole source going forward.
    Mr. Goode. Well, let me ask you this. Can you get E. F. 
Travel to stamp on their brochure, now, I have not looked at 
all of the details of the license agreement, to get them to 
stamp on it, E. F. Travel, under, where they have got, 
Smithsonian, they can drop on down there and say, this is a 
French company, not a U.S. company. I do not think that would 
be prohibited.
    Mr. Samper. Probably not and we have in the conversations 
we have had with the U.S. student groups----
    Mr. Goode. Yes.
    Mr. Samper [continuing]. There have been some suggestions 
about how to make sure that the materials clearly specify that 
this is not operated by the Smithsonian, but it is a license.
    Mr. Goode. Well----
    Mr. Samper. We have some specific suggestions that have 
been put forward, and we are looking at them.
    Mr. Goode. All right. And do I have any time?
    Mr. Dicks. Certainly. Go ahead.

          REOPENING OF THE NATIONAL MUSEUM OF AMERICAN HISTORY

    Mr. Goode. When is the American History Museum going to be 
up and running?
    Mr. Samper. The current date that we are looking at, Mr. 
Goode, is November.
    Mr. Goode. Of this year?
    Mr. Samper. Of this year. Yes. It did slide a few months 
from the original plans. Unfortunately, even though this is one 
of our more recent museums, it is 40 years old, and when we 
started going in there to open the central core, we ran into 
asbestos and lead paint, and that set us back a few months. But 
we are looking at November. It will be a great addition.
    Mr. Goode. I had a couple of citizens ask me why you did 
not do a floor at a time, but you answered it. If you have got 
lead paint and asbestos in there, you could not work on one 
floor at one time.
    Mr. Samper. Correct. That was the challenge, and it was 
part of what was unexpected, but we are committed to reopening 
as fast as we can.
    Mr. Goode. All right.
    Mr. Samper. And because we are aware of constituents and 
visitors who come to see some of the collections, we have taken 
150 of the treasures of American history and put them on 
display at the National Air and Space Museum. So someone who 
comes here and wants to see the Lincoln top hat or some of the 
other historic collections can go there. So they are on display 
even--
    Mr. Goode. You mean the one right below the botanical 
garden?
    Mr. Samper. Yes. Air and Space. So at least 150 of the 
iconic treasures are on display, because we are aware that when 
we get a visitor coming out from California or other places to 
Washington, they want to see them. We want to make sure they do 
not miss that opportunity.
    Mr. Goode. All right. Thank you, Mr. Chairman.

        ROBERT SULLIVAN ARTICLE--SMITHSONIAN EDUCATION PROGRAMS

    Mr. Dicks. Robert Sullivan wrote an article in the outlook 
section of the ``Washington Post'' on Sunday, April 1, 2007, 
and in that he said, ``Eliminating the education office was a 
critical management error.''
    Do you agree with that?
    Mr. Samper. I do not think that closing that education 
office at Natural History as it was structured at that time was 
a critical management error. I came to that conclusion after a 
lot of review and thought over several years, including 
consultations with Mr. Sullivan, I might add. What I can tell 
you is that I made my decision so we could completely 
restructure and reorganize the way we tackled education. I am 
very happy to say that starting next Monday we will have an 
Assistant Director focusing on education and outreach at the 
National Museum of Natural History. And we are starting to 
rebuild this office the way it should have been handled before.
    Certainly education is critical. I think it was being 
handled the wrong way.
    Mr. Dicks. He goes on to say, ``The next Secretary will 
have to take the Smithsonian's educational mandate seriously. 
The Smithsonian's collections, working scientists, and global 
research stations represent an untapped resource for improving 
science education on a national level at this time of urgent 
educational need. This immense potential has remained dormant 
under the current Smithsonian administration.''
    Do you see that changing?
    Mr. Samper. It is beginning to change, but I fully agree 
that really harnessing the full power of the Smithsonian in 
terms of education is very important, and not only informal 
education with our visitors, which is what we have done. How 
can we connect our content with the schools--and the issues 
that we were discussing with Mr. Pastor. I have told Dr. 
Clough, the incoming Secretary, that taking a hard look at our 
education and the way we manage it has to be one of the 
priorities.
    Mr. Dicks. He also goes on, and he mentions that he thinks 
that the website is underdeveloped. Do you agree with that?
    Mr. Samper. Yes. I do, Mr. Chairman.
    Mr. Dicks. And are we doing anything about that?
    Mr. Samper. We are chiseling around the edges, and there 
are a few good areas, such as the Encyclopedia of Life, which 
is something important. We are fortunate to have 180 million 
web visitor sessions to our websites, but we have never 
seriously invested in our efforts in education and outreach 
through the Internet. This is a relatively new technology, as 
you know, which provides incredible opportunities, but we have 
focused so much in seeing the Smithsonian as a destination and 
an exhibition, that we have never made the same kind of 
investments in the web.
    So I do believe that the web, where we have under invested, 
is an area that has tremendous potential for the Smithsonian. 
With your support and private donors, we will try new 
initiatives, like the Encyclopedia of Life.
    Mr. Dicks. Dr. Clough does not have to be confirmed. Is 
that correct?
    Mr. Samper. That is correct.
    Mr. Dicks. So he will come in July?
    Mr. Samper. He starts July 1.

                           REGENTS' OVERSIGHT

    Mr. Dicks. The review of the Smithsonian conducted last 
spring and summer was highly critical of the Regents' level of 
oversight during the tenure of the last Secretary. Basically 
they said the Regents kind of were not there. How have the 
Regents dealt with this concern? I know they have been very 
active. I think they have done a good job of making the changes 
in the governance, but give me your evaluation. Does this still 
have to improve more?
    Mr. Samper. I think we have come a long way, Mr. Chairman. 
Of course, my experience with the Regents is limited to the 
last 13 months.
    Mr. Dicks. Yes.
    Mr. Samper. What I can tell you is that we have a very 
engaged Board of Regents right now. I cannot speak to how they 
were 4 or 5 years ago, but certainly right now I think 
important changes have been made: the appointment of a separate 
Chairman of the Board of Regents, the restructuring of the 
Regents' committees, the appointment of a new Regent like Mr. 
McCarter. I should add that I have been very impressed with the 
level of engagement of activity that we have had from the 
Congressional Regents.
    Mr. Dicks. We certainly feel that up here.
    Mr. Samper [continuing]. It has been very important for us, 
and I can tell you that those members, those three members from 
the House who sit on the Board of Regents, are certainly 
expressing many of these concerns there at the table. They are 
not just----
    Mr. Dicks. Yes.
    Mr. Samper [continuing]. Relaying information here. They 
are taking views from the Hill to the Regents.
    Mr. Dicks. In evaluating the idea of having the Vice-
President and the Chief Justice as Regents, just because those 
jobs are so immense, is that still appropriate, do you think?
    Mr. Samper. Conceptually it made a lot of sense in that 
when the Smithsonian was created in 1846, the idea was to have 
representation from the three branches of government, and I 
think that still holds true. I have personally been very 
impressed with the level of engagement and thoughtfulness of 
the Chief Justice, I have been meeting with him pretty much 
every other month for the last year, talking about these 
issues, and he is very engaged. And in my view he brings a 
longer-term perspective to these issues, and I find his 
contributions valuable. He is certainly a very busy man, and I 
think that is why the creation of a position of the Chairman 
separate from the Chancellor was a very important step forward, 
and I think it is beginning to work.
    Mr. Dicks. What is that supposed to do for us?
    Mr. Samper. The oversight and the interaction on a day-to-
day basis in the management of the Smithsonian is something 
that could not be there. As you point out, the Chief Justice is 
very busy with other duties----
    Mr. Dicks. Right.
    Mr. Samper [continuing]. And responsibilities, and even if 
I see him every other month, there are questions that as Acting 
Secretary I have on almost a daily basis that I want to 
discuss. Now with the appointment of a Chairman of the Board, 
Mr. Roger Sant, I am in contact with him two or three times a 
week about critical issues. So the level of oversight and 
engagement is better.
    Mr. Dicks. How are the Secretary and Mr. Sant supposed to 
interact together? How does that work? Is it like a team, a 
partnership, a CEO and a Chief Executive Officer?
    Mr. Samper. In my view it is a partnership, but I think it 
is very important to keep a very clear distinction between the 
governing Board and the management. A natural response when we 
go through a time of crisis, you tend to overcompensate. I have 
been very candid with the Board of Regents where I think in 
some areas they have overstepped their mandate into the 
management, and I think we have to find that balance going 
forward. In some areas we are there, and in others we still 
have to find that right balance.

                  PROCEEDINGS OF THE BOARD OF REGENTS

    Mr. Dicks. And one other, the Regents agreed to conduct 
their proceedings in a more transparent fashion. Can you tell 
us about efforts to increase transparency and governance in 
general and about the commitment to open meetings in general?
    Mr. Samper. Yes. I think the proceedings of the Board of 
Regents were something that has not been clear or open to 
people outside or even inside the Smithsonian. We have taken 
steps to improve this. One step that has been taken is to post 
the minutes of the meetings of the Board of Regents. The 
minutes are now publicly available on a website that we have 
created for the Board of Regents. If you had gone on our 
website a year and a half ago, you 3would have had a hard time 
finding any of this information.
    Mr. Dicks. Now, we have a question on that. Apparently the 
January meeting of the Regents has not appeared.
    Mr. Samper. I believe that is correct because they have not 
approved the minutes. They will approve them at their May 5 
meeting. As soon as they approve the minutes of the meeting, 
they will post them, and that will happen in May.
    Mr. Dicks. But if it is months later, I think there ought 
to be some way to fix that. I think that is too long a period 
of time. I mean, maybe Mr. Sant can review it on--behalf of the 
Regents and approve it being put on the website. I think 5, 6 
months makes it look like it is not transparent.
    Mr. Samper. I take your point. I will be happy to convey 
your point of view to Mr. Sant. It will not be 5 or 6 months 
because, as you know, the Board of Regents is now going to 
start meeting or has started meeting quarterly.
    Mr. Dicks. And also the agenda for the May meeting has not 
been posted either.
    Mr. Samper. Probably not. The Executive Committee of the 
Board of Regents which approves that agenda is meeting on the 
24th. As soon as they meet, the agenda will be made public.
    On the other issue that you mentioned, the Regents have 
made a commitment to hold a public meeting every year as a way 
to share the proceedings and also to solicit input. And last 
year the Board of Regents held a public forum that focused 
specifically around the topic of the search for the Secretary 
to discuss the profile and the characteristics and solicit 
comments. I think that was a step in the right direction, and 
they are currently planning at some point this fall, once Dr. 
Clough is on board as the permanent Secretary, to have one of 
their meetings in public, either in September or November.
    Mr. Dicks. Yes. We were concerned about that because we had 
not seen it on the calendar.
    Mr. Samper. They decided to wait to make sure Dr. Clough as 
the permanent Secretary is on board. They are still discussing 
the date.

           SMITHSONIAN UNIFIED COMPENSATION AND LEAVE SYSTEM

    Mr. Dicks. One of the most serious concerns last year 
related to the significant number of Smithsonian employees 
being paid far in excess of other government-funded employees. 
In response, the Regents adopted a unified compensation and 
leave system for the Smithsonian with pay more in line with the 
federal pay scale.
    Can you explain how this system will work and how current 
employees with salaries above the level will be treated?
    Mr. Samper. Yes, Mr. Chairman. This is one of the key 
governance reforms, and we spent a lot of time at the end of 
last year working on this issue. The Regents did, indeed, 
develop what we call the unified compensation approach, where 
we established that there were two criteria to be used in 
classifying any position for a senior manager at the 
Smithsonian. The main test is whether this job has an 
equivalent in the Federal government, and the second is whether 
there is a substantial number of candidates that would be 
available from a federal pool.
    We then reviewed all the senior executive positions across 
the entire Smithsonian and we classified the positions into two 
groups. A few positions are what we call market-based 
positions, which clearly do not have an equivalent or a 
function in the Federal government, and the others fell into 
the federal-equivalent category.
    Following that review of the top positions in the 
Smithsonian, we determined there are a total of 66 positions 
that we consider should be market-based, 51 of which have 
incumbents with salaries above the Federal senior level pay 
cap. That includes primarily the Secretary, Under Secretaries, 
and the Directors of the museums, which have substantial 
fundraising components and where there is significant 
competition from other museums that are privately run. And we 
categorized 38 positions that we will now consider to be 
federal equivalents. For those positions, because in some cases 
there are incumbents who have salaries above the senior level 
salary for the Federal government, the Board of Regents 
determined that there is a 5-year transition period with 
grandfathering so that those people who came in with a contract 
will not necessarily see an automatic cut. We want to honor the 
contracts they had, but over a period of 5 years, and if any of 
those people leave and are replaced, we would advertise within 
the new market, in this case using a federal-equivalent 
compensation approach.
    So we are implementing----
    Mr. Dicks [continuing]. Any impact on----
    Mr. Samper. We are beginning to see it. I think we will be 
losing some of our employees, people who had an expectation of 
a career path with salaries that were substantially higher than 
the federal pay cap. There is one case that I am aware of at 
this point where one of these employees, our Chief Technology 
Officer, has actually indicated he intends to leave the 
Smithsonian because of this change in compensation.
    Mr. Pastor. Mr. Chairman.
    Mr. Dicks. Yes.
    Mr. Pastor. It is all in the January minutes.
    Mr. Dicks. It is in the January minutes. Okay.

                       MANAGEMENT OF EXPENDITURES

    There have been recent reports about the use of Smithsonian 
funds to pay for high-cost travel and inappropriate use of 
funds for purchase of personal portraits. What changes have 
been put in place to more aggressively manage these type of 
potentially controversial expenditures?
    Mr. Samper. Very soon after I took over, we issued some 
interim guidelines. We are now following the Federal Travel 
Regulations for all of our employees, whether they are federal 
or trust employees. We are making sure that there are the right 
procedures and approval levels for this.
    I am happy to say that we have now conducted a 
comprehensive review of our top 60 employees around the 
Institution, and the case that you referred to was clearly an 
anomaly. Most of the Directors of the Museums are using the 
funds wisely. My own experience as a Director of a Museum is I 
have to raise the money that I use for travel, so I tend to use 
it very wisely.
    In terms of some of the contracts for, say, the portrait 
that you are talking about, we are making sure that we follow 
the best practices and procedures, and we are about to issue a 
new contracting policy, which will be reviewed in May for the 
Regents' meeting. I think that will help close any loopholes. 
But I am happy to say that these are exceptions and not in any 
way widespread.
    Mr. Dicks. Mr. Tiahrt.
    Mr. Tiahrt. Mr. Chairman, I think I will just review 
January's notes. I do not have any more questions, Mr. 
Chairman. Thank you.
    I would like to say, though, that I think that Secretary 
Samper has done a very good job in coming into this position 
and filling some big shoes, and I think it is a tough job, and 
you have done very well, and I am glad you are staying on with 
the Smithsonian. I would just like to reflect that in the 
record.
    Mr. Samper. Thank you very much, Mr. Tiahrt.
    Mr. Dicks. I concur with that. I think that you are 
absolutely right.
    Mr. Samper. I look forward to returning to my position as 
Director of the Natural History Museum.
    Mr. Pastor. More regular hours probably.
    Mr. Samper. I will have a few more nights with my family 
and my 2-year-old daughter, which is something I will welcome.

 STATUS OF THE NATIONAL MUSEUM OF AFRICAN AMERICAN HISTORY AND CULTURE

    Mr. Dicks. Can you update the Committee briefly on the 
status of the planning for the African American Museum, in 
particular the status of the fundraising effort?
    Mr. Samper. Yes. The National Museum of African American 
History and Culture is at the early stages of design. We are 
currently doing the scoping document and designing the 
parameters of the museum, what the main program will be. This 
is key in terms of using these plans as an input for the actual 
design of the building.
    I am happy to say that some of the fundraising activities 
have begun. Most of the members of the Council who were 
appointed have made generous contributions, and we have a 
nucleus fund that is being used to support some of these 
activities.
    Clearly, the major fundraising phase of this museum will 
not start until we actually have something to put in front of 
people in terms of the design of the facility. Our commitment, 
as we were directed in the legislation, is to go out and raise 
half of the funds for construction. The whole project will 
require us to raise about $250 million over the next 5 years, 
and we are hopeful that with the very able Director that we 
have in Mr. Lonnie Bunch and some of the members of the 
Council, we can take up this challenge.
    Mr. Dicks. Anyone want to ask any further questions?
    Mr. Goode.

                FEDERAL CREDIT CARDS AT THE SMITHSONIAN

    Mr. Goode. Thank you, Mr. Chairman.
    Let me ask you this, with the Smithsonian, how many persons 
have credit cards issued by the Federal government that work 
for the Smithsonian?
    Mr. Samper. Let me turn around to my support team here. I 
do not know the answer off the top of my head. My guess is 
several hundred if you are including travel cards and purchase 
cards. I will be happy to get that information for you.
    Mr. Goode. My experience has been if they have to pay for 
it themselves first and get reimbursed, a lot of times, it is 
easier to spend with a credit card than to get reimbursed.
    Mr. Samper. I think you are correct, and I can tell you my 
own experience as someone that holds a travel card from the 
Smithsonian, that I pay the bill when it comes, and then I get 
my reimbursement.
    Mr. Goode. All right. Well----
    Mr. Samper. So I think we have got that in place.
    Mr. Goode. As someone who could get a credit card from a 
Federal government, I do not have one and no one in my office 
has one.
    [The information follows:]

           Number of Credit Cards Issued to Smithsonian Staff

    As of April 2008, the Smithsonian Institution has issued 2,753 
Travel Cards and 728 Purchase Cards.

                 DEACCESSIONING SMITHSONIAN COLLECTIONS

    But let me jump to another area. I read several years ago 
that the Smithsonian, and this may have been 25, 30, years ago, 
that in some areas you had so much in the way of collections 
that you just burned up things or sunk them in the Potomac. Is 
there any truth to that?
    Mr. Samper. Not that I am aware of, but we have been around 
for 160 years. Certainly not in the recent past. We do de-
accession collections but certainly in the collections I have 
seen----
    Mr. Goode. When you do that, do you sell them, or do you 
destroy them or----
    Mr. Samper. Usually it depends on the collection but in my 
experience as Director of the Natural History Museum, what we 
tend to do, if the collection has scientific value or 
educational value, is to give it to other museums. So we look 
for regional museums and give them some of these collections 
that are no longer of use to us. There are cases where there 
may be some specimens that may not have the right information 
or may not be useful for that purpose. In some cases we will 
destroy some specimens. But it tends to be a handful--I think 
the majority of it are loans and exchanges, which is the way 
that we do this. And there are some cases I am aware of in art 
or other areas where we may work with an artist, take one piece 
and give it back to an artist in exchange for another piece 
that will enhance the diversity of our collections.
    Mr. Goode. Our college, the University of Virginia law 
library, and this was, again, many years ago, they would get 
collections of books, and they eventually got overrun with 
books, so they threw some of the old books in the dumpster or 
destroyed the books.
    And I know sometimes with collections, I do not know, maybe 
it is not too much with you, you have to, you want one or two 
items out of a collection that enhances the Smithsonian's 
treasures, but you do not want the whole thing, but the person 
wants you to take the whole thing, and if you do not take the 
whole thing, you may not get the few you want.
    Now, that may not be the usual situation, but that can be, 
and on those do you destroy, do you sell them on eBay, or do 
you just give them to somebody that----
    Mr. Samper. There are some cases like the ones you 
mentioned where there may be a large collection where there are 
just a few items that are of interest to us.
    Mr. Goode. Right.
    Mr. Samper. I think in general, at least my experience has 
been that we try and just get that part of the collection. If 
we cannot, we will often turn around and give the rest of the 
collection usually to a regional museum. At least that has been 
the practice in our natural history collections.
    I am certainly not keen on putting any collections in the 
dumpster if I feel they have value for anyone else to use, 
either scientific or educational. I think that is the standard 
practice, and we are looking at a couple of cases right now. 
For example, the Postal Museum, which is a wonderful collection 
of stamps, is actually missing, if I recall correctly, I think 
two stamps for a complete set, and there is a collection that 
has been offered, if we find the right donors, that would 
actually allow us to have those two stamps. It is an 
interesting example.

                      SMITHSONIAN STAMP COLLECTION

    Mr. Goode. Do you have the two Z Grill stamps? You know, 
that is probably the rarest.
    Mr. Samper. Richard, do you know?
    Mr. Kurin. I do not know about that. I know we have two 
inverted Jennys.
    Mr. Goode. You have two of them?
    Mr. Samper. Yes. We have those.
    Mr. Goode. But the Z Grill I think from 1873, was 
probably--you had it on display over there. You had it.
    Mr. Dicks. What is the Z Grill?
    Mr. Goode. It is a grill that is long, bigger than the 
usual grill that was on the stamps. The grill was only on the 
stamps in about the 1870s. It would soak up ink so they could 
not erase it and reuse the stamp.
    Mr. Samper. I did not know that. That is certainly far from 
my expertise, but one of the things I have learned is I know 
who to ask, and I can certainly ask that question, Mr. Goode.
    Mr. Goode. Joe Pitts can really tell you.
    Mr. Samper. Thank you.
    Mr. Dicks. Mr. Pastor.

                   LOCATION SELECTION FOR NEW MUSEUMS

    Mr. Pastor. The question I had is we talked about the 
African-American Museum, and there is going to be a Latino 
Museum proposed. And I love museums. I guess we will come to 
the Energy Museum.
    What, the locations, I am assuming people are going to want 
them on the Mall, and there is some limitations. So how is it 
that you work out these locations and----
    Mr. Dicks. Carefully.
    Mr. Pastor. I know it is carefully but I just, you know, 
what process?
    Mr. Samper. Well, this is a serious issue you point out. 
Let me take the example of the National Museum of African-
American History and Culture. The legislation that authorized 
us to move forward with this actually identified four possible 
locations. The Commission that was established to study this 
and the Advisory Council weighed the pros and cons of these 
various locations. The Arts and Industries Building was one of 
the possibilities. There was a site that belonged to the 
National Park Service, which is between American History and 
the Washington Monument, which ended up being the preferred 
location. There was another one across from the Botanic Garden, 
and there was another one that was close to the river off the 
Mall.
    And I think you point out correctly that everyone wants a 
museum on the Mall, and there are not many sites. I think as we 
are engaging in this discussion about the future of the Mall 
and what we want to do here, there are going to be limited 
options, and we will have to look for alternatives. It is one 
of the big issues that any future museums will need to be 
examining, and monuments as well, because there is no doubt 
that we are running out of space.
    Mr. Pastor. I do not know if there is such a body that 
looks at the Mall, what is currently there and has future 
predictions, and I guess if there is one, do you have a seat on 
that body?
    Mr. Samper. There is certainly a lot of interest in this, 
the National Park Service is currently holding sessions and 
looking at options for the future. We consult with them 
regularly, and there are also non-profit groups that are 
interested as well, a group called the Mall Conservancy and 
also NCPC, the National Capitol Planning Commission.
    Mr. Pastor. But who has the main jurisdiction to 
determine----
    Mr. Samper. The National Park Service.
    Mr. Pastor. The National Park Service.
    Mr. Samper. Yes.
    Mr. Pastor. Thank you, Mr. Chairman.

        ROBERT SULLIVAN ARTICLE--PUBLIC INTEREST IN NEW MUSEUMS

    Mr. Dicks. Let me ask you. Going back to this Sullivan 
article again, he says here, ``Consider these recent failures. 
The inflated attendance and income projections used to justify 
the Steven F. Udvar-Hazy Center, the National Air and Space 
Museum companion facility near Dulles, were woefully 
optimistic, and the resulting income shortfall has become a 
financial strain on the Smithsonian. The confusing light-on-
content exhibits of the National Museum of the American Indian, 
have failed to sustain public interest. Attendance has sunk by 
50 percent since the museum opened in 2004.''
    I mean, are you concerned that here we are with these two 
major projects that have not in essence lived up to 
expectations? And what can we do about that?
    Mr. Samper. We are looking at them, but in my view I think 
both the American Indian Museum and the Udvar-Hazy Center have 
been successful museums. They can still be improved.
    Mr. Dicks. But the attendance has not been what you would 
like.
    Mr. Samper. Well, it depends on some of the projections. 
Take the case of Udvar-Hazy. Some of the projections that were 
looked at assumed that there was going to be Metrorail out to 
Dulles Airport.
    Mr. Dicks. Yes.
    Mr. Samper. And that is a major assumption that did not 
happen. Udvar-Hazy is taking a million visitors a year right 
now, and ven though it may not have been everything we wanted, 
still makes it one of the most visited museums in the world, 
certainly in the United States. So I think that is non-trivial.
    There is no doubt that the attendance will increase if 
Metro is built out there. Both General Dailey and the advisory 
board of the museum have taken steps with the airport authority 
to look at new signs and new advertisements to drive more 
traffic there.
    The American Indian Museum is also doing well. The drop off 
after you open any new museum is inevitable. We always see it.
    Mr. Dicks. Yes.
    Mr. Samper. There is a novelty effect. There have been 
legitimate concerns and different points of view about the way 
you present some of these exhibitions, and I think that is part 
of what makes curatorial work so important. The new Director of 
the American Indian Museum, who I appointed, Kevin Gover, is 
aware of some of these concerns, and he is currently beginning 
a process to look at the way some of the exhibitions are done, 
and he recognizes that increasing attendance is one of his 
priorities.

                      USE OF ENDOWMENT FOR REPAIRS

    Mr. Dicks. According to figures given to the Committee last 
week, the Smithsonian endowment increased $156 million last 
year to a total of just under a billion. Unrestricted endowment 
balances rose $41 million to just under $400 million.
    If the facility backlog is so serious, why shouldn't a 
significant amount of the endowment go toward these repairs?
    Mr. Samper. It is certainly one of the options that the 
Regents have been considering, either doing a one-time payment 
or increasing the payout. The concern is the long-term 
viability of the endowment. As we have seen in the last few 
weeks part of the reason you want a lower payout is to make 
sure that it protects you in the downtimes.
    Mr. Dicks. Yes.
    Mr. Samper. And that is what we are looking at. We have 
seen the value of----
    Mr. Dicks. Because the market goes up and down.
    Mr. Samper [continuing]. Our endowment dip by tens of 
millions of dollars in the last few weeks, but we are in this 
for the long term.
    The challenge is, as you pointed out correctly, the 
majority of that endowment is restricted gifts for particular 
museums or activities. There is a portion that is unrestricted. 
The challenge is that that unrestricted income is used to cover 
some of the key salaries, for example, the Museum Director 
salaries. If we were to move that toward the facilities, we 
could certainly examine that. The question is how are we going 
to cover the shortfall for the other activities?
    Having worked and struggled this year in looking at some of 
the activities in the central trust budget, and even trying to 
free up $1 million to support what we call the Scholarly 
Studies Program, I could tell you that was a major piece of 
work.
    We need to look at it because these are legitimate costs 
that the Smithsonian will have, and if we move some funds to 
one category, we have to find alternatives for the others.
    Mr. Dicks. Any further questions?
    Mr. Pastor.

                            LOANED ARTIFACTS

    Mr. Pastor. I want to congratulate you on this beautiful 
carving. I got a chance to see it. It is a beautiful carving, 
and I know on occasion museums and art museums will lend to 
governmental units----
    Mr. Dicks. That is the case here. This is from the Bureau 
of Indian Affairs.
    Mr. Pastor. It is a beautiful piece. Maybe either the east 
wing or the west wing of the Art Museum could give you a couple 
of Pollacks or----
    Mr. Dicks. We will work on that. Mike Stephens is in charge 
of the art.
    Mr. Pastor. Okay.
    Mr. Samper. Just let me mention, Mr. Pastor, that we do 
actually loan some of our collections. The National Gallery 
does not do it, but we will and have loaned some of these 
pieces.
    Mr. Dicks. We could have a few of these invasives here, 
too.
    Mr. Samper. We hope we can keep them in the case, Mr. 
Chairman, and dead. These are the ones we want dead. I do want 
to mention several of my colleagues who work with collections 
are here. So if any of you have a few minutes, I think hearing 
about these objects from our specialists is something that, as 
you know, I believe in very strongly.
    Mr. Dicks. Yes.
    Mr. Samper. It is the specialists who make the objects in 
the collections come alive, so if you have 5 minutes, please 
take a look. This does not happen every day. So thank you.
    Mr. Tiahrt. Is the Tucker automobile on loan capability? 
Can you get that?
    Mr. Dicks. Okay. We are going to have one outside witness 
to testify, and then we will do it. Why don't we do it like 
that? Is that all right?
    Mr. Samper. Fine. Yes, Mr. Chairman.

                            OUTSIDE WITNESS

    Mr. Dicks. All right. Thank you. And we are going to call 
up our former colleague, Tony Beilenson, who had requested a 
chance to testify as an outside witness. We could not work out 
the schedule for the other day, but he is here today, and I 
wanted to give him a chance to make a brief statement.
    Tony, nice of you to be here. Yes.
    Mr. Beilenson. It is kind of you, Mr. Chairman.
    Mr. Dicks. Yes.
    Mr. Beilenson. I do not want to intrude, but I care greatly 
about the Smithsonian as my former colleagues know. I have had 
the privilege the last 12\1/2\ years of serving on the Board of 
Commissioners in Curley as the Vice-Chairman of the Board of 
Commissioners of the National Portrait Gallery, which is a 
small but wonderful unit of the Smithsonian and is part of that 
redoing of the Patent Office Building, which was alluded to 
earlier, and it is just, it is a magnificent place for those of 
you who have not had the chance to visit it since it reopened 
back in June or July. I urge you to go there.
    I just wanted, this will not take more than a minute, Mr. 
Chairman, but I wanted to put in a good word in general for the 
Smithsonian, most especially for the Regents, whom I guess are 
not here today, include as, again, you have alluded to, several 
distinguished colleagues of your own.
    I think the Board of Regents as it is currently constituted 
and as is currently acting, deserves an enormous amount of 
credit, starting with the wise and inspired choice as Acting 
Secretary of Dr. Samper, who has more than fulfilled any 
reasonable expectations and hopes of outstanding service in 
that capacity. And I must say I think it is----
    Mr. Dicks. We agree with you on that.
    Mr. Beilenson [continuing]. Impossible, you cannot believe 
what this gentleman has done in the past year or so. It is 
impossible to say enough about the wonderful job that he has 
done.
    But I think also with respect to the Regents, who are a 
totally different group of folks, not different human beings 
but in terms of how they are acting, than they were a year ago 
because all of a sudden they have had these huge 
responsibilities which they had thrown upon them and have 
accepted, have been able to accept for the first time because, 
quite frankly, they were kept away from everything by the prior 
Secretary. They were not allowed, they did not know what was 
going on. It really was not their fault.
    Quite heroically I think they faced up to the 
responsibilities and the needs of the Smithsonian and instead 
of taking the easy way out, which a lot of people encouraged 
them to do, quite frankly, and walking away from a shipwreck 
that was largely not their fault nor of their making, these 
very few men and women stayed on and with great energy and an 
enormous amount of very hard work, have turned that institution 
around in the very short time of less than 1 year by 
undertaking and putting into place the many reforms and changes 
that were testified about today in which you gentlemen already 
knew about. So that the Smithsonian is now internally stronger 
and in much better and healthier shape than it has been 
certainly in the more than 12 years since I have been 
associated in my little way with it. It is a totally different 
institution. It is open, the morale is ten times, maybe 40 
times better than it was under Secretary Small. The various 
Directors of the museums meet with the Acting Secretary all the 
time and with one another, as they did not use to, the Acting 
Secretary has met with all of these outside groups and involved 
hundreds, I suppose thousands of people in the workings and in 
the raising of money for the museum, which never went on 
before. It is a totally different creature than it was just a 
year or so ago, due both to Dr. Samper and the very hard work 
of the Regents as they are now constituted.
    Finally, I just wanted to say, and you do not need to be 
told this, of course, that it is essential to acknowledge these 
important changes in order to greet the incoming Secretary, and 
quite frankly, I must say I am sorry it is not Dr. Samper. He 
should have been the choice but apparently this other fellow is 
a very good guy, and we all hope so. To greet the incoming 
Secretary with the support and encouragement which he and the 
Smithsonian deserves since he is first coming onto this thing.
    I mean, put aside the fact that there was disaster at the 
Smithsonian a year and more ago and look at it as a new 
institution with new leadership and give him all the possible 
support that you can, because we never can forget, and I know 
that you folks never do either, we always have to remind 
ourselves that we are discussing something here which is much 
larger and more important than the particular individuals who 
are involved in running it or in being responsible for it but 
rather the great institution itself and what it means and 
stands for to the millions of Americans who cherish it and who 
come to visit it every year.
    And I thank you very much for allowing me to come in here.
    Mr. Dicks. We have outside witnesses.
    Mr. Beilenson. I am not outside. I am a member.
    Mr. Dicks. Well, I know, but you are a former member.
    Mr. Beilenson. Former member.
    Mr. Dicks. So, therefore, you are an outside witness.
    Mr. Beilenson. The Chairman and I were both elected 100 
years ago. Some of you may have----
    Mr. Dicks. We were in the same class.
    Mr. Beilenson. Thank you, sir.

                            OUTSIDE WITNESS

    Mr. Dicks. Todd, anyone else want----
    Mr. Tiahrt. I just want to say, Mr. Chairman, that I 
appreciate Tony coming forward and sharing that with us, 
because we do not have that inside perspective of what has been 
going on in the Institution. We just have the hearing process 
and to hear that the morale is up I think is significant.
    Mr. Beilenson. It is a totally different place----
    Mr. Tiahrt. And the fact that this is different----
    Mr. Beilenson [continuing]. Because of this guy.
    Mr. Tiahrt [continuing]. Is very encouraging to me, and I 
just want to thank you for your testimony.
    Mr. Dicks. Well, we completely agree with what you have 
just said.
    Mr. Beilenson. I know you do.
    Mr. Dicks. And we appreciate your being on the Advisory 
Group and working on this and caring about it, which is very 
important. It is a national treasure, and we are concerned. I 
agree with you. I think it has been turned around. I think 
there is still a lot of work to do. We do not have the 
resources. I mean, this is one of our major problems----
    Mr. Beilenson. Of course.
    Mr. Dicks [continuing]. You know. Our Committee this year 
is cut a billion dollars below last year's level in the 
Presidents request. You know, so we do not have, if we had all 
the money in the world, we could start really addressing the 
backlog and the maintenance and all the other things that have 
to be done, and the need for new exhibits and new facilities 
and better educational programs. I mean, all these things need 
to be done, but this is the most generous budget for the 
Smithsonian of any entity before this Committee.
    Mr. Beilenson. Five percent.
    Mr. Dicks. Five percent. Everybody else is a freeze or 
freeze minus. And, you know, we should have also gotten a $600 
million adjustment just to meet the current services baseline. 
So actually we are $1.6 billion below last year's level. And 
the whole focus of deficit reduction is on domestic 
discretionary spending programs.
    Mr. Beilenson. I understand, Mr. Chairman.
    Mr. Dicks. I just want you to know that we want to do more. 
In fact, last year when we got a good allocation, we did more, 
but at the end of the day, the President said, if you want your 
bill signed, you have to reduce it, so we had to take it back 
down. Actually, the Smithsonian came out very, very well in 
that process, and your colleague from California, Senator 
Feinstein, who is our counterpart, she was very strong and 
supportive of the Smithsonian.
    Mr. Beilenson. That is good.
    Mr. Dicks. The money came out right.
    Mr. Beilenson. That is because you were there, Mr. 
Chairman.
    Mr. Dicks. Well, we did our part.
    Mr. Beilenson. Right.
    Mr. Dicks. Okay.
    Mr. Beilenson. You certainly did, and everyone at the 
Smithsonian appreciates it.
    Mr. Dicks. Well, thank you.
    Mr. Beilenson. Thank you very much.
    Mr. Dicks. Thank you very much.
    Mr. Beilenson. Okay.
    Mr. Dicks. All right. Why don't we end the hearing, and we 
will talk about the exhibits.



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



                           W I T N E S S E S

                              ----------                              
                                                                   Page
Beilenson, Anthony...............................................   471
Cole, Bruce......................................................   429
Gerson-Neider, Jessie............................................   429
Gioia, Dana......................................................   337
Grumbles, B. H...................................................     1
Hannemann, Mufi..................................................   337
Johnson, S. L....................................................     1
Kimbell, A. R....................................................   199
Legend, John.....................................................   337
Lynch, R. L......................................................   337
Peacock, M. C....................................................     1
Redford, Robert..................................................   337
Samper, Cristia'1n...............................................   471
Spector, Jonathan................................................   337
Washington, Kerry................................................   337
Wheatley, Steven.................................................   429
.................................................................
.................................................................
.................................................................
.................................................................
.................................................................
.................................................................
.................................................................













                               I N D E X

                              ----------                              

                    Environmental Protection Agency

                                                                   Page
Air State Grants Reduction.......................................    20
Air Toxics and Quality...........................................    53
Alaska Native Villages...........................................   131
Animal Waste--CERCLA.............................................    24
Biography: Stephen L. Johnson, EPA Administrator.................    15
Brownfields.....................................................57, 131
CA Diesel Emissions Reduction--2008..............................    28
California Ozone Problem.........................................    30
California Standard vs. CAFE Standard............................    26
California Waiver--Staff Comments................................    31
California Waiver Announcement...................................    30
California Waiver Request........................................    26
California Waiver Request--Staff Talking Points..................    29
CASTNET..........................................................   181
Categorical Environmental Program Grants.........................   135
Chesapeake Bay..................................................63, 171
Clean Air Act...................................................18, 167
Clean Automotive Technology......................................    35
Clean Water......................................................   174
Clean Water State Revolving Fund.................................   122
Clean Water State Revolving Funds--State Bond Match..............    22
Climate Change Activities........................................    17
Climate Protection Programs......................................    57
Diesel Emissions Reduction Grants................................   133
Diesel Emissions Reduction Program...............................   197
Drinking and Surface Water.......................................    89
Drinking Water SRF...............................................   126
Endocrine Disruptors.............................................   163
Energy...........................................................   161
Energy Independence and Security Act.............................   144
Energy Permitting Increases......................................   179
Energy Star Program..............................................    25
Enforcement/Compliance...........................................    59
Environmental Education.........................................72, 165
Environmental Programs and Management............................    53
EPA Libraries....................................................   166
Evaluation of Research Part by NAS...............................    33
Facilities Infrastructure and Operation..........................    36
Federal Facility Enforcement.....................................   102
Fixed Costs......................................................    18
FTE and Salary Funds.............................................   150
General Budget...................................................   160
Geographic Programs..............................................    68
Great Lakes......................................................    65
Great Lakes Legacy Act...........................................    88
Greenhouse Gas Registry.........................................16, 145
Greenhouse Gas Rules.............................................    16
Homeland Security..............................................145, 162
Hudson River PCBs................................................   178
IG...............................................................    93
Import Safety....................................................    73
Indoor Air: Radon Program........................................    71
International Programs...........................................    74
IT/Data Management...............................................    76
Leaking Underground Storage Tanks................................    19
Leaking Underground Storage Tanks Trust Fund.....................   120
Long Island Sound................................................    66
Mercury Rules....................................................    20
Mexico Border....................................................   135
Mirant Power Plant...............................................   170
National Biosolids Partnership Program...........................   170
National Estuaries Program.......................................    89
Oil Spill Response...............................................   121
Opening Statement of Administrator Johnson.......................     3
Opening Statement of Chairman Dicks..............................     1
Opening Statement of Mr. Tiahrt..................................     3
Operations and Administration....................................    79
Performance Track................................................    78
Pesticides Licensing.............................................    83
Private Activity Bonds...........................................    23
Puget Sound......................................................    67
Questions for the Record from Chairman Norm Dicks................    33
Questions for the Record from Representative Ben Chandler........   190
Questions for the Record from Representative Jim Moran...........   161
Questions for the Record from Representative John Olver..........   184
Questions for the Record from Representative Ken Calvert.........   197
Questions for the Record from Representative Maurice Hinchey.....   174
Questions for the Record from Representative Todd Tiahrt.........   192
Questions for the Record from Representative Tom Udall...........   186
RCRA.............................................................    85
Rescission.......................................................   144
Research: Clean Water............................................    39
Research: Global Change..........................................    37
Research: Human Health and Ecosystems............................    41
Science and Technology...........................................    33
Sec. 106 Grants..................................................   137
STAG.............................................................   122
Superfund........................................................    97
Superfund Remedial Program.......................................   116
Sustainable Ports Initiative.....................................    27
TCE Risk Assessment..............................................   175
TIME/LTM.........................................................   182
Title 42 Authority...............................................    34
Toxic Substances.................................................    86
Trona Research...................................................    22
UST..............................................................    87
WaterISAC........................................................    70

                             Forest Service

Aircraft Use on Fires............................................   227
Alaska Yellow Cedar..............................................   293
Alaska Fish and Wildlife Management for Subsistence Uses.........   289
Alaska Redcedar General Provisions--Section 411 of FY 2008 Act...   290
Albuquerque Service Center Funding...............................   232
Appropriate Management Response..................................   314
Bark Beetle......................................................   278
Bark Beetle Control..............................................   224
Biography: Abigail R. Kimbell....................................   211
Biomass Utilization Projects.....................................   223
Budget Challenges..............................................212, 214
Budget Cuts......................................................   213
Cellulosic Ethanol...............................................   218
Challenge Cost Share Program.....................................   257
Competitive Sourcing.............................................   263
Connecting People with Nature....................................   323
Cooperative Law Enforcement Agreements...........................   336
Cost Reductions..................................................   230
Ecosystem Services Demonstration Projects........................   265
Emerald Ash Borer................................................   280
Emergency Wildfire Suppression...................................   229
Fire Analysis System.............................................   334
Fire Borrowing and Emergency Funding.............................   332
Fire Funding Transfers from Other Accounts.......................   220
Fire Preparedness and Suppression Funding........................   215
Fire Preparedness Funding........................................   325
Fire Programs....................................................   326
Fire Suppression Budget Reform...................................   295
Fire Suppression Costs...........................................   305
Fire Suppression Funding.........................................   324
Fish, Wildlife, and Sensitive Species Management.................   247
Fixed Costs......................................................   237
Forest Health....................................................   263
Forest Health and Fire Management Funding........................   333
Forest Health Management.........................................   335
Forest Health Pests..............................................   277
Forest Health Protection.........................................   328
Forest Legacy Program............................................   260
Forest Products..................................................   303
Forest Products Lab Modernization................................   272
Forest Service Research..........................................   270
Forest Service Road System.....................................237, 309
Forest Service Trail System......................................   320
Full-time Equivalent Reductions......................213, 217, 307, 328
Funding Allocation...............................................   298
Habitat and Watershed Reductions.................................   264
Healthy Forests Initiative.......................................   335
Insurance Companies..............................................   226
International Programs...........................................   282
Invasive Species Management......................................   253
Ketchikan Wood Technology Center.................................   281
Land Acquisition and Open Space..................................   261
Land Acquisition.................................................   330
Land Acquisition Projects........................................   300
Land and Water Conservation Fund.................................   300
Landownership Management.........................................   254
Large Cuts in Budget.............................................   228
Large Fire Trends................................................   223
Law Enforcement...........................................256, 319, 330
Legacy Road and Trails Remediation Program.......................   212
Minerals and Geology Management..................................   253
Move Forest Service to Department of the Interior..............297, 331
Nanotechnology...................................................   273
National Forest Foundation.......................................   294
NEPA Analysis....................................................   308
New Land Management Planning Rule................................   269
Northern States Research Cooperative.............................   274
Opening Remarks of Chairman Dicks................................   199
Opening Remarks of Mr. Tiahrt....................................   200
Opening Statement--Chief Kimbell.................................   201
Other National Forest System Programs............................   244
Other New Bill Language and Proposed Law Amendments..............   293
Planning Rule....................................................   321
Preparedness Funding.............................................   295
Questions for the Record from Chairman Norm Dicks................   228
Questions for the Record from Representative Alan Mollohan.......   318
Questions for the Record from Representative Jim Moran...........   300
Questions for the Record from Representative Ken Calvert.........   333
Questions for the Record from Representative Maurice Hinchey.....   312
Questions for the Record from Representative Todd Tiahrt.........   324
Recreation Facility Master Planning..............................   240
Recreation Funding...............................................   241
Recreation Inventory.............................................   243
Recreation Program...............................................   212
Recreation, Heritage, and Wilderness.............................   302
Reforestation and Rehabilitation.................................   264
Research and Development.......................................301, 315
Revenue, Receipts, and Transfers.................................   286
Roadless Rule....................................................   268
Role of Military in Firefighting.................................   329
Sale of Mineral Rights on Experimental Forests...................   318
Service First....................................................   297
State and Private Forestry.......................................   319
State and Private Forestry--Cooperative Forestry.................   274
State and Private Forestry Redesign..............................   281
State Fire Assistance............................................   307
State Payrolls...................................................   233
Stewardship Contracting..........................................   219
Sudden Oak Death.................................................   279
Suppression Cost Apportionment Agreements........................   225
Timber Sales Program.............................................   261
Transformation...................................................   308
Transportation System Planning...................................   240
Travel Management................................................   246
Uranium Mining...................................................   322
Urban and Community Forestry.....................................   302
Valles Caldera National Preserve.................................   218
Visitor Numbers..................................................   243
Volunteers.......................................................   252
Wilderness and Wild and Scenic Rivers............................   245
Wildland Fire Management.........................................   329
Wildland Fire Management Effect on Overall Budget................   312
Wildland Fire Management Funding.................................   214
Wildland Fire Use................................................   304
Wildfire FTEs and Resources......................................   296
Wood Product for Energy Production...............................   262
Workforce Mobility...............................................   222

                    National Endowment for the Arts

Artists and Arts Education.......................................   361
Arts Education.................................................355, 361
Arts Education in U.S............................................   342
Authorization....................................................   422
Biography: Dana Gioia, NEA Chairman..............................   351
Decline in Reading........................................342, 353, 354
Domestic Indemnity.............................................419, 420
Federal Partnerships.............................................   354
Geographic Reach.................................................   341
High School Poetry Recitation Contest............................   339
Impact of NEA Programs.........................................340, 357
International Cultural Programs................................343, 362
National Initiatives.............................................   359
NEA and Indian Country...........................................   425
NEA and the Role of Partnerships.................................   427
NEA Leadership............................................337, 352, 359
New Direction of Agency..........................................   338
Operation Homecoming......................................338, 342, 354
President's Request............................................338, 357
Questions for the Record from Chairman Norm Dicks................   417
Questions for the Record from Representative Todd Tiahrt.........   424
Questions for the Record from Representative Tom Udall...........   423
Reaching Underserved Communities..........................352, 356, 358
Research and Evaluation..........................................   419
Shakespeare in American Communities..............................   357
Statement of Dana Gioia, NEA Chairman............................   344
The Big Read....................................339, 342, 358, 360, 424

                           Arts Advocacy Day

Testimony of Representative Christopher Shays....................   367
Testimony of Representative Louise Slaughter.....................   363
Written Testimony of Honorable Mufi Hannemann....................   380
Written Testimony of John Legend.................................   388
Written Testimony of Jonathan Spector............................   400
Written Testimony of Kerry Washington............................   395
Written Testimony of Robert Lynch................................   371
Written Testimony of Robert Redford..............................   408

                 National Endowment for the Humanities

Biography--Bruce Cole, NEH Chairman..............................   444
Budget for ``Picturing America''.................................   446
Continuation of Mr. Cole's Opening Statement.....................   433
Continuation of Mr. Cole's Opening Statement.....................   437
Digital Humanities Programming...................................   435
Evaluating the Effectiveness of ``Picturing America''............   448
Opening Remarks of Chairman Dicks................................   429
Opening Remarks of Mrs. Emerson..................................   430
Opening Statement of Bruce Cole, NEH Chairman....................   432
Opening Statement of Ranking Member Todd Tiahrt..................   431
Outreach to Underserved Communities..............................   449
``Picturing America'': Federal & Non-Federal Partners............   448
Questions for the Record from Chairman Norm Dicks................   452
Reduction of Preservation and Access and Challenge Grants Budgets   450
Rent Increase....................................................   450
Statement of Mr. Steven Wheatley.................................   436
Statement of Ms. Jessie Gerson-Neider............................   434
Support for Digital Humanities Programming.......................   447
Using ``Picturing America'' in the Classroom.....................   446

                        Smithsonian Institution

Abraham Lincoln's Iron Wedge.....................................   472
Anaconda Vertebrae...............................................   473
Arts and Industries Building....................488, 489, 521, 532, 538
Asian Longhorn Beetle............................................   473
Biography: Cristia'1n Samper.....................................   483
Butterfly Exhibition.............................................   526
Capital Projects--Setting Priorities.............................   521
Changes in Smithsonian Senior Leadership.........................   494
Commercial Partnerships..........................................   518
Deaccessioning Smithsonian Collections...........................   508
Digitization.....................................................   544
Donation Boxes...................................................   493
Encyclopedia of Life.............................................   498
Facilities Maintenance and Facilities Capital....................   528
Federal Credit Cards at Smithsonian..............................   508
Fiscal Year 2009 Budget........................................485, 529
Fixed Costs....................................................525, 546
Fundraising......................................................   520
Governance Reform................................................   540
History of Energy................................................   499
Impact of $11.2 Million Program Reduction........................   485
Impact of Facilities Investment on Programs....................487, 538
Legacy Fund....................................................520, 532
Licensing Agreement with EF Travel...............................   492
LifeStraw......................................................474, 475
Loaned Artifacts.................................................   512
Location Selection for New Museums...............................   510
Management of Expenditures.......................................   506
National Museum of African American History and Culture........507, 525
National Museum of American History Reopening....................   502
National Zoological Park.......................................495, 546
Opening Remarks of Chairman Dicks................................   471
Opening Remarks of Congressman Tiahrt............................   472
Opening Remarks of Cristia'1n Samper.............................   476
Opuntia Cactus...................................................   475
Outside Witness................................................513, 514
Proceedings of the Board of Regents..............................   505
Progress on Reducing Facilities Backlog........................487, 539
Questions for the Record from Chairman Norm Dicks................   516
Questions for the Record from Representative Jim Moran...........   528
Questions for the Record from Representative Todd Tiahrt.........   538
Radio-Tracking Collar............................................   475
Recent Changes at the Smithsonian................................   485
Regents' Oversight...............................................   503
Robert Sullivan Article:
    Public Interest in New Museums...............................   511
    Smithsonian Education Programs...............................   502
Sale of Real Estate Assets.......................................   486
Science........................................................522, 543
Smithsonian:
    Affiliations.................................................   496
    Endowment....................................................   492
    Membership Program...........................................   498
    Stamp Collection.............................................   509
    Student Travel Program................................490, 500, 535
Smithsonian Business Ventures..................................488, 541
Smithsonian Unified Compensation and Leave System..............505, 518
Trust Funds......................................................   534
Twenty-year Appropriation History................................   516
Use of Endowment for Repairs...................................511, 529
Visitation.......................................................   534

                                  <all>
</pre></body></html>
